<html>
<title> - VESSEL OIL POLLUTION: REDUCING THE RISK OF FUTURE SPILLS</title>
<body><pre>[Senate Hearing 109-1097]
[From the U.S. Government Printing Office]


                                                       S. Hrg. 109-1097
 
                         VESSEL OIL POLLUTION: 
                   REDUCING THE RISK OF FUTURE SPILLS 

=======================================================================

                             FIELD HEARING

                               before the

                       SUBCOMMITTEE ON FISHERIES 
                          AND THE COAST GUARD

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             AUGUST 1, 2005

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation










                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

62-793 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office, http://bookstore.gpo.gov For more information, contact the GPO Customer Contact Center, U.S. Government Printing 
Office. Phone 202-512-1800, or 866-512-1800 (toll free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c9aeb9a689aabcbabda1aca5b9e7aaa6a4">[email&#160;protected]</a> 





       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                     TED STEVENS, Alaska, Chairman
JOHN McCAIN, Arizona                 DANIEL K. INOUYE, Hawaii, Co-
CONRAD BURNS, Montana                    Chairman
TRENT LOTT, Mississippi              JOHN D. ROCKEFELLER IV, West 
KAY BAILEY HUTCHISON, Texas              Virginia
OLYMPIA J. SNOWE, Maine              JOHN F. KERRY, Massachusetts
GORDON H. SMITH, Oregon              BYRON L. DORGAN, North Dakota
JOHN ENSIGN, Nevada                  BARBARA BOXER, California
GEORGE ALLEN, Virginia               BILL NELSON, Florida
JOHN E. SUNUNU, New Hampshire        MARIA CANTWELL, Washington
JIM DeMINT, South Carolina           FRANK R. LAUTENBERG, New Jersey
DAVID VITTER, Louisiana              E. BENJAMIN NELSON, Nebraska
                                     MARK PRYOR, Arkansas
             Lisa J. Sutherland, Republican Staff Director
        Christine Drager Kurth, Republican Deputy Staff Director
                David Russell, Republican Chief Counsel
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
   Samuel E. Whitehorn, Democratic Deputy Staff Director and General 
                                Counsel
             Lila Harper Helms, Democratic Policy Director
                                 ------                                

             SUBCOMMITTEE ON FISHERIES AND THE COAST GUARD

                  OLYMPIA J. SNOWE, Maine, Chairwoman
TED STEVENS, Alaska                  MARIA CANTWELL, Washington, 
TRENT LOTT, Mississippi                  Ranking
GORDON H. SMITH, Oregon              DANIEL K. INOUYE, Hawaii
JOHN E. SUNUNU, New Hampshire        JOHN F. KERRY, Massachusetts
DAVID VITTER, Louisiana              FRANK R. LAUTENBERG, New Jersey



















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on August 1, 2005...................................     1
Statement of Senator Cantwell....................................     1
    Prepared statement of Hon. Christine O. Gregoire, Governor of 
      the State of Washington submitted by Hon. Maria Cantwell...     3

                               Witnesses

Boothe, Captain Myles, Commandant, U.S. Coast Guard..............     3
    Prepared statement...........................................     5
Felleman, Fred, Northwest Director, Ocean Advocates..............    57
    Article by Mike Merritt, dated June 17, 1989, from the 
      Seattle Post--Intelligencer, entitled, ``Big oil spill 
      here? We're unprepared''...................................    58
    Prepared statement...........................................    62
Helton, Douglas, Incident Operations Coordinator, Office of 
  Response and Restoration, National Oceanic and Atmospheric 
  Administration (NOAA), DOC.....................................    12
    Prepared statement...........................................    14
Holmes, Frank E., Northwest Regional Manager, Western States 
  Petroleum Association (WSPA)...................................    45
    Prepared statement...........................................    46
Jensen, Dale, Program Manager, Spill Prevention, Preparedness, 
  and Response Program, Washington State Department of Ecology...    19
    Prepared statement...........................................    22
Leschine, Professor Thomas M., Director, School of Marine 
  Affairs, University of Washington..............................    51
    Prepared statement...........................................    54
Sones, Hon. David, Vice Chairman, Makah Tribal Council; on behalf 
  of the Northwest Indian Fisheries Commission (NWIFC)...........    39
    Prepared statement...........................................    42
Wright, Richard, Pacific/Northwest Region Vice President, Marine 
  Spill Response Corporation (MSRC)..............................    48
    Prepared statement...........................................    50

                                Appendix

Jensen, Dale, letter with attachment, dated August 15, 2005, to 
  Hon. Maria Cantwell............................................    75
Prince William Regional Citizens' Advisory Council (PWSRCAC), 
  prepared statement.............................................    78
Response to written questions submitted by Hon. Maria Cantwell 
  to:
    Captain Myles Boothe.........................................    83
    Douglas Helton...............................................    80
    Richard Wright...............................................    90
Stevens, Naki, Director of Programs, People for Puget Sound, 
  letter, dated August 12, 2005, to Hon. Maria Cantwell..........    77


                         VESSEL OIL POLLUTION: 
                   REDUCING THE RISK OF FUTURE SPILLS

                              ----------                              


                         MONDAY, AUGUST 1, 2005

                               U.S. Senate,
     Subcommittee on Fisheries and the Coast Guard,
        Committee on Commerce, Science, and Transportation,
                                                       Seattle, WA.
    The Subcommittee met, pursuant to notice, at 10 a.m. in the 
Port of Seattle Commission Chambers, Hon. Maria Cantwell 
presiding.

           OPENING STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Good morning. Today's field hearing is a 
hearing of the U.S. Senate Commerce Committee to make sure that 
we are doing all we can to prevent future oil spills in 
Washington State waterways, and to make sure that the area of 
oil spill prevention and response is something that not only 
Washington State is good at, but to learn from the Washington 
State experience as we look at Federal policies and legislation 
to address the nationwide risk from continued oil spills.
    Today's hearing is important for several reasons. First and 
foremost, Congress recently received a report from the Coast 
Guard assessing the progress our Nation has made in 
implementing the ground-breaking Oil Pollution Act of 1990, a 
major piece of legislation Congress passed in the wake of the 
devastating Exxon Valdez incident.
    What the Coast Guard told us is that while the Oil 
Pollution Act of 1990 has done a lot to reduce the risk of 
maritime oil pollution, spills are still occurring far too 
often. In fact, according to the Coast Guard, the total volume 
of oil spills in the United States from vessels in 2004 was 
larger than in 1992.
    One of the primary findings of the report was that the Oil 
Spill Liability Trust Fund, which makes sure that resources are 
available to respond to oil spills immediately, would be 
running out before 2009. In fact, new predictions based on the 
rising costs of the ongoing cleanup in the Delaware River from 
the Athos I spill estimate that the Fund could actually run out 
even sooner. This could have a big impact on Washington State, 
which received over $5 million from the Trust Fund between 1997 
and 2004 for emergency response and cleanup.
    I was surprised to learn that spills can cost anywhere from 
$1,000 per gallon of oil released. With 50 spills in Washington 
State over 10,000 gallons over the past 30 years, the Trust 
Fund has provided a critical source of funding, ensuring fast 
and effective response, and that states are not crippled by the 
burden of paying for oil spill cleanup.
    Fortunately I am pleased to report that Congress, in the 
energy bill passed last week, included language from Senate 
Bill 1222, which would reinstate the fee that ensures the 
health of the Oil Spill Cleanup Fund.
    However, the Coast Guard report indicated that there are 
other remaining issues. These issues include: one, whether the 
cost of spills is outpacing the amount that responsible parties 
are to pay; two, whether enough is being done to guard against 
the risks from aging single-hulled vessels; three, whether all 
of the navigational tools that we have at-hand are up to date 
and being used fully; four, whether adequate manning and 
inspection regulations are in place; and lastly, whether 
response capabilities are sufficient.
    Now, 15 years after the Oil Spill Pollution Act, I hope we 
can reexamine these vital issues, especially as they relate 
today to the State of Washington, so that I can take this 
information back to my colleagues in Washington, D.C. That's 
why I'm pleased to have the group of panelists that we have 
before us today.
    We have expert witnesses from two key Federal agencies 
involved with oil spill prevention, response, and cleanup, and 
I thank them for coming today. We are also lucky to have a key 
player in our state's oil prevention effort, Mr. Dale Jensen 
from the Washington State Department of Ecology. Washington 
State has been extremely active in addressing and reducing oil 
spill threats and has worked collaboratively with our Federal 
partners.
    I'd like to publicly thank Governor Gregoire for her 
leadership on this critical issue. She has submitted a 
statement and I will include that in the record of our hearing 
today. We, I believe, do have a proud history with previous 
Governors who have looked at the valuable resource we have in 
Puget Sound, and taken aggressive action to protect it from oil 
pollution.
    Rounding out our government panel will be Dave Sones, who I 
believe is on his way, the Vice Chairman of the Makah Tribal 
Council who will speak on behalf of the Northwest Indian 
Fisheries Commission in representing our diverse coastal 
tribes.
    Our second panel is equally important because it has a set 
of witnesses that represent key stakeholders including the oil 
industry, the oil spill response industry, a key academic 
analyst, and members of our vigilant citizens' groups who have 
been at the forefront of fighting to protect Puget Sound and 
our incredible quality of life here.
    So again, thank you all for coming. I know we share the 
goals of having good, sound oil spill prevention, and if 
necessary, cleanup, and we're all here to protect our 
magnificent Puget Sound and coastal regions, not just in the 
State of Washington but around the Nation. So I look forward to 
hearing from each of you and your insights on the issues this 
morning.
    The Port here has a fabulous technology conference center, 
but it doesn't allow us the same technology signals that we 
have in the U.S. Senate. I'm going to ask, if you can, to keep 
your comments to 5 minutes, and longer statements can be 
submitted for the record.
    And all I have here is this little digital clock--not only 
am I chairing the hearing, I'm the official time-keeper here. I 
will be lenient, but if you can, keep to your 5 minutes and 
that will be helpful.
    [The prepared statement of Governor Gregoire follows:]

           Prepared Statement of Hon. Christine O. Gregoire, 
                  Governor of the State of Washington
    Senator and Madame Chair Cantwell and Members of the Committee:
    Greetings and welcome to Washington State!
    There could be no better backdrop than Puget Sound to highlight the 
critical importance of Federal and state oil spill prevention and 
response programs. And there is no better program in the country than 
the partnership between the U.S. Coast Guard and the state of 
Washington.
    Our state is a national leader in oil spill prevention, 
preparedness, and response. We have a proud history of taking action to 
protect our valuable natural resources from oil spills. The courts have 
been clear about the respective roles of the Federal and state 
government, including the obligations of each level of government to 
ensure sufficient funding for spill response.
    The state has established the Oil Spill Response Account to provide 
funding for incident response activities. This account is funded 
through a tax on crude oil and petroleum products. On the Federal side, 
the Oil Spill Liability Trust Fund is a key tool in our ability to 
respond to spills. Access to this fund was crucial in securing quick 
and effective response to significant spill events in Puget Sound such 
as the Olympic Pipeline explosion and the recent Dalco Passage mystery 
spill.
    I thank Senator Cantwell for securing continued funding for this 
account through her efforts with the Federal energy bill.
    The Federal and state oil spill partnership benefits from the 
strong support of our oil and shipping industries. Our inspections and 
surprise drills show strong compliance, a high state of readiness, and 
a solid commitment to the programs. Just last week, we called for an 
increase in the number of spill response vessels to improve our ability 
to respond to a larger spill. As they have in the past, our industry 
representatives have signaled that they will do what is necessary to 
make sure Puget Sound is safe and protected.
    Equally important, our oil spill programs have benefited from the 
active engagement of our citizens. We are giving our citizens a 
stronger voice in these matters. Pursuant to new state law, I am 
pleased to announce that I have appointed Mike Cooper as the chair of 
the Washington Oil Spill Advisory Council. The details of Mike's role, 
and the remaining council members, will be announced in the coming 
days.
    I extend my gratitude to Senator Cantwell for holding this hearing 
and bringing our region to the Committee's attention. I pledge the 
state's continued vigilance, and ask for your support to ensure the 
Federal Government's vigorous engagement in oil spill prevention and 
cleanup.

    Senator Cantwell. Again, thank you all very much for being 
here, and I think we're going to start with you, Captain 
Boothe.

        STATEMENT OF CAPTAIN MYLES BOOTHE, COMMANDANT, 
                        U.S. COAST GUARD

    Captain Boothe. Thank you, good morning, Senator Cantwell. 
It is a pleasure to appear before you today to discuss the 
Coast Guard's role in protecting our marine resources within 
the Pacific Northwest against the threat of pollution, while 
also preserving the safe and efficient flow of commerce within 
our diverse waterway systems here. The Coast Guard Captains of 
the Port as the pre-designated Federal On-Scene coordinators 
for the coastal zones, have primary responsibility for 
preparedness and response to oil and hazardous material spills 
within this area.
    Despite the increased emphasis on maritime homeland 
security since September 11, 2001, these Captains of the Port 
have steadfastly led their respective area committees' planning 
and response actions prescribed under the Oil Pollution Act of 
1990, or OPA. The Pacific Northwest environment and economy are 
of exceptional, if not strategic, importance to the Nation. We 
all know that. The Coast Guard's overarching environmental 
protection goal is to eliminate damage to our environment and 
degradation of our natural resources associated with maritime 
activities.
    We strive to achieve this goal by eliminating or reducing 
the probability and/or consequence of pollution resulting from 
a marine accident with the same vigor as we did prior to the 
attacks on America. Spills in Washington coastal waters under 
Coast Guard jurisdiction have averaged just three--or 10,300 
gallons in the last 5 years. Considering that some 15 billion 
gallons of oil are transferred or moved annually by marine 
sources in Washington, that equals approximately \7/10\ of a 
gallon per million gallons shipped.
    Based on a 2002 National Research Council report which 
alluded that over 29 million gallons of oil is spilled annually 
in the United States marine environment, Washington State's 
spills within the coastal zone equal only \3/100\ of a percent 
of this annual pollution. Yet even acknowledging this 
remarkably low spill rate, we cannot become complacent in our 
relative success. We must remain ever vigilant to address the 
risk of future pollution.
    OPA 90 has dramatically reduced pollution in America. 
Within the Pacific Northwest, OPA measures have greatly 
enhanced Coast Guard, Washington Department of Ecology, 
industry, and Canadian efforts to prevent and mitigate the 
effects of an acute oil or hazardous material spill in our 
environment. As detailed in my written statement submitted for 
the record, within the Pacific Northwest and Puget Sound in 
particular we have established arguably the strongest marine 
safety prevention net in the Nation, including 16 major 
intervention strategies that vastly reduce the probability of a 
catastrophic release of oil from a vessel in transit or during 
cargo transfer operations.
    Some of the measures like tug escorts, vessel monitoring 
systems, vessel traffic services, and single-hull tank vessel 
phaseouts were either imposed or strengthened further by OPA, 
and are addressed generally within the Coast Guard's recent 
report to Congress on OPA's implementation. However, the 
combination of OPA measures with several other strategies 
established through separate efforts unique to this region, 
creates an extraordinary level of risk reduction.
    Likewise, this region has a unique and active unified 
regional and area response system operating under a single 
contingency plan to assure consistent, effective, and 
coordinated responses to mitigate the severity and impact of 
oil spills.
    While we have one of the strongest pollution mitigation 
systems in the country, or at least I say so, we nonetheless 
must, and do, continually assess areas for improvement. Last 
winter, the Governor and the District Commander here 
established an Oil Spill Early Action Task Force, convened 
under the auspices of the Regional Response Team and the area 
committee to assess the potential areas for improved response 
to oil spills and adverse weather conditions.
    The task force developed 11 broad recommendations for 
system improvement. Many of these have already been integrated 
into the Northwest Area Community Strategy Work Plan for 
implementation, while Washington State is addressing others 
separately. A key task force concern was the Federal and state 
response to a mystery spill. In the absence of an effective 
responsible party-led and financed response effort, the Coast 
Guard and states must have the means to respond promptly and 
appropriately to meet the mandates of OPA 90 and the Federal 
Order Pollution Control Act.
    Thank you, Senator Cantwell, for your leadership and 
interest in preserving the Oil Spill Liability Trust Fund as a 
viable and stable funding source for this purpose.
    Nationally there are a number of important gap closing over 
rulemakings that also remain outstanding that I would like to 
talk about. But in conclusion, the Pacific Northwest has a 
robust collaborative maritime safety prevention and response 
net which has greatly mitigated the potential for a 
catastrophic spill within the region. Their tremendous success 
is achieved or due in large part to the strong partnerships and 
an engaged environmental community here. Much work remains to 
be done to complete the OPA agenda and reduce America's 
vulnerability to pollution and other maritime safety threats. 
With continued Congressional and Administration support I'm 
confident that we will succeed in delivering the robust 
maritime safety and environmental security this state and 
America expects and deserves.
    Thank you for the opportunity to testify this morning, 
ma'am. I'll be happy to answer any questions.
    [The prepared statement of Captain Boothe follows:]

        Prepared Statement of Captain Myles Boothe, Commandant, 
                            U.S. Coast Guard
Introduction
    Good morning Senator Cantwell and distinguished members of the 
Committee. It is a pleasure to be here today to discuss the Coast 
Guard's role in protecting our marine resources within the Pacific 
Northwest against the threat of pollution while preserving the safe and 
efficient flow of commerce within our diverse waterway systems.
    The Coast Guard has continued to meet our statutory 
responsibilities, even with the increased emphasis on maritime homeland 
security since September 11, 2001. This is particularly true regarding 
protection of the marine environment, from both a prevention and 
response perspective. The Coast Guard has primary responsibility for 
preparedness and response to oil and hazardous material spills within 
the coastal zone. Our Captains of the Port, as the pre-designated 
Federal On-Scene Coordinators for the coastal zones under the National 
Contingency Plan, have continued to lead their respective Area 
Committees' planning and response actions prescribed under the Oil 
Pollution Act of 1990 (OPA 90). In particular, the Coast Guard 
continues to oversee and manage numerous intervention strategies to 
prevent maritime accidents that may cause harm to our environment, and 
oversee or direct most clean-up efforts within the coastal zone with 
the same vigor as prior to the attacks on America.
The Pacific Northwest Environment and Economy
Environmental Sensitivity
    Washington State waters within the coastal zone represent some of 
the most pristine coastal areas within the Nation. Encompassing over 
4,000 square miles and over 2,700 miles of rugged coastline, including 
over 300 hundred miles of the Columbia River, this diverse ecosystem 
includes many ``environmentally sensitive'' areas, some of which 
include the Olympic Coast National Marine Sanctuary, Padilla Bay 
National Estuarine Research Reserve, the South Slough National 
Estuarine Research Reserve, the Washington Maritime National Wildlife 
Refuge Complex, the Willapa National Wildlife Refuge Complex, the Grays 
Harbor National Wildlife Refuge, and numerous tribal aquaculture sites. 
Both resident and migrating orca (killer whale) pods feed extensively 
throughout the waters of the Strait of Juan de Fuca, Puget Sound, and 
Haro Strait. Many species of nesting, wintering, and migrating 
seabirds, shorebirds, waterfowl, and raptors utilize the outer coast as 
well as the Strait of Juan de Fuca and Puget Sound for foraging, 
nesting, and resting. Environmental responses can be particularly 
challenging along Washington State's Pacific coast, due to the steep 
slopes on shore, exposed location, shoals and offshore rocks, and lack 
of roads. Within the Puget Sound region, the challenges include 
significant tidal ranges and sensitive wetland mud flat areas.
    Puget Sound is a complex environmental system made up of diverse 
shoreline features. There are heavily industrialized areas immediately 
adjacent to sensitive refuge areas. There are several historical and 
tribal archaeological sites along much of the coastal zone. Vegetated 
banks and marshes line most of the waters that flow into the Sound, and 
Columbia River and its tributaries.
    The biological resources in the region cross the spectrum of marine 
life including birds, fish, shellfish, and marine mammals. There are 
high concentrations of waterfowl present over most seasons, as well as 
several birds of prey which nest in the region. Coastal estuaries are 
sensitive habitats for many types of birds and forage fish. Coastal 
islands are used as nesting and rearing sites for many seabird species, 
some of which are nationally rare. The Grays Harbor estuary provides an 
internationally significant resting and feeding area for tens of 
thousands of migrating shorebirds that concentrate there in the spring. 
The Puget Sound region is home or feeding grounds for several orca 
families, and the region has several seal rookeries. Dungeness crab, 
oysters, clams, and mussels are the predominant significant shellfish 
in Puget Sound and coastal zone region. Numerous salmon species also 
thrive in these waters, as well as the Columbia River and its 
tributaries, which serve as both fish highways and critical spawning 
grounds.
Economics
    The Puget Sound region, Gray's Harbor, Columbia River, and other 
waters of the Pacific Northwest provide several fine harbors for 
commercial and public vessels. The area has historically supported 
valuable fisheries (both recreational and commercial) and a large, 
ever-increasing, recreational boating community. We share a 125-mile 
international maritime border with Canada along the Strait of Juan de 
Fuca, Haro Strait, Boundary Pass, and the Strait of Georgia, which 
provide access to the ports of Victoria and Vancouver, British 
Columbia, and several U.S. ports. The Marine Transportation System 
(MTS) in Puget Sound and the Columbia River port complexes provide an 
important economic link to Asian markets and to the West Coast of the 
United States, including Alaska.
    The Puget Sound region receives approximately 5,000 deep-draft 
vessel arrivals through the Strait of Juan de Fuca each year. 
Approximately three-fifths of those vessels transiting the 125-mile 
international maritime border are bound for U.S. ports, while the 
remainder proceed to Canadian ports. The Seattle-Tacoma port complex is 
the third largest containerized cargo complex in the Nation, and Puget 
Sound is homeport to a large Seattle-based fishing fleet, the largest 
passenger ferry fleet in the Nation, and a major cruise ship industry 
which has seen dramatic growth over the last several years. Over 700 
tank ships arrive each year, transporting approximately 15 billion 
gallons of crude oil and refined products to and from the five 
refineries in Puget Sound waters. Puget Sound possesses one of only 15 
strategic ports in the Nation, transporting military supplies and 
equipment by vessel to support our troops overseas. The Puget Sound 
region is critical not only locally, but also to the Nation.
    Gray's Harbor, approximately 10 miles south of the Olympic Coast 
National Marine Sanctuary on the Washington coast serves as a major 
local coastal fisheries homeport, as well as one of the principal 
oyster aquaculture beds for the region.
    Finally, the Columbia River system, along the Washington-Oregon 
border, serves the principal port complexes of Longview, Washington at 
mile 50; and Vancouver, Washington, and Portland, Oregon; located 100 
miles from the entrance. This system serves as the Pacific gateway and 
the second largest port complex for U.S. grain export. It also serves 
as a major automobile distribution port. Approximately 1,800 foreign, 
deep-draft vessels transit this 100 mile serpentine stretch of the 
river each year.
    The port complexes in Puget Sound and the Columbia River are key 
contributors to the economic vitality of the United States, ranking on 
the Coast Guard's list of the most economically significant ports in 
the Nation.
Reducing Risk in the Pacific Northwest Maritime Environment
    The Coast Guard's overarching environmental protection goal is to 
eliminate damage to our environment and degradation of our natural 
resources associated with maritime activities, including 
transportation, commercial fishing, and recreational boating. Having 
set the stage for the level of activity in this marine transportation 
system and the resources at risk throughout the region, I will describe 
the key risks of pollution within the region, the substantial and 
unique safety net which this region boasts, and then some areas for 
improvement.
    Causes of Spills: Spills can originate from every type of vessel 
and facility on or near the water. However many spills, including some 
high-volume spills, come from sources completely outside the Coast 
Guard's jurisdiction, such as rail, small plane, truck and industrial 
accidents, highway runoff, or underground storage tanks leaking into 
storm drains. In the National Research Council report, Oil in the Sea 
III: Inputs . . . and Effects (2002), it is noted that 16.2 million 
gallons of a total of 29 million gallons spilled annually in the United 
States are attributable to street runoff, industrial waste, municipal 
wastewater, refinery wastewater, and recreational vessels. Of that 
amount, approximately 1.5 million gallons are attributable to spills 
from tank vessels.
    Regionally, our record is much brighter. While we have averaged 
about 10,300 gallons per year of oil spilled for the past 5 years, in 
2004 less than 5,000 gallons of oil were spilled in Washington waters, 
and that included the 1,000 gallon spill attributable to the Dalco 
Passage incident. That is a remarkably low amount of oil spilled, given 
the excess of 15 billion gallons of oil that is transferred annually by 
Washington marine sources.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Recreational vessels and fishing vessels typically account for the 
highest number of identified marine related spills each year. The 
pollution threat potential from recreational vessels is relatively 
small in the total volume spilled per incident; however, for 2004, the 
recreational vessel spills accounted for the most gallons spilled 
within the Puget Sound region. Tank vessels and bulk liquid oil 
facilities are highly regulated and are operated by highly trained and 
certified professionals. The probability of spills from tank vessels 
and facilities is understandably lower. However, should such spills 
occur, the potential spill volumes are much greater in magnitude. The 
volume from one spill from those sources could easily be over 1,000 
gallons given quantities and typical handling rates. Likewise, spills 
from uninspected commercial vessels (fishing and towing vessels) and 
derelict vessels can also involve relatively high potential oil 
volumes. Together, known recreational vessels and fishing vessels 
accounted for over 50 percent of the oil spilled within the Washington 
coastal zone in 2004. A significant amount attributable to ``mystery 
spills'' is also considered likely to come from these mostly 
uninspected and unregulated marine sources.
    Hundreds of oil transfers take place every week in the Pacific 
Northwest region. These may range from a recreational boater getting a 
fill-up at a marina, to a 900-foot tank ship unloading a cargo of crude 
oil at a local refinery. During each transfer, there is a risk of an 
oil spill. In 2004, 58 of the 560 spills reported were linked to oil 
transfer operations, accounting for 6 percent of the total volume 
spilled.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The cause of oil spills is, of course, related to the source. While 
most spills from vessels occur at the dock, rather than while the 
vessel is underway, there can be many contributing factors causing 
these spills. The most common causes include:

  <bullet> Mechanical failure of hydraulic lines.

  <bullet> Structural failure of hulls of derelict vessels (vessel 
        sinkings).

  <bullet> Structural failure of cargo tanks, cargo piping, or cargo 
        relief valves.

  <bullet> Operator error during fueling--generally related to 
        overfilling a tank.

  <bullet> Human factors such as poorly-documented procedures.

  <bullet> Truck rollovers, collisions, mechanical failures, and human 
        errors from non-marine sources such as trucks, trains, 
        factories, etc.

    Of the 8 billion gallons of crude oil typically transported and 
transferred by tank vessels within Puget Sound each year, less than 
1,500 gallons of crude oil were spilled within the last 5 years. 
Another 7 billion gallons of refined products are annually transported 
by tank vessels; again, only 500 gallons of refined oil was spilled 
over the last 5 years by tankers. These spills were the result of human 
error during cargo handling or ballasting operations. None of these 
spills from tank ships were attributable to collisions, allisions, or 
groundings.
    Despite this extraordinary tank vessel safety history, and an 
acknowledgement that the likelihood of in-transit accidents within the 
Puget Sound region are greatly mitigated by the existing safety net 
within Puget Sound region, the inherent hazards associated with the 
transport and transfer of such significant volumes of oil through an 
extremely difficult navigation area represent a very high consequence 
should a major grounding and large-volume oil spill occur. Therefore, 
the Coast Guard and industry must remain prepared, regardless of 
source, to monitor and direct a proper response for all spills 
impacting coastal zone waters, and specifically be prepared to address 
the acute damaging impact to the environment of a large oil spill from 
a vessel.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Unique Pacific Northwest Marine Safety Net
    Within the Pacific Northwest we have one of the strongest maritime 
safety nets in the Nation to help prevent and mitigate the effects of 
oil and hazardous material spills on our environment. The Coast Guard 
employs a threat-based, risk managed approach to mitigate the potential 
for a serious marine incident that might result in a substantial threat 
to the marine environment.
Prevention Systems
  <bullet> Pre-Arrival Checks and Offshore Routing: Before any vessel 
        greater than 1,600 gross tons enters U.S. waters its crew is 
        obligated to perform safety checks of propulsion and steering 
        equipment, and report any deficiencies prior to entering port, 
        to help guard against a mechanical malfunction occurring close 
        to U.S. shorelines or within maneuvering waters. In addition, 
        tank vessels enroute or departing the region are required to 
        follow offshore routing schemes that hold them further off the 
        pristine coastlines of Washington and Vancouver Island, British 
        Columbia. On the U.S. side, the International Maritime 
        Organization has recognized an ``Area To Be Avoided'' (ATBA) 
        buffer zone extending 25 miles out from the Washington coast 
        along the Olympic Coast National Marine Sanctuary, for all 
        laden tank vessels and other vessels of 1,600 gross tons and 
        above. Similarly, a 50-mile wide Tanker Exclusion Zone has been 
        established off of the Canadian coast to route the Trans-
        Alaskan Pipeline tanker traffic further offshore to protect 
        against groundings as a result of any potential disabling 
        vessel conditions. Most deep draft freight vessels operating 
        off the Washington coast comply with the voluntary Olympic 
        Coast National Marine Sanctuary ATBA.

  <bullet> The United States and Canada jointly operated Cooperative 
        Vessel Traffic Service (CVTS) and the International Maritime 
        Organization adopted Traffic Separation Scheme (TSS) within the 
        Puget Sound Waters have existed for decades and serve to ensure 
        an ordered and predictable traffic pattern for shipping in the 
        region. All deep draft vessels (all above 300 gross tons) are 
        obligated to participate in the CVTS and follow the TSS 
        according to the International Navigation Rules of the Road. 
        The TSS establishes one-way traffic lanes, similar to an 
        interstate highway, with a separation zone between the opposing 
        lanes of marine traffic. The Cooperative Vessel Traffic Service 
        actually tracks and directs all participating vessels 
        transiting the region as necessary to ensure collisions and 
        powered groundings will not occur. Significant improvements to 
        the TSS were implemented with international approval in 2004, 
        after an extensive analysis and collaboration with Canada and 
        tribal interests and as complemented by the discussions and 
        recommendations from the Long-term Risk Management Panel. The 
        most significant adjustments ensure greater separation for 
        tankers while in transit throughout the system, particularly in 
        more confined waters. The CVTS system is a model of bilateral 
        cooperation and waterways safety management, ensuring the 
        environmental protection and safety of our shared waters.

  <bullet> Automated Identification System (AIS): In addition to the 
        required participation in the CVTS, as of December 2004, nearly 
        all commercial vessels, including tugs, are required to have 
        AIS transponders installed which automatically broadcast vessel 
        name, position course, speed, and other marine information to 
        other shipping and to U.S. and Canadian safety officials. These 
        broadcasts are being received as far away as several hundred 
        miles from shore, greatly enhancing our awareness of vessels in 
        our environ and their activities. Indeed, the AIS has enhanced 
        the CVTS coverage by providing vessel tracking within waters 
        which were previously not covered by the existing Vessel 
        Traffic Service radars.

  <bullet> Port State Control Examination Program. In 1994, the Coast 
        Guard enhanced our pre-existing foreign tank vessel examination 
        program to include foreign freight vessels, such as container 
        ships and bulk carriers, in an effort to eliminate substandard 
        shipping in U.S. waters. Every foreign vessel bound for a U.S. 
        port is screened upon receipt of their 96-hour Advance Notice 
        of Arrival to the United States utilizing a targeting matrix 
        which considers numerous risk factors, including vessel type, 
        ownership, flag state, classification society and vessel's 
        operating history as indicated in the USCG's marine information 
        databases. All vessels above a certain score are then targeted 
        for a USCG safety and environmental protection compliance 
        examination either at sea prior to port entry or after docking, 
        depending on the relative risk determined. Vessels found in 
        non-compliance may be denied entry. If already in port, they 
        will be detained until major discrepancies are corrected. While 
        the national average percentage of foreign vessels examined is 
        approximately 19 percent, the two Captains of the Port in the 
        Thirteenth District examined over 38 percent of all foreign 
        vessel arrivals, and over 80 percent of distinct vessel 
        arrivals accounting for the fact that many foreign vessel may 
        make repeat port calls.

  <bullet> Pilotage Requirements: Upon arrival at Port Angeles, all 
        deep draft vessels and most foreign vessels other than small 
        yachts are obligated to embark a Puget Sound pilot, a local 
        knowledge expert and professional mariner, for continued 
        transit of the vessel to its final destination. Vessels bound 
        for Canadian ports are similarly obligated to embark a British 
        Columbia pilot.

  <bullet> Tug Escorts: Almost all oil laden tank vessels must also be 
        under the escort of two tugs which are capable of stopping the 
        vessel's movement within strict parameters. No vessel above 100 
        gross tons is permitted to meet a laden tanker transiting 
        Rosario Strait, the typical route for tankers destined for 
        Washington refineries. Typically, as tankers enter Rosario 
        Strait, escort tugs actually tether themselves to the tanker 
        for enhanced ability to positively control the tanker's 
        movement if needed.

  <bullet> Weather Sensors and Decision Aids: As a result of a special 
        appropriation for Puget Sound pollution prevention enhancement, 
        two sophisticated weather buoys and numerous other weather 
        sensors and cameras have been installed throughout Puget Sound 
        waters to enhance the mariners' and the Coast Guard's 
        situational awareness in the region. In addition, a Rescue Tug 
        Deployment Decision Making tool has been created to assist the 
        Captain of the Port in objectively determining the need for the 
        dispatch and pre-staging of stand-by tug capabilities to 
        protect against adverse weather and potential disabled vessels 
        combining to create an unacceptable risk for particular areas 
        within the region. These measures all combine to facilitate 
        both normal voyage planning and emergency response 
        decisionmaking.

  <bullet> Double Hull Requirements: Most tankers servicing these ports 
        have a double hull, in compliance with OPA 90 standards; and 
        many are also equipped with redundant propulsion systems to 
        mitigate even further any loss of vessel control.

  <bullet> Oil Pollution Prevention and Response Agreements: In 2003, 
        the Thirteenth Coast Guard District and Washington Department 
        of Ecology established a series of protocols to implement and 
        guide our respective operations in the area of spill 
        prevention, preparedness and response to reduce duplication of 
        effort, and instill better coordination and communication.

  <bullet> Harbor Safety Committees: In addition to government safety 
        and pollution prevention efforts, the Puget Sound and Columbia 
        River region's maritime industries have established strong 
        Harbor Safety Committees, with members from a broad spectrum of 
        industry. These Committees have established Standards of Care, 
        voluntary measures for operating practices and equipment 
        testing that supplement the Federal and state standards. These 
        additional measures have proven a valuable tool in quickly 
        improving the maritime industry's performance, without the need 
        to embark in regulatory changes.

  <bullet> MARPOL Enforcement: The Thirteenth Coast Guard District 
        Captains of the Port, in close cooperation with the U.S. 
        Attorney, Environmental Protection Agency and Washington 
        Department of Ecology Investigators have gained international 
        acclaim for trailblazing efforts to uncover criminal acts of 
        intentional marine pollution at sea. This collaborative 
        tenacious effort has produced Federal prosecutions of 21 ship 
        owners, numerous convictions of the vessels' senior crew, and 
        the collection of over $38 million in criminal fines and 
        settlements, including over $7 million for environmental 
        restoration projects within the Pacific Northwest.

Response System

  <bullet> Regional Response Team, Region 10/Northwest Area Committee 
        and Contingency Plan: The Oil Pollution Act of 1990 and the 
        National Contingency Plan mandates each Federal On-Scene 
        Coordinator establish Area Committees to protect public health, 
        safety and environment by ensuring coordinated, efficient, and 
        effective response to oil and hazardous material spills. Within 
        the Pacific Northwest, the two Coast Guard FOSCs, the EPA 
        FOSCs, and Washington, Oregon, and Idaho State environmental 
        response organizations established a single Area Committee to 
        address all regional environmental response activities in a 
        more collective manner. Further, the Regional Response Team and 
        Area Committee established a single Contingency Plan to address 
        responses executed by each authority.

  <bullet> Orphan Spills: In the absence of an identified responsible 
        party (spiller), or in case of a party's failure to adequately 
        respond to a spill, the Federal On-Scene Coordinator is 
        responsible to mount such response. As noted earlier, many of 
        the oil spills within this region are ``mystery'' spills, and 
        as such, fall to the Coast Guard and state environmental 
        response agencies to mount an effective and coordinated 
        response action.

  <bullet> National Preparedness for Response Program (NPREP) was 
        established under OPA 90 to ensure Area Committees and facility 
        and vessel operators maintain an active exercise program to 
        continually test their regional response capability to address 
        both worst case and most probable spill scenarios on a regular 
        basis. The results of these exercises feed into a lessons 
        learned database accessible to all within the national response 
        system. The lessons learned are then taken for action by the 
        Area Committee and individual operators, as appropriate.

  <bullet> Non-Tank Vessel Response Plans: Next week vessel spill 
        response plans for non-tankers must be implemented, as mandated 
        by Congress. This initiative will compel virtually all deep 
        draft vessels to have detailed plans and capabilities in place 
        to ensure an aggressive and effective response to spills 
        occurring from those vessels, similar to the system already 
        required of tank vessels. Washington State has had a state-
        driven requirement since the early 1990s, when the state 
        legislature established a vessel fee and a maritime commission 
        to serve as an umbrella response management structure to effect 
        a ``first 24-hours'' response to spills.

  <bullet> Standby Rescue Tugs: Since 1999, Washington State has 
        maintained a dedicated rescue tug at the mouth of the Strait of 
        Juan de Fuca to respond to disabled vessels and to participate 
        in response drills and exercises. That same year, a Coast Guard 
        cost-benefit analysis suggested that the International Tug of 
        Opportunity System (ITOS), paid for by industry fees collected 
        through Puget Sound Marine Exchange, was a fiscally responsible 
        alternative. In contrast, a standby rescue tug system, which 
        incorporates tug deployment in areas deemed to present a higher 
        risk due to severe weather or other causes, is also an 
        effective countermeasure to groundings in the region, but at 
        greater cost. The Automated Identification System has greatly 
        expanded the Coast Guard's maritime domain awareness, providing 
        the ability to identify a tug's presence, capabilities, and 
        availability to assist vessels in distress and has successfully 
        been employed by the Captain of the Port in the past.

Areas for Improvement
    As a result of the recent Dalco Passage Spill, an Oil Spill Early 
Action Task Force was convened under the auspices of the Regional 
Response Team, Region 10 and the Northwest Area Committee. The Task 
Force was charged to evaluate actions to be taken during the early 
stages of oil spills when meteorological conditions are adverse, and 
make recommendations to improve notification procedures, response 
policies and response technology, including any recommended changes to 
the Northwest Area Contingency Plan. The task force developed 11 broad 
recommendations, many of which the Area Committee has already 
integrated into the NWAC strategic work plan for implementation. It was 
clear that the assessment and response to the relatively minor (1,000 
gallon) oil spill was exacerbated by weather conditions, and that the 
Area Committee needs to further explore means to more effectively and 
aggressively assess spills during reduced visibility to permit more 
rapid implementation and coordination of appropriate response 
strategies, particularly in situations where no responsible party has 
acknowledged the spill and taken action to respond.
Conclusion
    While we must always remain vigilant in assuring our ability to 
respond aggressively and appropriately to oil and hazardous material 
spills, it is evident that the Pacific Northwest's broad prevention 
efforts and its collaborative maritime safety net have greatly 
mitigated the potential for a catastrophic spill within this region. We 
endeavor to improve the system through continual self-examination. The 
tremendous successes we have achieved in this endeavor are due, in 
large part, to the cooperation and prompt measures taken by the 
government, the spill response community, the environmental community, 
scientists, and industry working together as partners. Much work 
remains to be done to reduce America's vulnerability to pollution and 
other maritime safety threats, but with the continued support of the 
Congress and the Administration I know that we will succeed in 
delivering the robust maritime safety and environmental security 
America expects and deserves well into the 21st century.
    Thank you for the opportunity to testify today. I will be happy to 
answer any questions.

    Senator Cantwell. Thank you, Captain Boothe. We're going to 
let all the panelists speak and then we'll come back to 
questions. So, Mr. Helton, thank you for being here, thank you 
for representing NOAA at today's hearing.

 STATEMENT OF DOUGLAS HELTON, INCIDENT OPERATIONS COORDINATOR, 
   OFFICE OF RESPONSE AND RESTORATION, NATIONAL OCEANIC AND 
             ATMOSPHERIC ADMINISTRATION (NOAA), DOC

    Mr. Helton. Thank you. Thank you for inviting me to speak 
today about oil pollution issues in Washington State. My name 
is Doug Helton, I'm the Incident Operations Coordinator for the 
National Oceanic and Atmospheric Administration. NOAA's Spill 
Response program is headquartered here in Seattle, we have over 
45 scientists and responders available on a 24/7 basis to 
provide technical support for oil spills throughout the nation.
    When a spill occurs that team provides and coordinates 
advice on scientific issues, cleanup, natural resource 
assessment issues, and spills. NOAA essentially, as support 
coordinator, leads this effort with a team of scientists on-
scene, provides support in such areas as pollutant fate and 
transport, resources identification and protection strategies, 
cleanup, shoreline cleanup assessment and natural resource 
trustee coordination. NOAA also provides currents, tides, and 
weather forecasts during spills.
    Effective spill responses also depend on planning and 
preparation. Between incidents NOAA promotes preparedness by 
working closely with local responders and Federal partners. We 
work with a regional response team on a variety of issues 
including dispersant use, best cleanup practices, 
communications and response capabilities. NOAA also enhances 
the state-of-readiness by developing better response tools.
    NOAA works with our Federal, State, and tribal partners to 
determine how best to restore injured resources to the State 
they were in before the incident and to compensate the public 
for the loss of natural resources resulting from those 
injuries. NOAA scientists and economists provide technical 
foundation for natural resource damage assessments. Our experts 
collect data, conduct studies, and perform analysis needed to 
identify whether coastal regions have been injured by spills 
and how to restore those spills.
    In the Puget Sound region, approximately 500 spills are 
reported each year. Fortunately large spills are infrequent, 
most of those are quite small, with the average spill being 
less than 20 gallons; however, with the increased daily travel 
of fishing vessels, cruise ships, freighters, there is an 
increasing number of spills in this region.
    I'd like to talk to you about a couple of examples of 
prevention. Catastrophic discharge of oil in the Olympic Coast 
National Marine Sanctuary is one of the greatest threats facing 
that sanctuary, and reducing this threat has been one of NOAA's 
highest priorities. The sanctuary is located at the entrance of 
the Strait of Juan de Fuca, it's a major fairway for ships 
going to the Pacific Rim. NOAA worked with the Coast Guard to 
develop an Area To Be Avoided, and that was implemented in 
1995.
    This Area advises operators carrying petroleum and 
hazardous materials to stay at least 25 miles off the coast 
while they're approaching the entrance to the Strait of Juan de 
Fuca. Since that Area has been adopted, NOAA has also worked on 
its charts and other publications to make sure that mariners 
are aware of that on the appropriate charts.
    We have two other programs that are critical here in 
Seattle to our work in prevention of spills. One of them is the 
Navigation Response Team and the other one is our PORTS 
program. The Navigation Response Team conducts surveys of 
obstructions in harbor areas and to locate potential navigation 
problems before they cause spills. The team also is available 
to respond after spills to help identify whether that 
obstruction was the cause of that incident. This team is on 
hand throughout the year and a regional team is based here in 
the Seattle area.
    The other program is the PORTS program. This is the 
Physical Oceanographic Real Time System. This is a system that 
we have in the Port of Tacoma that provides realtime weather, 
tides, and current information to the marine operators in the 
harbor. This information is critical to daily harbor 
operations, but it's also very important during spill 
responses.
    In the last few years NOAA has assisted the Coast Guard in 
several spills in this region, and I'd like to give you a few 
examples. The 2004 mystery spill--you've all heard about it--in 
Dalco Passage, NOAA and the State worked on perfecting 
overflights for that incident, due to calm weather conditions 
that oil was spread over a very large area, giving the 
impression that it was a very significant spill.
    Response teams worked to treat the affected beaches and the 
follow-up investigations that we've done along with the State 
of Washington have shown relatively minor environmental 
impacts.
    At Point Wells, just north of here in Seattle, there was a 
4,600-gallon spill in December 2003. That oil spread across 
central Puget Sound and affected an area of the Suquamish Tribe 
over in Port Madison. Unfortunately, oiled the pristine marsh 
and shoreline area. In that incident NOAA provided response 
services, including tracking the floating oil, predictions of 
how the oil would evaporate, and where it would go. We helped 
with the shoreline surveys; we also helped with the seafood 
sampling afterwards because there was concerns about the 
wholesomeness of seafood. We're continuing to work with the 
State and U.S. Fish & Wildlife Service on completing a 
cooperative damage assessment on that incident.
    The final incident I want to share with you is the 1999 
Olympic Pipeline spill. It's a reminder that not all spills 
come from marine sources. This incident affected Bellingham, 
Washington, including aquatic and terrestrial resources in the 
Whatcom Creek and Whatcom Falls area. NOAA's regulations under 
the Oil Pollution Act encouraged cooperative and restoration 
assessments, and those efforts were illustrated in this effort.
    Working with the other trustees and the responsible party 
NOAA was the lead administrative trustee and worked to develop 
both emergency and long-term restoration plans for that creek. 
A number of restoration actions were implemented during the 
summer following the spill, and salmon successfully spawned in 
the creek that fall. Several long-term projects were also 
developed, and those are being implemented now.
    Thank you for this opportunity to let me talk about NOAA's 
spill response program. I'd be happy to talk more about 
prevention, preparedness, and recovery actions associated with 
oil spills. I look forward to answering any questions you may 
have.
    [The prepared statement of Mr. Helton follows:]

Prepared Statement of Douglas Helton, Incident Operations Coordinator, 
 Office of Response and Restoration, National Oceanic and Atmospheric 
                       Administration (NOAA), DOC
    Thank you for the opportunity to testify on the role of the 
National Oceanic and Atmospheric Administration (NOAA) in response, 
restoration, and research under the Oil Pollution Act of 1990 (OPA; 33 
U.S.C. 2701-2761). I am Douglas Helton, Incident Operations Coordinator 
for the Office of Response and Restoration, National Oceanic and 
Atmospheric Administration within the Department of Commerce. NOAA's 
spill response program is headquartered in Seattle, WA, and has over 45 
scientists and responders available 24 hours a day, 7 days a week, to 
provide technical support for oil spills nationwide. As the Incident 
Operations Coordinator, my role is to plan and staff incident 
responses, and to ensure that NOAA products are timely and useful. I 
also help to coordinate preliminary natural resource damage assessment 
studies, working closely with biologists, economists, and legal counsel 
in the NOAA Damage Assessment and Restoration Program. Over the past 12 
years, I have been involved with most major spills in the United 
States, including several here in the Puget Sound region.
Brief Overview
    The Exxon Valdez oil spill taught us a valuable lesson. Our Nation 
must be prepared to respond to major oil spills. Some time has passed 
since a domestic spill rivaled the Exxon Valdez in size. However, the 
recent Prestige spill in Europe and the near simultaneous spills in 
Delaware and Alaska last winter serve as reminders that, although rare, 
significant oil spills still happen. We must therefore continue to be 
prepared to respond to these spills when they do occur. OPA created a 
comprehensive prevention, response, liability, and compensation regime 
that is needed to respond to these types of oil pollution incidents 
from both vessels and on-shore facilities. OPA authorized NOAA to 
represent the public as a natural resource trustee for ocean and 
coastal resources regarding the discharge or threatened discharge of 
oil into the environment. NOAA is mandated to seek damages on behalf of 
the public to restore natural resources injured by oil spills. When oil 
spills threaten or injure these resources, NOAA and other natural 
resource trustees are responsible for:

  <bullet> Working through the Regional Response Teams and National 
        Response Team to ensure that the most appropriate response and 
        cleanup actions are taken to protect resources from further 
        injury;

  <bullet> Assessing and recovering natural resource damages to 
        compensate for the loss of services that the natural resources 
        provided; and

  <bullet> Implementing restoration projects for injured natural 
        resources.

    OPA required NOAA to draft regulations under which all natural 
resource trustees perform natural resource damage assessments. In 
addition, OPA mandates oil spill research and development under Title 
VII, and created the Interagency Coordinating Committee on Oil 
Pollution Research to coordinate research and development efforts among 
industry, universities, and others.
NOAA's Response Role
    When a spill occurs a multi-agency interdisciplinary scientific 
response team provides and coordinates advice on response, cleanup, and 
natural resource issues. For spills in the marine environment, or 
spills in areas where the U.S. Coast Guard (USCG) has jurisdiction, 
NOAA assumes the role of Scientific Support Coordinator (SSC). NOAA has 
SSCs in USCG offices to assist the USCG in its role as Federal On-Scene 
Coordinators. The SSC also supports the Unified Command, an 
organizational structure that allows the Incident Commander position to 
be shared among several agencies and organizations that have 
jurisdiction, in order to enhance coordination among these agencies. 
SSCs lead a team of scientists who provide support in such areas as 
pollutant fate and transport, resource identification and protection 
strategies, shoreline cleanup assessment, and natural resource trustee 
coordination.
    NOAA's response to each incident is dependent upon the spill's 
characteristics. Scientific coordination is critical. Through 
experience, expertise, and state-of-the-art technology NOAA forecasts 
the movement and behavior of spilled oil, evaluates the risk to 
resources, and recommends protection priorities and appropriate cleanup 
actions.
    Effective spill response depends on effective planning and 
preparation. NOAA promotes preparedness by working closely with 
Regional Response Teams on a variety of issues including dispersant 
use, best cleanup practices, communications, and response organization. 
In addition, NOAA enhances the state-of-readiness by developing better 
response tools including trajectory models, fate models, and 
integration of improved weather data and data from ocean observing 
systems into spill trajectory forecasts.
NOAA's Restoration and Damage Assessment Role
    Oil spills can harm natural resources in a number of ways. The most 
immediate and visible impacts may be oiled beaches and injured or dead 
organisms, such as fish, lobsters, birds, and wetland plants. Other 
impacts may not be readily apparent and may not show up for weeks, 
months, or even years. Nurseries for fish or nesting sites for birds 
and turtles may be destroyed, and birds and other wildlife may become 
ill from eating contaminated food.
    Wetlands may slowly be destroyed several months after an incident, 
coral reefs may continue to erode and be more susceptible to disease, 
and fish may be unable to reproduce. A spill may also diminish the 
services that natural resources provide us, such as fishing, boating, 
beach going, and wildlife viewing, as well as ecological services, such 
as providing habitat, nutrient cycling, and energy transfer through 
food webs.
    Many factors affect how quickly restoration actions can be 
implemented and how fast recovery can occur. These factors include the 
type of resource that was injured, the time of year it was injured, and 
the type, amount, and duration of the oil spilled. In some 
circumstances, natural recovery may be sufficient to restore resources. 
In other instances, active restoration efforts may be necessary.
    NOAA and other natural resource trustees ensure that restoration 
projects satisfy the OPA's goal of restoring natural resources and 
services to baseline (the pre-incident condition) and compensating the 
public for interim losses resulting from the injury. Trustees are 
responsible for two types of restoration: primary and compensatory. The 
purpose of primary restoration action is to return the injured natural 
resources and services to baseline conditions, while the purpose of 
compensatory restoration is to compensate the public for losses 
occurring from the time of the incident to the return of injured 
resources and services to baseline. In developing primary restoration 
plans, trustees focus on actions that accelerate the recovery of the 
injured resources, such as reconstructing physical habitat that was 
destroyed. In developing compensatory restoration plans, trustees 
ensure that restoration projects address the period from injury until 
recovery. This is vital because while a resource is impaired, it is 
unable to provide services on which other parts of the ecosystem and 
the public rely.
    NOAA scientists and economists provide the technical foundation for 
natural resource damage assessments and work with other trustees and 
responsible parties to restore resources injured by oil spills. To 
accomplish this effort NOAA experts collect data, conduct studies, and 
perform analyses needed to determine whether coastal resources have 
sustained injury from oil spills. NOAA experts determine how best to 
restore injured resources and to ascertain the most appropriate 
restoration projects to compensate the public for associated lost 
services.
    Regulations promulgated by NOAA under OPA provide a framework for 
conducting natural resource damage assessments when oil spills injure 
the public's natural resources. The regulations require the following 
steps in the natural resource damage assessment process:

        1. Preassessment--Trustees evaluate data on impacts to natural 
        resources to determine whether natural resources and their 
        associated services have been injured;

        2. Restoration Planning--Trustees quantify injuries to natural 
        resources and their services and use that information to 
        determine the type and scale of restoration activities that 
        fully compensate the public for the injures; and

        3. Restoration Implementation--Trustees, often working with 
        those responsible for the release, implement restoration 
        actions.

    NOAA has long been interested in looking at alternative ways to 
expedite and cut costs for natural resource damage assessment. One 
alternative is the cooperative assessment in which the Responsible 
Party plays a major role with the natural resource trustees. Based on 
NOAA's successful experiences in cooperative assessments, NOAA is 
promoting this approach through national and regional dialogues. The 
intent is to expedite restoration, encourage innovative approaches, 
strengthen partnerships, and provide meaningful public involvement. 
Cooperative assessments offer industry the opportunity for a greater 
role and more control over the timing of restoration actions without 
undermining the natural resource trustee responsibilities. This 
approach also reduces damage assessment costs and the risk of 
litigation.
Environmental and Navigation Safety at Work
    A catastrophic discharge of oil or hazardous materials remains one 
of the greatest threats facing the Olympic Coast National Marine 
Sanctuary. Reducing this threat has been one of NOAA's highest 
priorities. The Sanctuary, the third largest in the United States, sits 
at the entrance to the Strait of Juan de Fuca, a major commercial 
thoroughfare linking the ports of Seattle, Tacoma, and Vancouver, with 
trading partners around the Pacific Rim. The juxtaposition of such an 
important international trade route and a national marine sanctuary 
requires the balancing of political, social, economic, and natural 
resource issues.
    NOAA worked with the USCG to propose that the International 
Maritime Organization approve and adopt an ``Area To Be Avoided'' 
(ATBA) off the Olympic Coast. This ATBA, which went into effect in June 
1995, advises operators of vessels carrying petroleum and hazardous 
materials to maintain a 25-mile buffer from the coast. This distance 
narrows as the vessel traffic lanes converge at the entrance to the 
Strait of Juan de Fuca. Since the ATBA was adopted, Olympic Coast 
National Marine Sanctuary has ensured that information on the ATBA is 
included on the appropriate nautical charts and in relevant 
publications.
    It is important to note that the boundaries of the ATBA and of the 
Sanctuary are not contiguous. National marine sanctuaries are not 
exclusionary areas (e.g., commercial fishing and shipping occur within 
Olympic Coast National Marine Sanctuary). While the designation of the 
ATBA has improved maritime and environmental safety within the 
Sanctuary, it is only one means of reducing risk. NOAA has been 
participating in other initiatives reviewing additional measures to 
improve maritime and environmental safety in the region.
    NOAA has Navigation Response Teams (NRTs) that conduct hazardous 
obstructions surveys using diving operations, electronic navigation 
capture, data collection, and mapping support capabilities to locate 
potential navigation impediments and to prevent a spill. NRTs also 
perform emergency response surveys at the request of the USCG to locate 
obstructions that may have caused a spill. An NRT is on hand 365 days a 
year in the State of Washington to support NOAA's mission of promoting 
safe marine navigation.
    NOAA has identified the navigable approaches to the Puget Sound as 
one of the critical areas in the national hydrographic survey backlog. 
In Fiscal Year 2006, NOAA expects to conduct surveys around Puget 
Sound, as well as in Alaska, the Gulf of Mexico, and along the East 
Coast. This project will provide essential chart data and reduce the 
``critical areas'' backlog for hydrographic surveys. Additionally, this 
project will provide a response to requests from the Puget Sound Pilots 
Association for such a survey. The Association is concerned with this 
area because four major traffic lanes cross here, there are shoals in 
the vicinity of those traffic lanes, and the area experiences a high 
density of traffic.
    NOAA's Physical Oceanographic Real Time System (PORTS<SUP>'</SUP>) 
provides quality controlled real-time oceanographic (water levels, 
currents, water temperature, salinity, etc.) and meteorological (wind 
speed, direction, air temperature, barometric pressure, etc.) data in 
support of safe and efficient marine navigation. PORTS<SUP>'</SUP> data 
also helps support response efforts when spills occur by providing 
responders with a better understanding of their operational environment 
and improving trajectory model forecasts. There are currently 12 
PORTS<SUP>'</SUP> around the nation, including one in Tacoma, WA, in 
partnership with the Port of Tacoma. PORTS<SUP>'</SUP> is recognized as 
a backbone system within the Integrated Ocean Observing System (IOOS).
    A fully implemented IOOS would make observations and model data 
from various local, state, and Federal agencies available for spill 
response. This would include real-time and historical observations and 
products for meteorological, physical oceanographic, and biological 
parameters. The resulting enhancement of data management and 
communications would improve the quality and quantity of model input 
and output for spill trajectory modeling. IOOS would provide emergency 
responders with access to unprecedented amounts of real-time and 
historical data for decisionmaking regarding spill response and 
mitigation. The envisioned Northwest Association of Networked Ocean 
Observing Systems component of IOOS would meet local needs and 
requirements of the region and enhance response and decisionmaking 
support in the event of a spill.
Examples of Response and Restoration at Work
    The USCG is notified of approximately 20,000 incidents annually in 
the United States, including approximately 500 annually in the Puget 
Sound region. Fortunately, large spills are infrequent, and most 
incidents are small fuel spills and mystery sheens reported in marinas 
and harbors, or spills from terrestrial sources such as truck 
accidents. The average spill report in Puget Sound is 20 gallons. 
However, anywhere vessels transit, there is a risk of spills, and the 
risk is not only from tank vessels. Daily transits of fishing vessels, 
ferries, cruise ships, naval vessels, and even large yachts can pose a 
threat of spills. A typical Alaska-bound cruise ship may carry in 
excess of 500,000 gallons of fuel while an ocean-going tug may carry 
over 100,000 gallons of fuel and lube oils.
    Over the past 2 years, NOAA has assisted the USCG in several spills 
in the region including the following:

  <bullet> Mystery Spill, Port Townsend, April 2005--Unknown (small) 
        amount
  <bullet> Dalco Passage Incident, October 2004 (1,500-2,000 gallons)
  <bullet> Foss Barge, Pt. Wells, December 2003 (4,600 gallons)

    Now I would like to illustrate NOAA's recent efforts in regards to 
Northwest and Alaska oil spills.
M/V Selendang Ayu
    During a major winter storm event on December 8, 2004, the cargo 
vessel M/V Selendang Ayu lost power, ran aground and broke in half on 
the shore of Unalaska Island, within Alaskan waters of the Bering Sea 
and part of the Alaska Maritime National Wildlife Refuge. The Selendang 
Ayu loaded here in Seattle, with approximately 60,000 tons of soybeans, 
and was destined for China via the Great Circle Route. That navigation 
route took the vessel through Unimak Pass in the Aleutian Islands. 
During rescue operations, six Selendang Ayu crew members were lost at 
sea when a USCG helicopter crashed. Approximately 335,000 gallons of 
fuel oil and other miscellaneous machine oils were subsequently 
released to the environment. Most of the cargo was also released to the 
environment.
    During the initial response, NOAA participated in aerial 
observations and mapping of floating and shoreline oiling, as well as 
provided on-scene weather information, including the establishment of 
an emergency remote weather station and the provision of a dedicated 
on-scene meteorologist. This expertise enabled focused operations 
during a severe weather time of the year. Without accurate, up-to-date, 
spot-specific forecasts, it would not have been possible to safely 
conduct complicated operations in such an extreme environment. To give 
an example of the difficult nature of work involved, a special Chinook 
helicopter was used to remove the remaining 140,000 gallons of fuel on 
the Selendang Ayu in 2,000 gallon fuel canisters, one at a time, 
through the mountains 25 miles to Dutch Harbor.
    The NOAA SSC also coordinated environmental issues for the Unified 
Command, including technical issues related to potential dispersant 
use; prepared short and long-term trajectory forecasts for the residual 
oil onboard; reviewed satellite data and remote sensing information for 
potential utilization; and responded to a USCG request for assistance 
in locating the flight recorder of their downed helicopter.
    NOAA also worked with the local community to address subsistence 
and seafood safety concerns. The Port of Dutch Harbor on Unalaska 
Island processes the largest volume of fish of any port in the United 
States. Many of these vessels and fishermen come from the Puget Sound 
region, and concerns were widespread regarding the potential closure of 
fisheries, or potential market impacts if any seafood products were 
contaminated. There was particular concern for the Bering Sea crab and 
trawl fisheries. The crab fleet delivers its catch alive with 
constantly circulating sea water through the vessel holds, while the 
trawl vessels use large nets that could become contaminated during 
deployment and retrieval. Any real or perceived contamination of these 
fisheries products could cause world-wide marketing problems for Alaska 
seafood products. With a combination of trajectory analysis and advice 
on monitoring techniques, NOAA was able to provide assistance to the 
Seafood Safety Task Force. Similar concerns were expressed for the 
safety of the subsistence foods harvested from the sea and inter-tidal 
zones. As the result of information gained following the Exxon Valdez 
spill and other spills that NOAA has worked on, we were able to provide 
meaningful input, based on actual experiences, as a member of the 
Subsistence Foods Task Force.
    NOAA continues to work with the other natural resource trustees 
(U.S. Fish & Wildlife Service and the State of Alaska) and the 
responsible party to conduct a natural resource damage assessment. The 
parties are conducting a preliminary assessment of potential injuries 
to natural resources and beginning to evaluate restoration 
alternatives. Categories of potential injuries include: shorelines 
(including inter-tidal habitat, wetlands, beaches, shoreline 
vegetation); aquatic resources (including crabs, salmon, and other 
anadromous fish species); birds (including seabirds, gulls, and 
shorebirds); wildlife (including sea otters and sea lions) and human 
uses (including impacts to subsistence, cultural, and recreational 
uses).
    We have learned that the public has confidence in NOAA's ability to 
deal with the diverse issues that surround an oil spill. The public 
relies on our experience and knowledge to assist their local agencies 
that do not have the same level of spill response experience. NOAA and 
other trustees are committed to providing the public with up-to-date 
information and meaningful opportunities for review and comment during 
the preliminary assessment and restoration planning process. Public 
meetings will be held later this year on Unalaska Island to convey to 
the public the status of the damage assessment activities and to 
solicit input on potential restoration alternatives. Public review and 
comment of the draft restoration plan and environmental assessment 
report will also be sought later in the damage assessment and 
restoration planning process.
Foss Barge, Point Wells
    On December 30, 2003, a transfer accident at the Point Wells 
Asphalt terminal in Shoreline, WA, resulted in a spill of approximately 
4,600 gallons of heavy bunker fuel. The oil spread across central Puget 
Sound and much of the oil stranded between Point Jefferson and 
Indianola in Kitsap County. Unfortunately, a pristine marsh and 
shoreline area managed by the Suquamish Tribe was hard-hit. The Do-Kag-
Wats marsh was heavily oiled and significant cleanup issues were raised 
in this culturally and biologically sensitive area.
    NOAA provided several services to the response and on-going 
assessment, including tracking the floating oil, evaporation and 
dispersion predictions, systematic shoreline surveys, seafood sampling, 
and natural resource damage assessment studies. NOAA is currently 
working with the State, the U.S. Fish & Wildlife Service, and the 
Suquamish Tribe in the completion of a cooperative damage assessment.
Dalco Pass
    On October 14, 2004, the USCG received a report of a mystery oil 
spill in the vicinity of Dalco Passage in southern Puget Sound. NOAA 
and Washington State conducted flights over the area the next day and 
estimated that 1,500-2,000 gallons of product had been released and was 
spreading, mostly around Vashon Island. Weather conditions were nearly 
calm during this time. As a result, the oil was able to slowly spread 
over a large area giving the appearance that a large volume of oil had 
been released. Response teams treated the impacted beaches promptly and 
thoroughly, and the cleanup of all oiled beaches was signed-off as 
complete by the Unified Command only 2 weeks after the spill was first 
reported. Follow-up inspections indicated little to no apparent 
environmental impact. In total, one bird was killed and one was cleaned 
and released. Several dead harbor seal pups were collected during the 
spill but necropsy results found no link to the spill.
Whatcom Creek
    Perhaps the most significant recent spill incident in the Puget 
Sound region was the 1999 Olympic Pipe Line Company spill into Whatcom 
Creek in Bellingham, WA. This spill highlights the fact that vessels 
are not responsible for all oil pollution events; land-based sources of 
oil can also invade the marine environment and have significant 
impacts. The restoration efforts for the June 10, 1999, gasoline spill 
illustrate NOAA's damage assessment functions at a spill, and highlight 
the benefits of NOAA regulations that encourage cooperative and 
restoration-based damage assessment.
    The incident resulted in the release of approximately 236,000 
gallons of gasoline into Whatcom Creek, Bellingham, WA. The spilled 
gasoline ignited, burning much of the riparian vegetation including a 
large section of mature forest in an urban park. Whatcom Creek and 
adjacent forests, parks, and open-space areas are important ecological 
and recreational resources for the City of Bellingham. During the past 
decade, a concerted effort by local governments, tribes, nonprofit 
organizations, and private citizens has lead to habitat improvements in 
and along Whatcom Creek. The creek also has important cultural and 
subsistence values. The creek falls within the 1855 Point Elliott 
Treaty Area for the Lummi Nation and Nooksack Tribe.
    The fire that resulted from the Olympic Pipeline Oil Company spill 
killed three people, and the combination of the fire and toxic levels 
of hydrocarbons eliminated nearly all aquatic biota from the spill site 
to the mouth of the creek. Over 100,000 fish were killed. Affected 
biota included several species of juvenile salmonids, including chinook 
salmon. Most of the dead salmonids were fry and smolts. Over 26 acres 
of forest, including approximately 16 acres of mature riparian forest 
within the adjacent park, was lost as a result of the fire.
    Shortly after the incident, NOAA and the State and tribal trustees 
entered into a cooperative assessment process with Olympic Pipe Line 
Company. NOAA was the lead administrative trustee and worked to develop 
both emergency and long-term restoration plans for the creek. This 
cooperative process reduced duplication of studies, increased the cost-
effectiveness of the assessment process, increased sharing of 
information, and, most importantly, sped the restoration process. 
Because salmon would be returning to spawn in the creek in the months 
following the spill, a concerted effort was made to conduct early 
restoration in the stream. At the same time, data were collected for 
long-term restoration needs. A number of emergency projects were 
implemented and salmon successfully spawned in the fall after the 
incident. A long-term plan was prepared and finalized following a 
period of public comment. NOAA worked closely with Washington State, 
the City of Bellingham, the Lummi Nation, and the Nooksack Tribe, and 
successfully protected funding for the long-term restoration plan. This 
plan includes projects that are currently being implemented in the 
following areas: Land Acquisition and Park Enhancements, Fish Habitat 
Projects, and a Long-term Monitoring and Maintenance.
Conclusion
    Thank you for the opportunity to talk about NOAA's important role 
under OPA. NOAA's expertise is critical to prevent further harm, 
restore adverse effects on natural resources, aid planning and response 
decisionmaking, and document damages associated with oil spills. I look 
forward to any questions that you may have.

    Senator Cantwell. Thank you, Mr. Helton. Mr. Jensen.

           STATEMENT OF DALE JENSEN, PROGRAM MANAGER,

         SPILL PREVENTION, PREPAREDNESS, AND RESPONSE,

             WASHINGTON STATE DEPARTMENT OF ECOLOGY

    Mr. Jensen. Senator Cantwell, welcome to our beautiful 
state, and thank you----
    Senator Cantwell. You might have to turn on your mike 
there. There's a button there.
    Mr. Jensen. Oh, sorry. Senator Cantwell, welcome to our 
beautiful state, and thank you for this opportunity to testify 
today on the state of oil spill prevention, preparedness, and 
response in Washington. First, on behalf of the staff of the 
Ecology Spills Program I would like to thank you, Senator 
Cantwell, and other Members of the Senate for your leadership 
for including in the Energy Policy Act the fix for the Oil 
Spill Liability Trust Fund. I would also like to express the 
gratitude of the members of the Pacific States/BC Task Force. 
Your passage of the funding provision will ensure that oil 
spill cleanup actions will continue to be done in a timely 
manner, safeguarding our valuable natural resources. Again, 
thank you for your efforts on this issue.
    Washingtonians demand that we are not only vigilant in our 
efforts to prevent oil spills, but that we are also prepared 
for a rapid and aggressive response in the event of a spill. 
Our citizens have a very high expectation for an active state 
oil spills program, and we are meeting those expectations.
    As a leader in state oil spill prevention preparedness and 
response, we work closely with our Coast Guard partners, 
industry, and stakeholders to develop a comprehensive and 
innovative oil spill program. And I'm proud to report that 
these efforts have been successful. Over the past 2 years, 
Department of Ecology vessel inspectors have conducted over 
2,500 inspections. In one case, an Ecology inspector identified 
a problem onboard an Evergreen International vessel and worked 
closely with the Coast Guard and Federal investigators, leading 
to a $25 million settlement with the company that led to 
greater worldwide focus on illegal waste while dumping.
    We have also seen a decline in the number of spills in the 
25- to 10,000-gallon range. We are now responding to 99 percent 
of all reported spills within a 48-hour period. These successes 
have come from the dedication of a highly skilled and trained 
staff at the Ecology Spills Program and from the commitment of 
many companies and stakeholders who all share a pride in 
ensuring the highest degree of prevention and preparedness 
possible.
    But with these successes we still are faced with many 
challenges. Our experience in the Dalco Passage spill 
demonstrates the need to have the appropriate response 
equipment on the scene quickly. There's much that still needs 
to be done to ensure that we can respond quickly with the most 
effective spill containment and cleanup resources available.
    Since the Dalco Passage spill we've partnered with the 
Coast Guard to create and work with the Oil Spill Early Action 
Task Force as Captain Boothe mentioned. We capitalized on the 
incident to approve our ability to assess and track spills in 
the dark. We are streamlining our access to aerial and on-water 
reconnaissance capabilities. We are updating local knowledge 
specific Geographic Response Plans, making sure all private-
sector response resources can immediately be called upon to 
respond to an orphan spill. Growing from our lessons learned, 
we will continue to strengthen the critical functions provided 
by my Program's Incident Management Action Team.
    We will continue to evaluate and test our spill response 
capabilities to ensure that we have the most effective program 
possible. Congress can help in this effort by providing 
funding, particularly for capital needs as well as cleanup 
response.
    Since 2001, the Coast Guard has been faced with increased 
demand for and participation in homeland security activities. 
In our region, the Coast Guard has stepped up to these new 
challenges with exceptional professionalism. However, the 
Agency is also facing budget constraints due to a declining 
Federal budget and increasing need in the various aspects of 
our National War on Terrorism. We're concerned that these new 
responsibilities and pressures on the Coast Guard will impact 
their activities in the area of oil spill prevention and 
response.
    Currently the 13th District Coast Guard has done an 
outstanding job in balancing these demands; however, we urge 
Congress to provide more resources to the Coast Guard 
commensurate with the increased demands that are placed on the 
Agency.
    We should also look to states as partners to help with 
these demands. We should remember that it was a talented 
Ecology Spills vessel inspector who first caught the problem 
leading to the penalty to Evergreen Shipping. This is a perfect 
example of how the state can assist our Federal partners in oil 
spill prevention, preparedness, and response.
    Congress should consider methods by which they can support 
state actions on oil spill prevention, preparedness, and 
response. These actions don't necessarily have to be funding. 
Improved regulatory authority and flexibility for states can 
also provide for some relief for the Coast Guard, as well as 
increased cooperation with states.
    One area that needs additional attention is salvage. I 
strongly encourage the Coast Guard to complete the salvage 
role. In response to an incident where fuel oil was spilled 
during a transfer from the facility to a tank barge, the 
Washington State legislature directed the spills program to 
report on the scope of oil and fuel transfers in Puget Sound 
and to develop standards for these transfers.
    Our report will be completed in the next few months, but 
our preliminary assessment is that information on cargo and 
fueling volume, frequency, location, and practices is not 
consistently required and is often incompletely reported. We 
believe there are regulatory gaps that our standards can cover 
that will result in fewer spills to water. The next steps in 
this process will be to work with the Coast Guard and others on 
the specifics of the rule and the monitoring program that the 
state will develop.
    In 2000, the U.S. Supreme Court issued their decision on 
Intertanko v Locke, a seminal case in Federal/State regulation 
of shipping. Prior to the decision, Washington had a very 
detailed and aggressive oil spill prevention program for oil 
tankers and tank barges.
    In brief, the court ruled that many aspects of the state 
program are preempted by Federal law and historic Congressional 
action in the area of shipping. As a result, much of our state 
oil spill prevention, preparedness, and response program was 
struck down.
    This has created a difficult situation where the people of 
Washington have very high expectations as to the degree of 
protection from the risk of oil spills that they would like to 
see for our State, but Federal law limits the scope of an oil 
spill program. Congress can assist in reducing this legal 
tension by supporting joint cooperative opportunities between 
states and the Coast Guard.
    Understanding the nature of shipping and the need for a 
certain degree of uniform standards, Congress should also 
consider allowing neighboring states to work together as a 
region to develop solutions and standards in the area of oil 
spill prevention, preparedness and response.
    In conclusion, we must remember the proud tradition in our 
state of protecting our precious natural resources from the 
risk of oil spills. Residents of Washington demand that we 
maintain a high degree of vigilance and a rapid and aggressive 
response to all major spills. We must also remember that 
companies, including shippers and oil facilities of types, 
consider themselves residents of our great state. They too 
share in this desire to protect our resources.
    We will continue to work collaboratively with the Coast 
Guard as we develop our oil spill prevention, preparedness and 
response program. And we are ready to provide support for the 
Coast Guard as they operate in an increasingly demanding and 
challenging atmosphere.
    And finally, Congress can help by funding for oil spill 
prevention, preparedness and response activities. Again, thank 
you for this opportunity to testify, and I'd be happy to answer 
any questions.
    [The prepared statement of Mr. Jensen follows:]

 Prepared Statement of Dale Jensen, Program Manager, Spill Prevention, 
   Preparedness, and Response, Washington State Department of Ecology
    Senator Cantwell and members of the Subcommittee, welcome to our 
beautiful state, and thank you for this opportunity to testify today on 
the state of oil spill prevention, preparedness and response in 
Washington.
    First, on behalf of the staff at the Ecology Spills Program, I 
would like to thank Senator Cantwell, and other Members of the Senate, 
for including in the Energy Policy Act the fix for the Oil Spill 
Liability Trust Fund. I would also like to express the gratitude of the 
members of the Pacific States/BC Oil Spill Task Force. The long-term 
sustainability of the Fund is a priority issue for the Task Force. Your 
passage of the funding provision will ensure that oil spill response 
and cleanup actions will continue to be done in a timely manner, 
safeguarding our valuable natural resources. Again, thank you for your 
efforts on this issue.
    We have a proud tradition in our state of active citizen and state 
agency involvement in oil spill prevention. Washingtonians demand that 
we are not only vigilant in our efforts to prevent oil spills, but that 
we are also prepared for a rapid and aggressive response in the event 
of a spill. Our citizens have very high expectations for an active 
state oil spills program, and we are meeting those expectations.
    As a leader in state oil spill prevention, preparedness and 
response we work closely with our U.S. Coast Guard partners, industry, 
and stakeholders to develop a comprehensive and innovative oil spill 
program. And I'm proud to report that these efforts have been 
successful.
    Over the past 2 years, Department of Ecology vessel inspectors have 
conducted over 2,500 inspections. In one case, an Ecology inspector 
identified a problem onboard an Evergreen International vessel and 
worked closely with the Coast Guard and Federal investigators leading 
to a $25 million settlement with the company.
    We have also seen a decline in the number of spills in the 25 to 
10,000 gallon range. And we are now responding to 99 percent of all 
reported spills within the first 48 hours.
    These successes have come from the dedication of a highly skilled 
and trained staff at the Ecology Spills Program, and from the 
commitment of many companies and stakeholders who all share a pride in 
ensuring the highest degree of prevention and preparedness possible.
    But with these successes we still are faced with many challenges:

        1. The need for adequate spill response capacity to stage an 
        aggressive spill response in the event of a spill.

        2. Concerns regarding new pressures on the Coast Guard--
        increased emphasis on homeland security and budget 
        limitations--and how these will impact decisions.

        3. New information on oil transfers and the risk they pose to 
        our environment.

        4. Limitations placed on the state in the Intertanko decision, 
        while at the same time Washington's citizens expect an 
        aggressive program to prevent spills, prepare for the potential 
        of a spill, and a rapid and effective response in the event of 
        a spill.

Spill Response Capacity
    Immediately following the Dalco Passage spill in October 2004, 
then-Governor Locke and the U.S. Coast Guard established the Oil Spill 
Early Action Task Force. Consisting of representatives of environmental 
groups, industry, spill response organizations, local communities and 
local government, and tribes, the Task Force examined our spill 
response and planning procedures focusing on the first hours of 
response. Working in a very short time-frame, the Task Force produced 
eleven recommendations for improving our response capabilities. But 
they also recognized that ``full implementation of the recommendations 
is outside the funding currently available to Ecology and the Coast 
Guard for these activities.''
    In a recent report for Ecology, Glosten Associates studied the 
possibility of utilizing commercial fishing vessels to assist in oil 
spill response. As part of this report, Glosten conducted a ``scenario-
based'' approach to determine the adequacy of spill response vessels in 
the event of a hypothetical spill in the San Juan Islands in the amount 
of approximately 500,000 gallons of oil. The scenario identified the 
number of vessels for an ideal response to such a spill, and evaluated 
the actual number that would be available. This analysis revealed a 
shortfall of available response vessels for this scenario. The report 
concluded that although current Oil Spill Response Organizations 
(OSROs) could provide all the on-water resources necessary for them to 
meet their current basic obligations, they could not meet the 
shortfalls identified in the report in addition to their current 
obligations.
    Our experience in the Dalco Passage spill demonstrated the need to 
have the appropriate response equipment on the scene quickly. This 
recent report emphasizes that there is much that still needs to be done 
to ensure that we can respond quickly with the most effective spill 
containment and cleanup resources available.
    We learned many things as a result of the Dalco Passage spill:

        a. We partnered with the USCG to create and work with the Oil 
        Spill Early Action Task Force

        b. We capitalized on the incident to improve our ability to 
        assess and track spill in the dark;

        c. We are streamlining our access to aerial and on-water 
        reconnaissance capabilities;

        d. Updating local knowledge specific Geographic Response Plans 
        (GRPs);

        e. Making sure all private sector response resources can 
        immediately be called upon to respond to an orphan spill;

        f. Growing from our lessons learned. We will continue to 
        strengthen the critical functions provided by my program's 
        Incident Management Action Team (IMAT).

    We will continue to evaluate and test our spill response 
capabilities to ensure that we have the most effective program 
possible.
    Congress can help in this effort by providing funding, particularly 
for capital needs as well as cleanup response. The Oil Spill Liability 
Trust Fund is critical to this effort, and I want to thank Senator 
Cantwell for her leadership in securing continued funding for this 
account.
Increased Coast Guard Responsibilities
    Since 2001, the Coast Guard has been faced with increased demand 
for and participation in Homeland Security activities. In our region, 
the Coast Guard has stepped-up to these new challenges with exceptional 
professionalism. However, the agency is also facing budget constraints 
due to a declining Federal budget and increasing need in the various 
aspects of our national War on Terrorism.
    We are concerned that these new responsibilities and pressures on 
the Coast Guard will impact their activities in the area of oil spill 
prevention and response. Currently the regional MSO has done an 
outstanding job balancing these demands. However, we urge Congress to 
provide more resources to the Coast Guard commensurate with the 
increased demands that are placed on the agency.
    We don't question the dedication and commitment to the women and 
men serving in the USCG, but we are concerned with these external 
pressures and demands. We must maintain our vigilance on spill 
prevention, preparedness and response. We should look to states as 
partners to help with these demands.
    Again, we should remember that it was a talented Ecology Spills 
vessel inspector who first caught the problem leading to the penalty to 
Evergreen Shipping--this is a perfect example of how the state can 
assist our Federal partners in oil spill prevention, preparedness and 
response.
    Another example of state/Coast Guard cooperation occurred on 
October 14, 2004, when the ConocoPhillips' Polar Texas spilled black 
oil at Dalco Passage, near Tacoma. At the time the spill was reported, 
the source of the spill was not known. This ``orphan spill'' required 
the close cooperation of our state inspectors and the U.S. Coast Guard. 
The response to this highly visible spill has triggered a new dimension 
in spill response in our state. Up to last year, our system for 
managing major oil spills relied too heavily on a Responsible Party 
being immediately identified, and participating in the spill response 
Unified Command. A lesson learned in the Dalco spill was that Ecology 
and the Coast Guard must be better prepared to immediately assess 
orphan spills at night and begin recovery operations during any weather 
conditions.
    Congress should consider methods by which they can support state 
actions on oil spill prevention, preparedness and response. As I will 
discuss later, these actions don't necessary have to be funding. 
Improved regulatory authority and flexibility for states can also 
provide for some relief for the Coast Guard, as well as increased 
cooperation with states.
Increasing Risk From Oil Transfers
    On December 30, 2003, a tank barge was taking on bunker fuel at a 
facility near Shoreline, Washington in the middle of the night. The 
tank was overfilled and 4,620 gallons of fuel was spilled into the 
waters of Puget Sound. In response to this incident, the Washington 
State Legislature directed the spills program to report on the scope of 
oil and fuel transfers in Puget Sound and to develop standards for 
these transfers.
    Our report will be completed in the next few months, but our 
preliminary assessment is that information on cargo and fueling volume, 
frequency, location and practices is not consistently required and is 
often incompletely reported. We believe there are regulatory gaps that 
our standards can cover that will result in fewer spills to water. The 
next steps in this process will be to work with the Coast Guard and 
others on the specifics of the rule and the monitoring program that the 
state will develop.
Intertanko Limitations on State Activities
    In 2000, the U.S. Supreme Court issued their decision in Intertanko 
v. Locke, a seminal case in Federal/state regulation of shipping. Prior 
to the decision, Washington had a very detailed and aggressive oil 
spill prevention program for oil tankers and tank barges. In brief, the 
court ruled that many aspects of the state program are preempted by 
Federal law and historic Congressional action in the area of shipping. 
As a result, much of our state oil spill prevention, preparedness and 
response program was struck down.
    This has created a difficult situation where the people of 
Washington have very high expectations as to the degree of protection 
from the risk of oil spills that they would like to see for our state, 
but Federal law limits the scope of an oil spill program.
    Congress can assist in reducing this legal tension by supporting 
joint cooperative opportunities between states and the Coast Guard. 
Understanding the nature of shipping and the need for a certain degree 
of uniform standards, Congress should also consider allowing 
neighboring states to work together as a region to develop solutions 
and standards in the area of oil spill prevention, preparedness and 
response. We already have some examples such as the Pacific States/BC 
Oil Spill Task Force, where states and the province of BC coordinate 
and share information on oil spill activities in the region.
    Congress and the Administration should support a structure where 
the Federal laws are a floor, and the states can implement a program to 
address the particular needs of the state or the region. The court in 
Intertanko allowed a degree of support for this approach when it 
acknowledged that there may be ``peculiar circumstances'' in a state 
that would allow for state specific regulation. Congress should codify 
this approach and expand it to regions.
Conclusion
    In conclusion, we must remember the proud tradition in our state of 
protecting our precious natural resources from the risk of oil spills. 
Residents of Washington demand that we maintain a high degree of 
vigilance, and a rapid and aggressive response to all major spills.
    We must also remember that companies, including shippers and oil 
facilities of types, consider themselves residents of our great state, 
and they too share in this desire to protect our resources.
    We will continue to work collaboratively with the U.S. Coast Guard 
as we develop our oil spill prevention, preparedness and response 
program. And we stand ready to provide support for the Coast Guard as 
they operate in an increasingly demanding and challenging atmosphere.
    And finally, Congress can help by continuing to provide funding for 
oil spill prevention, preparedness and response activities by both the 
Coast Guard and the states. Congress should also explore how to provide 
states and regions with more authority and flexibility to address risks 
in their areas.
    Again, thank you for this opportunity to testify today.

    

    Senator Cantwell. Thank you, gentlemen, for your testimony. 
I should have said at the outset of this that I invited my 
colleagues to come join me today in Seattle and unfortunately I 
think our lateness in getting out of Washington, D.C. and our 
schedule made that difficult. So, you'll have to bear with me 
through these questions. I thought I'd start with just a few 
questions generally to all of you. First of all, I'm sure 
everybody would love to know the latest on the Dalco spill and 
where we are.
    Mr. Helton, in your testimony you alluded to some of the 
challenges in terms of where we are from a technology 
perspective, for example, for spills that happen at night and 
things of that nature. Where are we in terms of improving this 
process, and what further information do we need?
    Mr. Helton. Well, on the Dalco Pass there are obviously 
lots of things going on in terms of changing the way Federal 
and State agencies are responding, looking at new technologies. 
There's also the ongoing investigation into the cause of the 
incident, which I would defer to the Coast Guard and the state.
    But the third element that I'm aware of is the 
environmental assessment that has been going on and the--on any 
significant spill there is a natural resource damage 
assessment. The state and the Federal agencies have regulations 
for how to pursue those.
    It looks like the impacts were relatively minor. There was 
a, I think one bird that was killed, one that was captured and 
released. There were several harbor seal pups that were 
collected. All of those, the chemistry on the oil spills did 
not match the oil from the spill, so they appeared to be oil 
from a creosote source or something else. So we're pretty 
confident that the environmental impacts are relatively benign, 
but I would defer to the state and the Coast Guard about the 
investigation.
    Captain Boothe. Senator, I guess I can't really comment on 
the investigation at this point since it's with the U.S. 
Attorney and he has not yet decided whether to pursue criminal 
action, so we're awaiting that decision so that we may move 
forward on the civil case as well.
    But related to your question on response technologies, and 
in particular remote sensing capability, I think the Dalco 
Passage spill presented a unique set of circumstances for us 
that fortunately highlighted a weakness in our system, or at 
least a weakness in our prior response strategies. The fact 
that it was a mystery spill where we didn't have a reporting 
source immediately tell us that they discharged oil, caused a 
bit of a problem in this particular case.
    The U.S. Coast Guard probably responds within the 
Washington waters to in excess of 220 to 250 mystery spills 
each year, of which the Dalco Passage was one. Most of those 
spills, as Mr. Helton indicated, are small spills, and in 
particular, mystery spills are typically small spills that the 
person that discharges probably does it most often 
intentionally. We don't believe that to be the case in the 
Dalco Passage spill, but nonetheless, clearly we don't normally 
have a spill of the magnitude of the Dalco Passage spill as a 
mystery spill.
    So the response in that particular case, I think, was 
perhaps colored by that experience in the past and the 
expectation that it might be a small spill, despite the fact 
that it had been reported as a heavy fuel spill. So we didn't 
respond to assess that spill magnitude quickly enough in my 
view, but nonetheless, there are other conditions that were 
involved in it since it occurred at 2 o'clock in the morning 
when we first got the report.
    And so there was a gear up phase that the Coast Guard and 
the State went through, coordinating and communicating with one 
another, and establishing a game plan for the response. All 
that aside, it identified that maybe there is technology that 
we could use.
    We have Coast Guard helicopters that are equipped with 
forward looking infrared capabilities that might have been 
brought to bear on that before fog set in. We did not employ 
that in the wee hours of the morning on October 14, and 
fortunately, but unfortunately perhaps, we haven't had another 
case like that to be able to exercise the system that we 
already have in place, or as we learned in the response to the 
Dalco Passage spill, other assets that exist within the 
community. King County has some remarkable infrared 
capabilities as well that we have added to our inventory of 
response capabilities.
    I think that there are a number of things that we are 
working on to improve our response. I think the Dalco Passage 
spill makes us a lot more, if you will, ``trigger happy'' in 
the nature of our response, which is a good thing. We need 
alacrity in our response and we need to make sure it's both 
aggressive and appropriate. So----
    Senator Cantwell. Of those, excuse me, Captain, of those 
250 mystery spills you were mentioning, how many of those 
happened at night?
    Captain Boothe. Senator, I'm not aware of the percentage 
that occurred at night versus daytime.
    Senator Cantwell. So with respect to this infrared 
technology, I guess my question is, does this particular case 
point to the fact that we need better technology, or is it, as 
you say, just running our current system with a little bit 
better use of existing technology?
    Captain Boothe. Senator, as is the case with computer 
technology, it is changing so rapidly that it's hard for me to 
assess whether or not the equipment that we have in current 
inventory is sufficient or is up-to-date enough to be able to 
give us the best tools. Obviously it's not cheap technology.
    So one of the strategies we looked at in the aftermath of 
the Dalco Passage spill was, instead of having in-house 
capability in the Coast Guard other than for our multi-mission 
purposes, that we might look at employing outside contractors 
that have that capability and have trained observers in the use 
of that equipment for oil spills in particular, in lieu of 
using just our top notch professional Coast Guard aviators with 
potentially pollution investigators and observers from the 
various marine safety officer sector commands across the 
country. I think we probably need to explore more exactly what 
capability we have and how good it is before we decide what the 
next steps are in terms of new equipment procurement, ma'am.
    Senator Cantwell. Mr. Jensen, did you want to comment on 
this--on the Dalco case?
    Mr. Jensen. I think, you know, Captain Boothe and Mr. 
Helton covered most of it. I think just to add to that, as 
Captain Boothe alluded to a number of avenues, I think where we 
are now is how do we address these in the future. And so 
looking forward to the future, and looking at all the resources 
capable, we are going through assessment processes right now to 
see what additional resources are available within, you know, 
Puget Sound. And, you know, as technology changes, we want to 
take advantage of every opportunity to improve our system 
within Puget Sound.
    Senator Cantwell. Thank you. You all mentioned in your 
testimony, and I mentioned it in my statement, that we were 
very fortunate to get funding for the Oil Spill Trust Fund 
reauthorized. And it's probably a little known fact that this 
provision was buried in the Energy Bill, but at one of our 
first hearings with the Coast Guard it was clear that something 
needed to be done. There was some uncertainty about whether the 
trigger mechanism of the program just reinstated itself or 
whether we needed to reinstate it, and in discussions with 
Senator Stevens, we decided we needed to do something proactive 
and that's how we came to that legislation.
    I don't think at the time we thought we would be having 
this hearing that we'd be so fast to move. Congress isn't 
always so fast, but in this particular case we're very thankful 
that it did move quickly so that we know that we have a 
resource to use for cleanup and prevention activities.
    But, Captain Boothe, you mentioned in your testimony that 
there were some questions about funding or issues in which 
maybe the program liability or structure might be changed in 
the future?
    Captain Boothe. You mean the management by the National 
Pollution Fund Center, ma'am?
    Senator Cantwell. Yes.
    Captain Boothe. No, Senator, I don't believe there's any 
anticipation that they would change the structure of how the 
funding would be used and how they dispense those funds for the 
purposes of emergency response. The concern that I expressed in 
my statement, Senator, was that obviously OPA and the Federal 
Water Pollution Control Act require the President to respond to 
all spills, and that the United States has a ``no discharge'' 
or a ``zero tolerance,'' if you will, for oil spills in that we 
have a mandate to go clean it up. If we don't have a viable 
funding source, then obviously that makes it a bigger challenge 
for the Coast Guard and the EPA and the states involved across 
the country in dealing with this threat to the environment.
    It might mean that we would be faced with a situation 
similar to the Exxon Valdez where we really didn't have an 
adequate fund in place to be able to respond nimbly to such an 
emergency of that magnitude. With the Oil Spill Liability Trust 
Fund solvent I think, and for a continuing sustainable basis, I 
don't see any problem for us to be able to respond----
    Senator Cantwell. So you don't think the liability limits 
are too low?
    Captain Boothe. Oh, yes, ma'am, I think that that's a 
different issue, and I think the premise or the tenet of OPA 90 
was polluters should pay. And the liability caps were 
established on that premise that we expected that the 
responsible party would clean up and pay for that or finance 
that cleanup action.
    Right now the cap probably doesn't address, as you 
mentioned in your statement, ma'am, that it didn't address the 
Selendang Ayu adequately or the Athos I spill, and so that 
means the Federal Government has to pick up the rest of that 
beyond the limit of liability. So I think there should be a 
raise to the liability caps.
    Senator Cantwell. Well, do you have a suggestion? Does the 
Coast Guard have a suggestion on that?
    Captain Boothe. Well, as you know, I guess OPA 90 provided 
a mechanism by which the limits of liability could be increased 
based on the Consumer Price Index; however, that authority 
isn't vested with the Coast Guard, or has not been to date. So 
it hasn't been done since 1990. It's remained at the static 
level that it was at.
    I don't know, I'm not a finance major so I'm not sure I 
have the best answer for how do we go about ensuring that we 
have adequate liability limits. I think, though, that the law 
currently would limit us. If we only used the Consumer Price 
Index, we're not going to get to the level of what the polluter 
pays that we need to be at.
    Senator Cantwell. Mr. Jensen, do you have any comments on 
that?
    Mr. Jensen. Well, I think----
    Senator Cantwell. As the State struggles for a more 
comprehensive program?
    Mr. Jensen. Well, I think from the standpoint of the Oil 
Spill Trust Fund, it's such an important fund for us. At the 
State level, we have a $9 million response fund at the state 
level and just even, you know, the two spills that we had this 
year, if the state would have been funding those spills it 
would have bankrupted that fund.
    So in the event, it's a great opportunity for us at the 
State level to be able to kick in our response account because 
we feel that aggressive and rapid response is very important. 
We want to be able to pool all the resources together, you 
know, to do that and then back off on resources when the spill 
starts, you know, winding, or recovery starts winding down.
    So we're very appreciative of that fund being kicked in 
place, it provides a great safeguard for us in the State.
    Senator Cantwell. Well, I want to get to Mr. Helton on our 
unique marine sanctuary and traffic issues, but one more 
question on this point. I don't think the Coast Guard report 
addresses or makes a specific recommendation on this, on the 
liability issue.
    Captain Boothe. No, ma'am, I don't believe the report----
    Senator Cantwell. But if you were going to venture a guess 
on how to adequately make sure that there are resources there 
in the future----
    Captain Boothe. Well, I think----
    Senator Cantwell.--what structure would you look at for 
increasing liability that you think would be a fair way to look 
at the equation?
    Captain Boothe. Are you talking about what should the 
limits of liability be or----?
    Senator Cantwell. Well, obviously the hearing today is to 
address this increase in spill volume that we've seen, and 
we're here because Washington State's probably one of the most 
aggressive, and the Coast Guard response probably is the most 
technologically sophisticated. Obviously we do have a lot of 
traffic in and out of here, so, we're probably where we have 
the best deployment so far. So, yes, I'm asking you what else 
do you think we should do to address the liability limits? 
Besides CPI, what else would you look at?
    Captain Boothe. Well, I think one of the issues that we 
have to address, Senator, is the fact that I think a 
preponderance of the Oil Spill Liability Trust Fund 
expenditures are actually paid out to claimants for third-party 
actions that caused the spill. So, for example, in the Athos I, 
although I know the investigation has not been completed, but 
hypothetically let's presume that it finds that some third-
party caused the spill, the company that owned Athos I which 
had paid $124 million to date--maybe it's more than that; I'm 
not sure I have the right figure--but in any event they're 
going to be seeking compensation from the Oil Spill Liability 
Trust Fund likely to recover their costs, or at least the P&I 
club or the insurers are going to be looking for that funding 
to come back to them.
    So I think it's an important aspect that the Oil Spill 
Liability Trust Fund provides that we have to maintain that 
capability for the Federal Government to pay that out. I think 
somehow you have to look at the spiller as paying for the 
impacts that have been caused, and I'm not sure how you go 
about quantifying that exactly. I think OPA 90 did the best it 
could, I think so did the FWPCA in trying to establish what's a 
fair and reasonable value per ton of oil carried, or barrel of 
oil carried to establish a threshold that hopefully provides a 
reasonable gauge on how much is it going to cost to clean up 
this oil.
    Senator Cantwell. Thank you. Mr. Helton, you described our 
marine sanctuary off the coast of Washington, and I don't 
suspect anybody could possibly see this map but maybe you can. 
And this purple area represents the outline of the marine 
sanctuary area, I believe. So you're talking about an 
additional rule that was implemented by NOAA up here at the top 
of Tatoosh Island or something of that nature; is that correct?
    [The information referred to follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Helton. Let me clarify the graph that you hold. The 
purple is the area to be avoided. The marine sanctuary is 
actually slightly larger and extends out further. So vessels 
are allowed to transit through the sanctuary----
    Senator Cantwell. So they can transit through this purple 
area?
    Mr. Helton. No, the purple area is the area to be avoided 
for tank vessels----
    Senator Cantwell. OK.
    Mr. Helton.--and the blue/gray area that sticks out is the 
additional footprint of the sanctuary that's not within the----
    Senator Cantwell. This area here?
    Mr. Helton. Yes. So the boundaries of the area to be 
avoided are not the same as the sanctuary. But the idea is to 
keep vessels that are approaching the Strait of Juan de Fuca 
and ports in Vancouver and Seattle, to keep them offshore until 
they have to make the turn into the Strait of Juan de Fuca.
    The, and that was implemented about I think 10 years ago 
now and compliance has been very good. It applies to tank 
vessels and vessels carrying hazardous materials, so smaller 
vessels like fishing vessels can still transit the area. And 
it's a voluntary scheme, so if a vessel is in duress or for 
some reason they can transit it, but it's not, it's a voluntary 
compliance scheme. And our experience is that about 95 to 99 
percent of the vessels comply with the regulation.
    Senator Cantwell. And how is that information translated to 
incoming vessels and to people who may be traversing for the 
first time into the Strait?
    Mr. Helton. There's, I believe that there's a, directly on 
the chart itself there, is a notation of the area to be 
avoided, and it's also, I think been placed in other documents 
that mariners use, notice to mariners and other sources of 
information. And that I believe that if a vessel does transit 
through the sanctuary, through the area to be avoided, and they 
are a tank vessel, we have a system in place to contact them 
afterwards and clarify that they understand what the 
regulations are.
    So there is some follow-up for those vessels that do 
inadvertently transit the area.
    Senator Cantwell. And how has compliance been?
    Mr. Helton. It's, my understanding is that it has been very 
good. The Coast Guard, I think the, our sanctuary staff work 
with both the U.S. and Canadian Coast Guard on their vessel 
traffic information that comes into the Strait of Juan de Fuca, 
so they have vessel tracks for all the larger vessels that come 
through. And I believe it was in the 98 percent compliance 
rate.
    Senator Cantwell. I see on some information that was 
provided by the Olympic Coast National Marine Sanctuary that 
there are some noncompliance statistics that are below that, 
for tugs and oil barges and tugs and chemical barges.
    [The information preferred to follows:]

Vessel Transits through the Olympic Coast National Marine Sanctuary and 
          Area to be Avoided (ATBA) During Calendar Year 2005

    The International Maritime Organization (IMO), a 
specialized agency of the United Nations, has designated the 
Area to be Avoided (ATBA) off the coast of Washington to reduce 
the risk of marine casualties including oil spills, and the 
resulting environmental damage in the Olympic Coast National 
Marine Sanctuary (Sanctuary). Vessels advised to stay clear of 
this ATBA include all ships and barges carrying cargoes of oil 
or hazardous materials and all ships 1,600 gross tons and 
larger. The Olympic Coast National Marine Sanctuary, in 
cooperation with the U.S. and Canadian Coast Guards, monitors 
vessel compliance under this voluntary program. The Cooperative 
Vessel Traffic System (CVTS) collects data on all vessels 
entering and leaving the Strait of Juan de Fuca.


----------------------------------------------------------------------------------------------------------------
      Vessel Type         Transits in and out of     Transits passing     Transits passing      Estimated ATBA
------------------------   the Strait of Juan de       through the        through the ATBA   Compliance Rate \4\
                           Fuca recorded by the       Sanctuary \2\          within the     --------------------
                                 CVTS \1\         ---------------------    Sanctuary \3\
                        --------------------------                     ---------------------          4
                                     1                      2                    3
----------------------------------------------------------------------------------------------------------------
Container Ship                             2,989                1,959                   10                99.5%
Bulk Carriers                              2,925                1,980                   24                98.8%
Oil Tankers                                  898                  636                    5                99.2%
General Cargo ships                          595                  477                    1                99.8%
Tugs with Oil Barges                         582                  570                  100                82.5%
Vehicle Carriers                             467                  367                    6                98.4%
Chemical Tankers                             375                  261                    1                99.6%
Roll-on Roll-off                             362                  222                    3                98.6%
 Vessels (RORO)
Cruise Ships                                 326                  209                    4                98.1%
Articulated Tank Barges                      283                  283                    0               100.0%
Fishing vessels                              194                  114                   26                77.2%
Heavy Load Carriers                           33                   28                    0               100.0%
Refrigerated Ships                            27                   15                    1                93.3%
Liquefied Petroleum Gas
Carriers (LPG) and
Liquified Natural Gas
(LNG) Carriers                                18                    6                    0               100.0%
Non-oil Tankers                               16                   10                    0               100.0%
Cable Layers                                  14                   11                    0               100.0%
Ore-Bulk-Oil Vessels                          14                    8                    0               100.0%
 (OBO)
Tugs with Chemical                            14                   14                    9                35.7%
 Barges
----------------------------------------------------------------------------------------------------------------
  TOTALS                                  10,132                7,170                  191                97.3%
----------------------------------------------------------------------------------------------------------------
\1\ The vessel transits in this column were provided by the Cooperative Vessel Traffic System (CVTS) and include
  commercial vessels greater than 1600 gross tons, or tugs with oil or chemical barges.f\2\ This column includes
  a subset of the CVTS vessel transits through the Sanctuary.
\3\ This column includes a subset of the Sanctuary vessel transits that also go through the ATBA. These are
  vessels potentially not complying with the provisions of the ATBA. This is not known with certainty. For
  example, in some cases fishing processors do not transit the ATBA, but are engaged in operations within the
  ATBA and are therefore not subject to ATBA provisions. In other cases tank barges may be transiting while in
  ballast and not carrying petroleum products or chemicals.
\4\ This column shows the percentage of vessels transiting through the Sanctuary that stayed out of the ATBA
  (Column 4 = 1-(Column3/Column2)). This is used as an estimate of compliance with ATBA provisions.

    Mr. Helton. So the target of the restriction is on vessels 
carrying oil and hazardous materials. And there are lots of 
other vessels that transit, and occasionally a vessel may, a 
tank vessel or a barge in transit, but it's not, if it's not 
loaded with fuel or----
    Senator Cantwell. So you just believe that those are lower 
threats as it relates to incidents, but why is the compliance 
lower for these vessels?
    Mr. Helton. I'd, I have to get back to you on that detail 
of explanation. As I said before, the rules apply to the larger 
vessels that are the larger threats. It's not meant to preclude 
fishing vessels and other vessels that transit the coast from 
having to avoid the area.
    Senator Cantwell. Capital Boothe, did you have a comment on 
that?
    Captain Boothe. Yes, Senator. It is intended that all tank 
barges that are laden would also remain outside of the ATBA. I 
think historically on some occasions barges and barge traffic 
coming out of Grays Harbor would cut the corner, and those 
would still nonetheless be considered to be, if you will, in 
violation of the voluntary area to be avoided. Even though they 
typically, at least from my experience when I was Captain of 
the Port, in monitoring this, they predominantly try to abide 
by the outer edge of the area to be avoided, if not further 
offshore than that.
    And I think another point that Mr. Helton mentioned as well 
is that the commercial vessels, deep draft vessels, cargo 
vessels of 1,600 gross tons or over, are also asked to 
voluntarily comply with, since they obviously have a great deal 
of bunker oil on board as well, and we would like to restrict 
as much traffic within the marine sanctuary as possible. And 
they had, I believe, committed an involuntary agreement by 
resolution of the then-Puget Sound Steamship Operators 
Association to remain outside of the ATBA as well.
    Senator Cantwell. I don't know the specific statistics 
regarding the percentages of spills related to vessels other 
than oil tankers in the last several years, but what we're 
trying to get at is that the perception that spills come just 
from oil tankers is the wrong idea; correct? And that's part of 
why we're trying to implement a more cohesive system?
    Captain Boothe. Yes, ma'am, Senator Cantwell. I think folks 
who interpret the equation of risk as probability times 
consequence, seem to ignore the fact that probability is a huge 
part of that. Even though you may have a significant 
consequence potential from a tank ship, if you have enough 
prevention strategies in place, potentially you can drive the 
probability down so low that it ultimately doesn't represent 
the highest risk.
    I'm not suggesting that to be the case here, but I think 
looking at the various measures that we have in place in Puget 
Sound is a model for the rest of the country to view. I mean if 
I had about 5 minutes I could probably walk you through that 
safety net that is pretty substantial here.
    Senator Cantwell. Including this marine sanctuary and areas 
to be avoided and things of that nature?
    Captain Boothe. Absolutely, Senator.
    Senator Cantwell. Does that exist in any other part of the 
country that you know of, like off the coast of Florida?
    Captain Boothe. There are certainly other marine 
sanctuaries, whether they've actually established either state 
restrictions on transit or Federal, I don't know. Maybe Mr. 
Helton would know whether, who mans those.
    Mr. Helton. I believe that the Florida Keys National Marine 
Sanctuary also has a similar traffic avoidance scheme to keep 
deep draft vessels away from the coral reefs in that area. And 
that's a much more shallow, it's a coral area so it's much more 
critical that vessels stay well away from the reefs. About 25 
miles off the Washington coast you're in lots of water, but 25 
miles off the Florida Keys you may still be in, in that, 
several hundred feet of water.
    Senator Cantwell. I understand that member countries of the 
International Maritime Organization also agreed to speed up the 
phasing out of single-hulled vessels. Can I get your comments 
on that?
    Captain Boothe. Well, in terms of the OPA 90 MARPOL 
similarities or differences, I think we would end up with a 
mixed effect. As it is right now, OPA has much more stringent 
phase-out period dates for single-hulled, pure single-hulled, 
whereas the MARPOL convention provides earlier phase-out of the 
double-bottom and double-side structure that is still a single-
hulled vessel, but not purely single-hulled, meaning there's 
only one barrier throughout the whole envelope exposed to the 
sea.
    So for us to implement the earlier phase-out associated 
with double-bottom and double-sided tank vessels, it would 
require an amendment to OPA, and probably would have some, 
obviously some impact on shipping within the U.S. as well.
    Senator Cantwell. Given the incidents you've seen, do you 
think that we need to do that?
    Captain Boothe. No, ma'am, I don't believe so. From my 
personal opinion, now, I'm speaking predominantly from a Puget 
Sound perspective, and that takes into account the significant 
safety net that exists here. I mean in Puget Sound we start 
almost 2,000 miles from the coast when a vessel has to give us 
its advanced notice of arrival, and with that advanced notice 
we begin immediately getting the information about the vessel 
and determining what kind of risk they pose.
    As they approach the coast they have, obviously, the area 
to be avoided, restrictions on the U.S. side, and Canada for 
tankers has a tanker exclusion zone that extends out 50 miles 
from Vancouver Island. So channeling from north and south 
vessels will come into the U.S. waters or the Strait of Juan de 
Fuca from a distance offshore.
    We recently modified the, again IMO adopted a traffic 
separation scheme which could be likened to an interstate 
highway. It has essentially one-way traffic, or if you will, a 
fast and slow lane on each side, predominantly one-way, 
although there is some small traffic that's allowed to go 
opposite the flow, but well outside of the main traffic lines.
    And the major shipping coming in the opposite direction is 
obviously separated from the inbound traffic by a several-mile 
wide separation zone typically. As they come in then they have 
to talk to the vessel traffic service, and here we have a 
jointly-operated Canadian and United States cooperative vessel 
traffic service that basically is a mandatory system. All deep 
draft vessels are obligated to participate in that, and the 
vessel traffic service, at least on the U.S. side, has 
intervened probably in excess of a hundred times in the last 5 
years to prevent an accident from happening.
    So then they get to Port Angeles, and if we've decided they 
need to be inspected, they get inspected there if it's a major 
deficiency that we've identified that needs to be addressed. 
And here in Puget Sound, where the rest of the Nation probably 
has a foreign vessel examination program averaging about 16 to 
19 percent of the foreign vessel arrivals get inspected, here 
the number is up around 38 percent. And 80 percent, if you 
discount them for those that make repeat calls to the Puget 
Sound region.
    So we've got just a myriad of measures and obviously many 
more that apply specifically to tankers as they come through 
our waters, ma'am.
    Senator Cantwell. Mr. Helton, any comments about single-
hulled risks?
    Mr. Helton. Well, I guess as a resident of the Puget Sound 
area and as a sailor, I'm happy to know that vessels are coming 
in more and more with double-hulled construction. It's not a 
panacea, it's a design effort to prevent a leakage of a vessel 
after it's collided with other objects or grounded. And I think 
that at that point we're happy to know that it's a double-
hulled tanker, and hopefully we can minimize a spill or prevent 
a spill just by rupturing the outer hull.
    But all of these efforts to prevent the grounding and 
prevent the collision in the first place are very important and 
we shouldn't let the double hulls become a, ``let us relax our 
confidence that we have solved the problem,'' because those 
other efforts are very important as well.
    Senator Cantwell. Mr. Jensen, any comments on that?
    Mr. Jensen. Yes, I think anything that we can do to 
minimize spills and make our Puget Sound waters safer I think 
is very much appreciated. I think that there are many companies 
that have been ahead of the game. I know that some of the cargo 
industry vessels are beginning to move forward with designing 
their hull structures for double hulls.
    And I think that we're very fortunate here in Puget Sound, 
to see some of those more aggressive, you know, moves from some 
of the companies and some of the actions. But safety is a big 
factor and I think that, you know, you can do a lot with hull 
designs, but I think the human factor is a big part of it, so 
the more that we can do to work with the crews, to work with 
the companies to prevent the spills, in the first place, are 
very helpful.
    And I think that, just one comment too, is we're very 
fortunate here in this state to have a state-funded tug out at, 
located in Neah Bay, and I think that that certainly helps with 
minimization of risk and it helps our citizens to have some 
assurance that, you know, we're doing everything that we can to 
minimize risk here in Puget Sound.
    Senator Cantwell. Mr. Jensen, you mentioned the state and 
the limits that the Oil Pollution Act of 1990 has on the 
ability of states to implement further regulations. I know I 
see Representative Cooper here who's been very involved in this 
issue. Do you want to elaborate further on that as my 
colleagues and I look at this issue when we return in 
September? Are there things that you would recommend right now 
as changes to the 1990 Act?
    Mr. Jensen. Well, I think that, I don't have specifics to 
share with you right now. I think that when, when changes were 
made through the Intertanko case, our focus really was on the 
human factor, you know, part of it was, you know, really on the 
safe operation of waters. And I think that that's one area that 
if the state has more authority we can certainly work, you 
know, continue to work more closely with the Coast Guard. But 
that's, that's definitely one, you know, piece of it.
    Senator Cantwell. More authority, how would that manifest 
itself?
    Mr. Jensen. I think just access to, more access to vessels, 
which I think right now we look at complementing our programs, 
the Coast Guard and us, complement our programs through making 
sure that there isn't a redundancy, but I think that in areas 
of fishing vessels, cargo, that we can do more to work closely 
with those operators of those vessels to minimize risk.
    Senator Cantwell. So what would we need to change in the 
Act? If you have a good working relationship with the Coast 
Guard now, what would you like to see? Not to put you on the 
spot, but just to get a general sense. Again, part of today's 
field hearing is to learn of the good things that Captain 
Boothe and others elaborated on that we are doing in Washington 
State that can be somewhat of a model for the rest of the 
country.
    Mr. Jensen. I don't have a specific for you right now.
    Senator Cantwell. All right. I want to get on to the next 
panel but, just to make sure I'm understanding--Captain Boothe, 
you seem to be saying that of the recommendations from the 
Coast Guard report, the issue of resources, and the issue of 
cost of spills outpacing such resources, is the critical issue; 
is that correct?
    Captain Boothe. Yes, Senator. I think the fact that you 
raised early in your statement, ma'am, regarding the cost 
potentially outpacing the actual funds that are available 
within the Federal domain apply toward oil spill response, or 
that is provided through the liability limits provided in OPA, 
probably need to be reexamined. And I'm not sure what the best 
mechanism to address that and the right size of that amount 
mean.
    Senator Cantwell. And then to the question of whether all 
the navigational tools are here and available, it seems that 
Puget Sound has a pretty safe system, and given that we've set 
aside certain regions to be avoided, or did I miss something 
there, Mr. Helton? Do you think we need more navigational 
tools?
    Mr. Helton. Oh, I think that we're, NOAA as the Nation's 
chartmaker, we're busy trying to update our charts and complete 
all of the surveys. There's still work to do there, but we are 
making progress, and most of the areas have been surveyed 
recently. So----
    Senator Cantwell. So are the charts out-of-date?
    Mr. Helton. Well, when you, if you're a boater, if you get 
a chart from the marine store, you'll see that the chart has an 
edition on it. That edition might be dated 1999 or 2004, that's 
the last time it was published. It doesn't necessarily refer to 
when it was last surveyed. So some of the, we are going through 
a survey backlog in trying to update all the critical areas, 
especially harbor areas and areas where they're may be 
shoaling, to update those base surveys so that the navigation 
information that goes to the mariners is as updated as 
possible.
    Senator Cantwell. So you'd say we're in good shape?
    Mr. Helton. Well, I think we're, my understanding is that 
there is a backlog that is being addressed. I'm sure that the 
agency would love to provide a list of other things that could 
be, could be done to improve navigation, but that's beyond my 
scope.
    Senator Cantwell. OK. And then, Mr. Jensen, I'm sure that 
you'll get back to us on whether there's adequate manning and 
inspection or if there's something else that the State would be 
interested in looking at this?
    Mr. Jensen. Yes.
    Senator Cantwell. Great, well, thank you, gentlemen, for 
your testimony, and we'll have the record open for 2 weeks if 
you want to add any additional comments to the record, but 
thank you for being here, and thank you for giving testimony. 
So we'll move to our next panel.
    Captain Boothe. Thank you, Senator.
    Senator Cantwell. If our next panel would come up, and I 
don't know whether Mr. Sones made it yet or not. Okay, if you 
could come up and join this panel, that would be great.
    [Brief pause in proceedings.]
    Senator Cantwell. Mr. Sones, we're going to, since you were 
supposed to be on Panel 1, we'll go ahead and start with you 
this morning, and we appreciate your time in being here to give 
testimony to the Commerce Committee field hearing. So thank 
you.

        STATEMENT OF DAVID SONES, VICE CHAIRMAN, MAKAH 
       TRIBAL COUNCIL; ON BEHALF OF THE NORTHWEST INDIAN 
                  FISHERIES COMMISSION (NWIFC)

    Mr. Sones. Well, thank you. I had to catch a boat, I missed 
one, missed our canoe, as we Indians would say. We're at Tribal 
Journeys this week so we've really got a busy schedule, but we 
really appreciate you holding this hearing. And I'm fairly 
familiar with this group of people as the last panel we tried 
to sort of kind of, right in the middle of a lot of the issues 
that happen here and work with all of the groups, so I thank 
you.
    My name's Dave Sones, I'm the Vice Chairman with the Makah 
Tribe and representing the Northwest, 20 Northwest Indian 
Fisheries Commission tribes. I want to thank the Senator for 
holding this hearing. We do appreciate that, and the Fisheries 
and the Coast Guard Subcommittee also. These are essential 
environment issues, sensitive issues for Washington State 
Treaty Tribes in protecting our natural resources from oil 
spills.
    I'd also like to take this time to reaffirm the mutual 
trust responsibility that exists between the Federal and tribal 
governments to defend our treaty-protected resources from the 
long-term cultural, economic, and social impacts from an oil 
spill. Northwest Indian Fisheries Commission Tribes and the 
Makah Tribe recognize that it is a matter of when, not if, the 
next oil spill will occur in Washington waters.
    Simply acknowledging this fact acknowledges at least a base 
understanding that an oil spill places a greater strain on an 
already strained marine environment. Makah has witnessed this 
firsthand from the devastating effects of an oil spill on our 
resources and our cultural way of life.
    The Makah Tribe is involved and has been involved in 
tracking this issue, not only as a resource trustee and a, but 
as a co-manager with the State and Federal Governments, but we 
are also first responders contracted by major oil spill 
response organizations to assist in oil spill response efforts 
off the Olympic Coast and in the Strait of Juan de Fuca. Other 
Northwest Indian Fish Commission Tribes could offer the same 
oil spill response capability if properly trained by the oil 
spill response companies.
    Other, we, other Washington tribes have experienced the 
devastating impacts of an oil spill. The Suquamish, Puyallup, 
and Muckleshoot Tribes were severely impacted by the Dalco Pass 
in the 2004 spill, while the Suquamish Tribe was particularly 
impacted by the December 2003 spill at Point Wells. Like the 
number of spills off of Cape Flattery, little oil was recovered 
from these incidents before the oil hit the beach.
    Tribal notification and the opportunity for tribal 
involvement in the decisionmaking process during these 
incidents was difficult for us to establish. Northwest Indian 
Fish Commission Tribes need a more institutionalized solution 
to these shortcomings.
    We believe the Washington State legislature has recognized 
the importance of tribal notification from the time a spill is 
detected, but there is still a need to assure tribal input in 
the Incident Command established, that is, established during 
the spill. For example, Tribal input in the Incident Command is 
crucial to the proposed U.S. Coast Guard's rulemaking aimed at 
requiring new application capabilities for oil spill 
dispersants while maintaining response requirement levels for 
mechanical recovery.
    Decisions relating to dispersant use need to be made on a 
timely basis, but need to consider long-term impacts on the 
ability of tribes to harvest shellfish, as well as impacts on 
the ability to recover undispersed oil through skimming or in 
situ burning.
    Formal consultation when major rulemakings are undertaken 
such as the Coast Guard's proposed 2003 Removal Equipment 
Requirements and Alternative Technology Revisions, are critical 
for Tribal involvement. We concur with Washington State 
Department of Ecology that there continues to be a need to 
increase mechanical recovery equipment capabilities rather than 
decrease them. It is the Northwest Indian Fish Commission 
Tribal members' position that treaty protected resources cannot 
simply be calculated as a cost of doing business reflected in 
the cost of a barrel of oil retrieved scenario, but rather 
represents far-reaching cultural and economic implications.
    We also believe that offering a credit to offset purchases 
of in situ burn equipment does not encourage the maintenance of 
a full response toolkit. To that end we are concerned that 
proposed DOE contingency planning standards that are more 
stringent than the proposed Coast Guard rules, will be 
interpreted by the Coast Guard to frustrate its purpose and 
overrule DOE's effort. In order to adequately protect the 
Washington waters from oil spills we must reconcile these 
political--or potential differences.
    The Makah Tribe realizes that there is a greater, there is 
a need for greater tribal involvement in the oil spill arena as 
well as the limitations in our technical ability to review and 
comment on various state and Federal oil spill policy 
documents, and that becomes problematic. To address that 
shortcoming we solicited technical support from NOAA Hazmat in 
Seattle to assist us with navigating and clarifying issues of 
particular concern to the Tribe.
    The Makah Tribe is currently analyzing the planning and 
response assets the NOAA Hazmat Response Division is able to 
provide the Makah Tribe during an oil spill and we are finding 
them quite capable. Our initial request highlighted the 
underlying necessity to develop a strong partnership between 
the Makah Tribe and NOAA's National Marine Sanctuary Program 
through Olympic Coast National Marine Sanctuary. We hope to 
develop similar collaborations with the EPA and the Coast Guard 
and the U.S. Navy over the next year.
    While the Makah Tribe is part of the region's front line of 
defense on the outer coast, we believe equipment and training 
that is reconciled to ocean conditions can be further improved. 
It would be a considerable improvement if the on-the-water 
identification phase of an oil spill response were conducted as 
soon as possible after an incident occurs. We need to build the 
capacity to provide the Makah Indian Tribe and other Northwest 
Indian Fish Commission tribes with personnel trained in such 
procedures, and to have equipment post--pre-positioned to 
respond to the oil spill once it is detected.
    There is also a need for expanding response infrastructure, 
i.e., dedicated response gear. When response to the Dalco Pass 
spill occurred, much of the spill response gear situated at 
Neah Bay had to be redirected to other areas, and this action 
left our treaty-protected resources unprotected. The Makah 
Tribal Council, or the Makah Tribal Council fully supports the 
year-round positioning of a rescue tug in Neah Bay outfitted 
with multi-mission capability.
    The outer coast of Washington State includes the Olympic 
National Park and three wildlife, national wildlife refuges, 
the Olympic Coast National Marine Sanctuary, numerous 
endangered species, and four tribal reservations that are 
located there.
    The Makah Tribe believes that in order to adequately 
address these trust interests translates into increasing the 
salvage, rescue and towing capabilities for the outer coast. 
Two National Academy of Sciences reports on the state of U.S. 
salvage capability point out that there is an immediate need 
for improved salvage capability within the United States. The 
U.S. Coast Guard is tasked with completing the salvage and 
firefighting rulemaking as part of OPA 90.
    The National Academy of Science has also sponsored two 
separate reports of knowledge regarding oil spill dispersants. 
We are reviewing this second study very carefully and are 
concerned to find that the unknowns are still unknown. The lack 
of solid conclusions about the efficacy and effects of 
dispersants in cold water and near shore environments raises 
concerns with the Makah Tribe and the Northwest Indian Fish 
Commission Tribes in regard to the appropriate application of 
dispersants in our waters and the rigor with which such 
information is being sought.
    Finally, in order for the Makah Tribe and the Northwest 
Tribes to understand a real world picture of our state of 
readiness for oil spill response, we need to conduct an oil 
spill drill. We know how difficult it is to respond to an oil 
spill in our region from first-hand experience. We do not, 
however, have a clear understanding on how that overall 
capability has changed or improved over the years.
    The Makah Tribe would like to do its part in assisting with 
the coordination of an oil spill drill to be conducted within 
the Olympic Coast National Marine Sanctuary, enabling us a 
realistic evaluation of our oil spill response capabilities. A 
goal of the original OCNMS management plan was to conduct an 
oil spill drill within the sanctuary boundaries.
    In closing, we appreciate the Senator's leadership in 
reinstating the Oil Spill Liability Trust Fund and increasing 
its cap to $3 billion. We respectfully request that tribal 
governments be allowed to draw from this account in the same 
manner as the U.S. Coast Guard and EPA and other Federal 
organizations. This ability will increase our capacity to 
address the risks associated with the increasing volumes of oil 
transiting through our waters.
    We see opportunities to improve our oil spill prevention 
and response capabilities at the Federal level through the 
finalization of the Salvage and Fire Fighting Rule, continued 
funding of a rescue tug in Neah Bay, oil spill drills being 
used to identify where to stockpile equipment appropriate to 
the operating environment, evaluation of the oil barge traffic 
moving through the ATBA, and the ability for State and tribal 
governments to exceed Federal response standards where 
appropriate.
    We have a mutual trust obligation to protect the treaty 
resources of the 20 federally recognized Indian tribes in the 
Pacific Northwest. We appreciate Senator Cantwell's leadership 
in calling for this hearing and look forward to working with 
the Senator and the Committee to see that these recommendations 
are implemented. Thank you.
    [The prepared statement of Mr. Sones follows:]

Prepared Statement of Dave Sones, Vice Chairman, Makah Tribal Council; 
     on behalf of the Northwest Indian Fisheries Commission (NWIFC)
    Senator Cantwell and Members of the Committee on Commerce, Science, 
and Transportation:
    My name is David Sones. I am Vice Chairman of the Makah Tribal 
Council and I am speaking on behalf of the 19 other Washington State 
Treaty Tribes that make-up the Northwest Indian Fisheries Commission 
(NWIFC). We appreciate the opportunity to present to you our tribal 
interests and concerns in regard to the development and implementation 
of oil spill policy.
    We would like to thank Senator Cantwell and the Fisheries and Coast 
Guard Subcommittee for holding this field hearing and for recognizing 
the mutual trust responsibility that exists between the Federal and 
Tribal governments to defend our treaty-protected resources from the 
long-term cultural, economic and social impacts of a major oil spill. 
The NWIFC Tribes and Makah Tribe recognize that it is a matter of when, 
not if, the waterways in the State of Washington will experience 
another oil spill. In fact, as we are preparing this testimony the 
Canadian fishing vessel, Ocean Tor, has been drifting capsized for over 
24 hours carrying four thousands gallons of fuel oil and 350 gallons of 
hydraulic oil through our Usual and Accustomed fishing area.
    In our case the Makah Tribe is not only a resource manager with the 
state and Federal Governments, we are first responders, contracted by 
major oil spill response organizations to assist in timely and capable 
responses to oil spills off the Olympic Coast and in the Strait of Juan 
de Fuca. These waters are transited by 10,000 commercial vessels 
annually carrying over 15 billion gallons of oil. Other NWIFC Tribes 
could offer the same oil spill response capability if properly trained 
by the spill response companies.
    The Makah Tribe has first hand experience with three of the largest 
oil spills in Washington State (General Meiggs, 2,300,000 gallons in 
1972; Nestucca, 231,000 gallons in 1988, Tenyo Maru, 400,000 gallons in 
1991). However, the Makah Tribe does not have a monopoly on suffering 
the negative impacts of oil spills. The Suquamish Tribe, Duamish, 
Puyallup and Muckelshoot Tribes have recently been impacted by the 
October 2004 Dalco Pass spill while the Suquamish Tribe was 
particularly impacted by the December 2003 spill at Point Wells. Like 
the spills off Cape Flattery, little was recovered from these incidents 
before oil hit the beach and tribal notification and the opportunity 
for tribal involvement in the decisionmaking process was difficult to 
establish.
    We believe the Washington State Legislature has recognized the 
importance of tribal notification from the time a spill is detected, 
but there is still a need to assure Tribal input in the Incident 
Command established during a spill. For example Tribal input in the 
Incident Command is crucial to the proposed USCG rulemaking aimed at 
requiring new application capabilities for oil spill dispersants while 
maintaining response-requirement levels for mechanical recovery. 
Decisions relating to dispersant use need to be made on a timely basis, 
but need to consider long-term impacts on the ability of tribes to 
harvest shellfish as well as impacts on the ability to recover un-
dispersed oil through skimming or in situ burning.
    The Makah Tribe has repeatedly supported the maintenance of a full 
toolkit of oil spill response options. We Tribes depend on the Federal 
Government to assist us in developing the assurances that our treaty-
protected interests will be represented when policy decisions are being 
made. These decisions include not only having a seat at the Incident 
Command but also formal consultation when major rulemakings are 
undertaken, such as the USCG proposed 2003 Removal Equipment 
Requirements and Alternative Technology Revisions (USCG-2001-8661). The 
Draft Programmatic Environmental Impact Statement associated with this 
rulemaking has a written comment deadline of August 1, 2005. We concur 
with Washington State Department of Ecology that there continues to be 
a need to increase mechanical recovery equipment capabilities rather 
than decrease them. It is the NWIFC Tribal members position that 
treaty-protected resources cannot be simply calculated as a cost of 
doing business reflected in the cost of a barrel retrieved scenario but 
rather represents far reaching cultural and economic implications. We 
also believe that offering a credit to offset purchases of in situ burn 
equipment does not encourage the maintenance of a full toolkit. To that 
end we are concerned that proposed DOE contingency planning standards 
that are more stringent than the proposed USCG rules will be 
interpreted by the USCG to ``frustrate its purpose,'' this rule has 
implications for ``federalism'' which is explicitly allowed for under 
Executive Order 13132, but contradicted in the proposed USCG rule.
    The Makah Tribe realized the need for greater tribal involvement in 
the oil spill arena as well as the limitations in its technical ability 
to review and comment on various state and Federal oil spill policy 
documents had become problematic. To address that shortcoming we 
solicited technical support from NOAA HAZMAT in Seattle to assist us 
with navigating and clarifying issues of particular concern to the 
Tribe. This initial request highlighted the underlying necessity to 
develop a partnership between the Makah Tribe and NOAA's National 
Marine Sanctuary Program through Olympic Coast National Marine 
Sanctuary. We hope to develop similar collaborations with the EPA, 
Coast Guard and Navy next year. This collaboration between the National 
Marine Sanctuary Program and the Makah Tribe is just beginning yet 
progressing well.
    The necessity of stationing dedicated response gear became evident 
to the MTC when in order to respond to the Dalco Pass spill much of the 
spill response gear situated at Neah Bay had to be redirected to other 
areas. The Washington State DOE just released a study showing that 15 
additional spill response vessels would be needed to respond to a 
420,000-gallon spill in the San Juan Islands. If such additional assets 
are needed in close proximity to four oil refineries where the majority 
of our spill response assets are pre-positioned, the same or even more 
would be needed to address a spill in the more remote waters of the 
Olympic coast. We support the DOE's call for training fishermen to 
assist in spill response and believe that tribal fishermen may be 
particularly helpful in that they are more likely to be present in the 
State year round.
    While the Makah Tribe is part of the region's front-line of defense 
on the outer coast, we believe equipment and training that is 
reconciled to ocean conditions can be further developed. It would be a 
considerable improvement if the on-water identification phase of an oil 
spill response were conducted as soon as possible after an incident 
occurs. We need to build the capacity to provide the Makah Indian Tribe 
and other NWIFC member Tribes with personnel trained in such procedures 
and to have equipment pre-positioned to respond to the spill once it is 
detected.
    We recognize that the Strait of Juan de Fuca receives more vessel 
traffic bound to ports in British Columbia and Washington State than 
any other water body in North America. Further, we understand that 
current projections suggest trade volumes are expected to double or 
triple in the next 10 to 20 years. We understand these projections to 
affect an increase in the number and size of ships calling on our 
waters. These larger ships require larger tugs to tow them, especially 
off the coast where high winds and waves counteract a tug's ability to 
assist a vessel. The rescue tug stationed in Neah Bay is only available 
on a seasonal basis and only assured State funding for another 3 years.
    The Makah Tribe fully supports the year-round positioning of a 
rescue tug in Neah Bay outfitted with multi-mission capability. The 
outer coast of the State of Washington includes the Olympic National 
Park, three National Wildlife Refuges and Olympic Coast National Marine 
Sanctuary, numerous species listed under the Endangered Species Act, 
and the four tribal reservations that are located there. While the 
Federal Government has a much vested interest in protecting the outer 
coast from the impacts of an oil spill, it makes sense for the Federal 
Government to support year round funding of a rescue tug. The Makah 
Tribal Council believes addressing these interests translates to 
increasing the salvage, rescue, and towing capability for the outer 
coast. According to the Olympic Coast National Marine Sanctuary 
Program's efforts to monitor vessel compliance with the Area To Be 
Avoided (ATBA) off the coast, 142 tugs with oil barges transited 
through the ATBA in 2004. While this represents a 75 percent compliance 
rate of the tugs and barges that avoided the ATBA, of the remaining 25 
percent, just one accident with a laden oil barge can impact us for 
over 10 years. We therefore view near-shore transits of laden oil 
barges to be one of the greatest risks to our treaty-protected 
resources and our way of life.
    Two National Academy of Sciences reports on the state of U.S. 
salvage capability point out the immediate need for improved salvage 
capacity in the United States. The U.S. Coast Guard is tasked with 
completing the Salvage and Firefighting rulemaking as part of OPA 90. 
During the December 6, 2004 incident involving the Selendang Ayu over 
400,000 gallons of oil spilled in the waters surrounding the Aleutian 
Islands. The Coast Guard and the State of Alaska, despite expending 
considerable resources in responding to the incident were unable to 
prevent the Selendang Ayu from grounding. Governor Murkowsky of Alaska 
has since called for Coast Guard vessels to be equipped with rescue 
towing capability. This option should be kept in mind for remote areas 
such as Neah Bay. Alternatively, uniquely capable Navy Powhatan Class 
salvage tugs could be strategically stationed in Neah Bay and operated 
by either private contractors, Military Sealift Command, the Navy, or 
the Coast Guard.
    In our own waters during a November 11th incident with a cargo ship 
the Neah Bay Rescue tug had to travel 16 hours round trip from Neah Bay 
to Port Angeles and back in order to pick up salvage equipment and 
boom--resources that could reside in Neah Bay. The salvage master and 
dive crew could have been transited into Neah Bay rather than having 
the tug make the trip to PA. Fortunately the bulk carrier Thrasyvoulos 
V was well offshore when the call came in. Passage of a strong Salvage 
and Firefighting rule should be a priority of this year.
    The National Academy of Sciences has also sponsored two separate 
reports on the state-of-knowledge regarding oil spill dispersants. We 
are reviewing this second study carefully, and are concerned to find 
that the unknowns are still unknown. The lack of solid conclusions 
about the efficacy and effects of dispersants in cold water and near-
shore environments raises concerns with the Makah Tribe and the 
Northwest Indian Fish Commission Tribes in regard to the appropriate 
application of dispersants in our waters and the rigor with which such 
information is being sought.
    Finally, in order for the Makah Tribe and the N.W. Indian Fisheries 
Commission to understand a real world picture of our state-of-readiness 
for oil spill response we need to conduct oil spill drills. We know how 
difficult it is to respond to a spill in our region from first-hand 
experience, we do not have a clear understanding on how that overall 
capability has changed or improved in recent years. The Makah Tribe 
would do its part in assisting with the coordination of a spill drill 
to be conducted off the Olympic Coast National Marine Sanctuary 
enabling us a realistic evaluation of our oil spill response 
capabilities. A goal of the original OCNMS Management Plan was to 
conduct an oil spill drill within the sanctuary boundaries.
    In closing, we appreciate the Senator's leadership in reinstating 
the Oil Spill Liability Trust Fund (OSLTF) and increasing its cap to $3 
billion. We respectfully request that tribal governments be allowed to 
draw from this account in the same manner as the USCG and EPA. This 
ability will increase our capacity to address the risks associated with 
the increasing volumes of trade moving through our shared waters.
    To summarize, the Makah Tribe and the Northwest Indian Fisheries 
Commission Tribes stand ready to constructively contribute to the level 
of oil spill readiness in Washington State through our participation in 
the development of oil spill policy, the Incident Command System, and 
as spill response contractors. However, in order maximize our 
contributions, increased levels of consultation will be needed with the 
tribes before and during our next oil spill.
    We see opportunities for improvements to our oil spill prevention 
and response capabilities at the Federal level through the finalization 
of the Salvage and Firefighting rule, continued funding of a rescue tug 
in Neah Bay, oil spill drills being used to identify where to stockpile 
equipment appropriate to the operating environment, evaluation of the 
oil barge traffic moving through the ATBA, and the ability for state 
and tribal governments to exceed Federal response standards where 
appropriate.
    We have a mutual trust obligation to protect the treaty resources 
of the 20 federally recognized Indian tribes in the Pacific Northwest. 
We appreciate Senator Cantwell's leadership in calling for this 
hearing, and look forward to working with her and the Committee to see 
that the recommendations are implemented.
    Thank you.

    Senator Cantwell. Thank you, Mr. Sones. Where did you start 
your morning?
    Mr. Sones. In Port Angeles. And back there for the 
Journeys, the canoes are coming in today.
    Senator Cantwell. Even that's a distance, but I thought 
maybe you started on the reservation this morning.
    Mr. Sones. Well, my staff did so they came and picked me 
up.
    Senator Cantwell. And that is a long journey to get here, 
so thank you very much for being here.
    Mr. Holmes, did you want to go next?

   STATEMENT OF FRANK E. HOLMES, NORTHWEST REGIONAL MANAGER, 
          WESTERN STATES PETROLEUM ASSOCIATION (WSPA)

    Mr. Holmes. Sure. Good morning, my name is Frank Holmes, 
I'm the Manager for the Northwest region for Western State 
Petroleum Association, or WSPA. WSPA is the petroleum trade 
association for the six western states. Our members produce, 
refine, market, and transport petroleum and petroleum products.
    Thank you for inviting us here today to participate in this 
panel on this very important topic of oil spill prevention 
response in the State of Washington. Our members are committed 
to oil spill prevention and timely and effective response in 
case of an incident. Washington State is a major refining 
center with five refineries located in the western portion of 
the state. These five refineries have a combined crude oil 
processing capacity of approximately 621,000 barrels per day.
    Washington State does not have any oil and gas production 
so all the petroleum the state consumes needs to be transported 
in the state. Eighty-five percent of the crude oil refined in 
the state is transported to the refineries by tanker, with the 
remaining being brought in by pipeline from Canada. Thirty-
eight percent of the petroleum products that are produced in 
Washington are transported by vessel. The remaining 50 percent 
is transported by pipeline.
    The Puget Sound is a safe waterway and supports marine 
vessel activities from both the United States and Canada. This 
marine vessel activity includes a wide range of uses from 
transportation of goods and products to military operations to 
fishing to recreational boaters. The petroleum industry has 
always been supportive of a robust oil spill prevention and 
response program. We willingly pay the barrel tax that funds 
the Department of Ecology's oil spill prevention and response 
program.
    The industry is a very active participant in the oil spill 
prevention and response actions within the State of Washington. 
The industry is engaged in every possible venue to consider 
improvements to the oil spill prevention and response, along 
with investing heavily at our facilities and in new vessels to 
protect the Puget Sound.
    Here are some of the more recent and ongoing examples of 
this. Some of these you've heard in the previous panel. Through 
the Pacific States/British Columbia Oil Spill Task Force, the 
shipping routes were moved further offshore so that the tanker 
traffic of persistent oil is 50 miles or more offshore, along 
with tug and barge traffic being 25 miles offshore.
    In cooperation with the Olympic Coast National Marine 
Sanctuary, the area to be avoided was established. Also the 
Coast Guard moved the entrance buoy to the Strait of Juan de 
Fuca ten miles further offshore, again to be more protected by 
moving all vessels off shore.
    Under the OPA 90, the oil industry is spending billions of 
dollars to build the safest double hull redundant system tank 
ships in the world. The U.S. and Canadian industry jointly 
instituted the International Tug of Opportunity Systems, or 
ITOS, to track and identify tugs within the Puget Sound that 
could be called to support a vessel if needed. ITOS is now 
being enhanced by the installation of the AIS, or Automatic 
Identification System, by the Coast Guard, which will in real-
time track most vessels over 65 feet and towing vessels over 26 
feet.
    The petroleum industry is spending millions of dollars 
annually to fund oil spill response organizations, OSRO's, such 
as MSRC that is here today, which are located here in the Puget 
Sound. This funding provides for the acquisition of appropriate 
equipment and the continuous staffing of trained personnel. 
Individual companies have expended large amounts for dedicated 
equipment at their facilities, and have ongoing extensive 
training and drill programs to keep employees ready to respond 
in the case of an incident.
    Industry participates in the Northwest Area Committee which 
developed the area contingency plan for the Puget Sound. The 
industry and the OSRO's have been instrumental in testing the 
protective strategies for the Geographic Response Plans for 
sensitive sites within the Puget Sound.
    The petroleum industry provides the bulk of the funding for 
the program and the contingency fund. The State of Washington 
legislature has established an Oil Spill Advisory Council under 
the Governor's office that is currently being organized, and 
industry hopes to actively participate in the council's 
efforts.
    The industry is also currently engaged in a number of 
regulatory efforts here in the State of Washington. The 
Washington State Oil Spill Contingency Plan regulation is in 
the process of a stakeholder work group. This effort will 
include a review of the responsive equipment requirements for 
the state. Also, there is a regulatory process to develop a 
rule for oil spill transfer regulations. This was instituted 
through a piece of legislation last year, and this regulatory 
effort focuses on the booming and manpower requirements for 
transfer operations.
    Industry is also working very closely with the Coast Guard 
on the Outer--Outer Coast Logistics Project to develop an 
initial database identifying logistical and communication needs 
as well as local tribal and agency contact information. This 
effort is continuing. Another Coast Guard drill is planned for 
this fall.
    This list is not a comprehensive list, but I hope this 
gives you an understanding of the serious attention that's 
being put forth by the industry regarding the issue of oil 
spill prevention and response. No one wants to spill oil. 
Industry is actively engaged in conducting the appropriate 
activities and practices to reduce the risk inherit in the 
transportation of oil and prevent spills from occurring. 
Industry is also trained and ready to respond to any incident 
that may occur in Washington. Thank you again for allowing me 
to participate.
    [The prepared statement of Mr. Holmes follows:]

  Prepared Statement of Frank E. Holmes, Northwest Regional Manager, 
              Western States Petroleum Association (WSPA)
    Good morning. My name is Frank Holmes. I am the Manager for the 
Northwest Region for Western States Petroleum Association (WSPA). WSPA 
is the petroleum trade association for the six western states. Our 
members produce, refine, market, and transport petroleum and petroleum 
products. We provide the transportation fuels that transparently move 
the entire economy of the Northwest, and we do so while responsibly 
managing virtually every drop of oil and product throughout the 
distribution system.
    Thank you for inviting us to participate on this panel today to 
discuss the very important topic of oil spill prevention and response 
in the state of Washington. Our members are committed to oil spill 
prevention and timely and effective response in the case of an 
incident. We are surprised that the oil industry was not contacted to 
participate in today's Senate Hearing until last Wednesday evening.
    Washington State is a major refining center with five refineries 
located in the western portion of the state. These five refineries have 
a combined crude oil processing capacity of approximately 621,000 
barrels per day (in 2003 operated at 94 percent of capacity).
    Washington does not have any oil and gas production so all of the 
petroleum the state consumes needs to be transported into the state. 
Eighty-five percent of the crude oil refined in the state is 
transported to the refineries by tanker, with the remaining being 
brought in by pipeline from Canada. Thirty-eight percent of petroleum 
products produced in Washington are transported by vessel, with 50 
percent being transported by pipeline.
    The Puget Sound is a safe waterway and supports marine vessel 
activities from both the United States and Canada. This marine vessel 
activity includes a wide range of uses from transportation of goods and 
products, to military operations, to fishing, to recreational boaters.
    The petroleum industry has always been supportive of a robust oil 
spill prevention and response program. We willingly pay the barrel tax 
that funds the Department of Ecology's Oil Spill Prevention and 
Response Program.
    The industry is a very active participant in the Oil Spill 
Prevention and Response actions in Washington State. The industry is 
engaged in every venue possible to consider improvements in oil spill 
prevention and response along with investing heavily at our facilities 
and in new vessels to protect the Puget Sound. Here are some of the 
more recent and ongoing examples:

        1. Through the Pacific States/British Columbia Oil Spill Task 
        Force, the shipping routes were moved further offshore so the 
        tanker traffic of persistent oil is 50 miles or more offshore 
        along with the tug and barge traffic being 25 miles offshore.

        2. In cooperation with the Olympic Coast National Marine 
        Sanctuary, an Area to Be Avoided (ATBA) was established which 
        moved vessel traffic entering and leaving the Strait of Juan de 
        Fuca further away from sensitive areas.

        3. The Coast Guard moved the entry buoy to the Strait of Juan 
        de Fuca 10 miles further offshore--again to be more protective 
        by moving all vessels further offshore.

        4. Under the OPA 90 the oil industry is spending billions of 
        dollars to build the safest double-hull/redundant system tank 
        ships in the world.

        5. U.S. and Canadian industry jointly instituted the 
        International Tug of Opportunity System (ITOS) to track and 
        identify tugs within the Puget Sound that could be called for 
        support if needed by a vessel. ITOS is now being enhanced with 
        the installation of the Automatic Identification System (AIS) 
        by the Coast Guard which, in real-time identifies most vessels 
        over 65 feet and towing vessels over 26 feet.

        6. The industry supported placement of an equitably-funded-
        dedicated tug at the entrance to the Strait of Juan de Fuca 
        during the 9-month long Oil Spill Risk Management stakeholder 
        process in 1999 and 2000 and subsequent legislative funding 
        efforts.

        7. The petroleum industry is spending millions of dollars 
        annually to fund Oil Spill Response Organizations (OSROs) such 
        as MSRC, located here in the Puget Sound. This funding provides 
        for the acquisition of appropriate equipment and the continuous 
        staffing of trained personnel.

        8. Individual companies have expended large amounts for 
        dedicated equipment at their facilities and have ongoing 
        extensive training and drill programs that keep employees ready 
        to respond in the case of an incident.

        9. Industry participates in the Puget Sound Harbor Safety 
        Committee, which has developed the Puget Sound Harbor Safety 
        Plan and Standards of Care that focus on reducing the risks of 
        spills.

        10. Industry participates in the N.W. Area Committee which 
        developed the Area Contingency Plan for the Puget Sound. 
        Industry and OSROs have been instrumental in testing the 
        protection strategies for the Geographic Response Plans (GRP) 
        for sensitive sites throughout Puget Sound.

        11. The petroleum industry provides the bulk of the funding for 
        the Washington State Department of Ecology Oil Spill program 
        and the state's contingency fund.

        12. The Washington State Legislature has established an Oil 
        Spill Advisory Council under the Governor's office that is 
        currently being organized. Industry hopes to actively 
        participate in the council's efforts.

        13. Industry is currently an active participant in ongoing oil 
        spill regulatory activities such as:

           a. The re-write of the Washington State Oil Spill 
        Contingency Plan Regulation through a stakeholders work group. 
        This effort will include a review of the response equipment 
        requirements for the state.

           b. Participation in the stakeholder work group to develop 
        Oil Transfer Regulations as required under legislation passed 
        last year. This regulatory effort focuses on booming and 
        manpower requirements during transfer operations.

           c. Industry has worked very closely with the USCG on the 
        Outer Coast Logistics Project to develop an initial database 
        identifying logistical, and communication needs, as well as 
        local tribal and agency contact information. This effort is 
        continuing; another USCG drill is planned for this fall.

    This is not a comprehensive list of activities, but I hope it gives 
you an understanding of the serious attention being put forth by the 
industry concerning the issue of Oil Spill Prevention and Response.
    NO ONE wants to spill oil. Industry is actively engaged in 
conducting the appropriate activities and practices to reduce the risk 
inherent in the transportation of oil and to prevent spills from 
occurring. Industry is also trained and ready to respond to any spill 
incident that may occur in Washington.
    Thank you for inviting us to participate.

    Senator Cantwell. Thank you, Mr. Holmes. Mr. Wright, do you 
want to go next? Thank you for being here.

                  STATEMENT OF RICHARD WRIGHT,

            PACIFIC/NORTHWEST REGION VICE PRESIDENT,

            MARINE SPILL RESPONSE CORPORATION (MSRC)

    Mr. Wright. Senator Cantwell, good morning. Thank you for 
this opportunity. My name is Richard Wright. I'm the Region 
Vice President of the Marine Spill Response Corporation, 
Pacific Northwest region, that encompasses Washington, Oregon 
and Hawaii. Prior to the merger last April of MSRC and Clean 
Sound Cooperative, Incorporated, I was the President of the 
latter response organization. I'm also a retired U.S. Coast 
Guard captain and was a member of the Governor's and District 
Commander Early Action Task Force.
    The Marine Spill Response Corporation is the largest oil 
spill response and cleanup company operating in the United 
States. MSRC is a private, not-for-profit organization founded 
in 1990 by industry as a direct result of the Oil Pollution Act 
of 1990. MSRC is funded by the Marine Preservation Association, 
MPA, whose member companies include those involved in the 
transportation of petroleum products by water, refining 
companies, pipeline companies, energy companies, as well as 
various other types of shippers. Since the passage of OPA 90, 
MPA member companies have funded in excess of $1 billion to 
MSRC to develop and enhance oil spill response capability.
    In April of this year MSRC merged with Clean Sound 
Cooperative, Incorporated, an Everett, Washington-based, 
industry-funded not-for-profit response organization, in 
existence since 1971 to provide oil spill response services to 
the oil industry in Western Washington. At the time of the 
merger both MSRC and Clean Sound independently had significant 
resources that greatly exceeded the U.S. Coast Guard planning 
capacities required to meet both Facility Response Plans as 
well as Vessel Response Plans under OPA 90 regulations.
    This merger has enhanced the readiness and response 
capabilities in the State of Washington by making a larger 
inventory of responses--resources available as well as access 
to the broader resource base of MSRC on the West Coast and 
nationally. Importantly, the merged organization provides the 
ability for a member or the U.S. Coast Guard to call out and 
manage all of the combined resources with a single telephone 
call.
    As we all know, in an emergency situation, minimizing the 
interfaces and simplifying decisionmaking is critical to the 
success of the response, particularly in the earliest hours. 
The merger combines the talents of both MSRC and the former 
Clean Sound, who together have responded to over 500 spills 
throughout the United States. In addition, a Memorandum of 
Agreement between MSRC and Burrard Clean Operations of British 
Columbia, Canada, affords MSRC access to the considerable 
assets of that response organization.
    Nationally, MSRC has 400 dedicated personnel and 88 
equipment sites along the U.S. Coastline including the U.S. 
Caribbean and the Hawaiian Islands. MSRC's entire inventory 
includes 15 multi-million dollar state-of-the-art ``Responder'' 
class oil spill response vessels and over 100 additional 
supporting oil spill response vessels and storage barges. We 
have 600,000 feet of boom, 240 skimming systems, and mobile 
emergency telecommunications capability. In addition to our own 
inventory, MSRC has contracts with approximately 90 
environmental service providers at over 200 locations 
nationwide to provide additional resources at the time of a 
spill.
    In Washington State alone, at manned sites in Tacoma, Port 
Angeles, Anacortes, Bellingham, Seattle, and Everett, MSRC has 
over 60 full-time people managing the most comprehensive 
inventory of response resources and equipment in any one area 
in the entire United States. This includes 16 dedicated primary 
response vessels, over 40 support vessels, approximately 
120,000 feet of boom, 44 skimming systems, and four large 
barges, with a total capacity of over 94,000 barrels or almost 
four million gallons, to ensure that recovered oil and water do 
not constrain a cleanup action.
    While the above information may seem to be mere facts, 
please allow me to put this level of resource base into a 
perspective. Guidelines developed by the United States Coast 
Guard for a classification of oil spill removal organizations, 
OSRO's, are based on the OSRO's ability to bring quantities of 
resources to various locations within certain time frames. 
These resources include skimming capacity, booming capacity, 
and storage capacity examination.
    MSRC has received the highest rating available under the 
system, which was developed as part of OPA 90. Further, through 
industry commitment and funding, MSRC's resource base is far in 
excess of what the regulatory guidelines require, even for 
those with the highest ratings. For example, depending on which 
location in the Puget Sound area is selected, our skimming 
capacities exceed such guidelines for initial timeframe 
requirements by at least five-fold.
    Similarly, our storage and booming capacities exceed the 
Federal guidelines by over more than double, and in some cases 
by as much as ten-fold. The above are calculated only 
referencing MSRC-owned and dedicated equipment and not 
contractor resources which would greatly supplement this 
capability.
    Obviously, the above demonstrates the commitment on the 
part of MSRC and the funding companies of MPA to exceed Federal 
requirements, thereby ensuring a strong and robust response 
capability in the event of an incident in Washington State. 
Furthermore, all the MPA member companies operate a significant 
exercise and drill program on a regular basis with MSRC to 
ensure that not only the resource base is constantly tested, 
but also to ensure that the management processes are in place 
to successfully respond to any discharges.
    We all know prevention's the key. Like firemen, the 
response community would like nothing better than to never have 
to respond to a spill. Thank you for the opportunity to testify 
here today. I'm available to answer any questions.
    [The prepared statement of Mr. Wright follows:]

  Prepared Statement of Richard Wright, Pacific/Northwest Region Vice 
          President, Marine Spill Response Corporation (MSRC)
    Good morning. My name is Richard Wright. I am the Region Vice 
President of the Marine Spill Response Corporation Pacific/Northwest 
Region that encompasses Washington, Oregon, and Hawaii. Prior to the 
merger last April of MSRC and Clean Sound Cooperative, Inc., I was the 
President of the latter response organization. I am also a retired U.S. 
Coast Guard Captain.
    The Marine Spill Response Corporation (MSRC) is the largest oil 
spill response and clean up company operating in the United States. 
MSRC is a private, not-for-profit organization founded in 1990 by 
industry as a direct result of the Oil Pollution Act of 1990. MSRC is 
funded by the Marine Preservation Association (MPA) whose member 
companies include those involved in the transportation of petroleum 
products by water, refining companies, pipeline companies, energy 
companies, as well as various other types of shippers. Since the 
passage of OPA 90, MPA member companies have funded in excess of $1 
billion dollars to MSRC to develop and enhance oil spill response 
capability.
    In April of this year, MSRC merged with Clean Sound Cooperative 
Inc., an Everett, Washington-based, industry-funded not-for-profit 
response organization in existence since 1971 to provide spill response 
services to the oil industry in western Washington. At the time of the 
merger, both MSRC and Clean Sound independently had significant 
resources that greatly exceeded the U.S. Coast Guard planning 
capacities required to meet both Facility Response Plans as well as 
Vessel Response Plans under OPA 90 regulations. This merger has 
enhanced the readiness and response capabilities in the state of 
Washington by making a larger inventory of resources available as well 
as access to the broader resource base of MSRC on the west coast and 
nationally. Importantly, the merged organization provides the ability 
for a member or the U.S. Coast Guard to call-out and manage all of the 
combined resources with a single phone call. As we all know, in an 
emergency situation, minimizing the interfaces and simplifying 
decisionmaking is critical to the success of the response--particularly 
in the earliest hours. The merger combines the talents of both MSRC and 
the former Clean Sound, who together have responded to over 500 spills 
throughout the United States. In addition, a Memorandum of Agreement 
between MSRC and Burrard Clean Operations in British Columbia, Canada, 
affords MSRC access to the considerable assets of that response 
organization.
    Nationally, MSRC has 400 dedicated personnel and 88 equipment sites 
along the U.S. coastline including the U.S. Caribbean and the Hawaiian 
Islands. MSRC's entire inventory includes 15 multi-million dollar 
state-of-the art ``Responder''-class oil spill response vessels, and 
over 100 additional supporting oil spill response vessels and storage 
barges, 600,000 feet of boom, 240 skimming systems, and mobile 
emergency tele-communications capability. In addition to our own 
inventory, MSRC has contracts with approximately 90 environmental 
service providers at over 200 locations nationwide to provide 
additional resources at the time of a spill.
    In Washington State alone, at manned sites in Tacoma, Port Angeles, 
Anacortes, Bellingham, Seattle, and Everett, MSRC has over 60 full-time 
personnel managing the most comprehensive inventory of response 
resources and equipment in any one area in the entire United States. 
This includes dedicated 16 primary response vessels, over 40 support 
vessels, approximately 120,000 feet of boom, 44 skimming systems, and 
four large barges (with a total capacity of over 94,000 barrels or 
almost 4,000,000 gallons) to ensure that recovered oil/water product 
does not constrain the clean-up.
    While the above information may seem to be mere facts, please allow 
me to put this level of resource base into perspective. Guidelines 
developed by the United States Coast Guard for classification of Oil 
Spill Removal Organizations (OSROs) are based on the OSRO's ability to 
bring quantities of resources to various locations within certain 
timeframes. These resources include skimming capacity, booming 
capacity, and storage capacity. MSRC has received the highest rating 
available under this system that was developed as part of OPA 90. 
Further, through industry commitment and funding, MSRC's resource base 
is far in excess of what the regulatory guidelines require, even for 
those with the highest ratings. For example, depending on which 
location in the Puget Sound area is selected, our skimming capacities 
exceed such guidelines for initial timeframe requirements by at least 
five-fold. Similarly, our storage and booming capacities exceed the 
Federal guidelines by over more than double, and in some cases by as 
much as ten-fold. The above are calculated only referencing MSRC-owned 
and dedicated equipment and not contractor resources that would greatly 
supplement this capability.
    Obviously, the above greatly demonstrates the commitment on the 
part of MSRC and the funding companies of MPA to exceed federal 
requirements, thereby ensuring a strong and robust response capability 
in the event of an incident in Washington State. Furthermore, all the 
MPA member companies operate a significant exercise and drill program 
on a regular basis with MSRC to ensure that not only the resource base 
is constantly tested, but also to ensure that the management processes 
are in place to successfully respond to any discharges. I am available 
to answer any questions the Committee may have.

    Senator Cantwell. Thank you, Mr. Wright, for being here. 
Doctor, is it Leschine?
    Dr. Leschine. Leschine.
    Senator Cantwell. Thank you for being here.

           STATEMENT OF PROFESSOR THOMAS M. LESCHINE,

              DIRECTOR, SCHOOL OF MARINE AFFAIRS,

                    UNIVERSITY OF WASHINGTON

    Dr. Leschine. Thank you very much. I'm very pleased and 
honored to be invited to speak at this hearing, Senator 
Cantwell. I'm a Professor and Director of the School of Marine 
Affairs at the University of Washington, not an oil spill 
professional per se, so my remarks will be a little more 
general, broader, and reflective.
    I've been in and out of the oil spill business over my 
career. I worked in the late 1980s to help develop the 
Washington Compensation Schedule that the state now uses for 
oil spill damages. I developed the Federal On-Scene 
Coordinator's Report for the Exxon Valdez spill for the Coast 
Guard, and most recently I've been a member of a scientific 
advisory panel of an organization at the University of New 
Hampshire, joint between them and NOAA, the Coastal Response 
Resource Center, that is dedicated to promoting independent 
research. So I said all that just as background because I'm 
going to reflect in my testimony on my experiences in those 
arenas.
    I've got four basic points to make, first of all, a comment 
on overall safety in the system and how we're maintaining it. 
Second, I'll address social conflict, because I'm a social 
policy scientist, and I think it's ever-present and doesn't 
tend to get spoken to in discussions that are primarily 
technical. Third, I'll address the nature of the risk. I've had 
a fair amount of experience as a risk assessment practitioner, 
commenter. And last, being a professor it's only right I should 
address research, so I'll do that.
    First of all, with respect to the overall safety, it's very 
clear that improvements in the system have been enormous since 
Exxon Valdez occurred. At the same time this risk will never be 
reduced to zero and that's why we're all still here. And I 
guess I'll just comment that what we were doing before Exxon 
Valdez was relying on government to provide the ability to 
respond to spills. What we're doing now is relying on the 
private sector, or maybe I should say non-governmental 
organizations such as Mr. Wright just spoke to.
    And I guess I just want to say that there are some inherent 
difficulties here because just the extent, to the extent that 
one must maintain profitability in private sector operations, 
for example, there's a difficulty in maintaining readiness. You 
know, we have a Fire Department and we have, and the Fire 
Department is there if we need it, and firemen oftentimes are 
growing the best tomatoes in town because they've got lots of 
time to tend their gardens. It's difficult to make money in 
that kind of a system.
    So I note that a recent report to the State of Washington 
by Glosten Associates made reference to the need to incorporate 
vessels of opportunity such as fishing vessels into the 
response system, and it seems that the State Department of 
Ecology is interested in doing, and maybe in spite of all the 
resources that we obviously have available, things like this 
are, potentially, still needed.
    Let me go to my second point, social conflict. I think it's 
inherent in this kind of situation because of many, many 
reasons. People don't really expect oil spills, neither do the 
experts. The experts assure us they won't happen. They do 
everything they can to ensure they won't happen, but inevitably 
one does and sometimes anger, disappointment, and other sorts 
of reactions are the result. And there are always the questions 
of liability that seems to split people right down the middle 
when the lawyers get involved.
    So I think it's worth noting that the arenas in which we 
talk about oil spills and oil spill prevention are really 
dominated by professionals. This has been the experience my 
whole career. And the citizen voice is often fairly weak, in 
the background, sometimes totally absent. So I think a 
heartening advance I see is that Governor Gregoire signed 
legislation in May to create an Oil Spill Advisory Council. 
Social scientists that have looked at this problem often end up 
looking at the Prince William Sound Regional Citizens Advisory 
Council as a model for really engaging stakeholders into the 
arena in which safety improvements are made.
    I participated in a National Academy study that reviewed a 
risk assessment that was commissioned by the Prince William 
Sound RCAC, and it was really interesting in our briefings with 
members of that organization how much industry and citizens and 
representatives of industries like tourism were able to come 
together and talk constructively about what needed to be done 
under that mechanism.
    So if you're going to do things like that, you need time to 
let relationships develop. You really need adequate resources 
to make sure the organization can function, and people really 
have to be willing to come to an agreement. Those are sort of 
necessities.
    Let me go to the nature of the risk and I think I'll just 
reinforce some of what I heard Captain Boothe say in Panel 
Number 1. The sources of risk in Washington waters I think are 
extraordinarily complex in their distribution. As I mentioned, 
I was part of an evaluation of a big risk assessment study that 
cost more than a million dollars that was conducted in Prince 
William Sound in the late 1990s.
    The panel that I was on came to the conclusion that Prince 
William Sound was actually relatively simple as a problem of 
risk analysis compared to Puget Sound. So what this says to me, 
and I should add my background's in mathematics, but I'm going 
to say I don't think technical analysis is as useful as we make 
it, and really it's deliberation where you're constantly 
talking about, ``what are the sources of risk'' that is 
important.
    I think the Sound is very different in the sense that spill 
risk on the outer coast is dominated by the prospects of a 
large tanker spill, but when you get into the interior parts of 
Puget Sound, it's the bunkering operations, it's the wealth of 
different craft on the water. The fact that it is a pleasure 
craft can precipitate a major accident just by misbehaving. I 
was a Commissioner of Pilotage in this state for 7 years, and 
it was amazing how many times vessels were forced to leave the 
lanes, or actually collisions occurred with passenger vessels 
that were anchored in the sea lanes, despite all of the 
prohibitions against that.
    So these are real difficulties, and it tells you we've 
really got to keep looking at the whole system. I think there 
was a period that I hope we've gotten past where we were being 
forced to consider this ``either/or'' choice, a tug in Neah Bay 
or times of opportunity. I don't think we should be looking at 
risk reduction as an either/or measure. I think we should look 
at all the sources of risk and address each in proportion to 
its reality of occurring.
    As Captain Boothe said, it's the probability times the 
consequence, and the things that happen over and over again may 
be relatively low consequence but they are higher probability 
events.
    My last point about research, I think research is really 
essential to not only improving the technology, the ability to 
respond, but also to understanding what it is that people are 
looking for to head off social conflict. So to me a proper 
research agenda is technology and engineering, it's natural 
science and it's social science, it's dealing with the human 
dimensions of oil spill risk.
    I don't think that happens very often. I think there's a 
real problem in the kind of responses that happen to major 
spills like Exxon Valdez where the nature of the research 
that's done is injury determination, and when you look at what 
the ecologists have to say 10 or 15 years later, such as 
Charles Peterson in an article in Science that appeared last 
year, it turns out there can be long-term effects that really 
are the issue and the, you know, kind of immediate acute 
toxicity and lethality is still being debated as to whether, 
how consequential it was.
    So we have to be mindful of asking the wrong questions. And 
when you use an incidence of a spill as the basis for launching 
research, you're never in a very good position for that 
research to do as well as it could. So you need other 
mechanisms and I think the CRRC mechanisms that I mentioned--
which I think was set up by Senator Judd Gregg; is that right? 
New Hampshire?--is very interesting because it is independent 
and it is a group. I'm a member of a panel of natural and 
social scientists. We meet annually. We have a lot of feelers 
out and we look at what we think needs to be done and then we 
try to convince people to apply for funds to do it.
    It's a competitive grants program, everything is peer-
reviewed, and as a result we're taking on now with the research 
project something that the American Petroleum Institute has 
been urging be done, that is, to try to come up with agreed 
performance standards for oil spill response and prevention.
    And yes, prevention systems can be evaluated too. How do we 
know they're really ready to go? It's a difficult question, and 
part of the major difficulty is that we have to really get 
everybody's perspective on this. There isn't some magic set of 
indicators that are the right indicators to assess readiness of 
the system. We can quickly spew out all kinds of numbers on how 
much of this and that equipment we've got, but what does 
readiness really mean? As we are learning more and more we need 
to really ask that question very broadly, and you can't do that 
if you don't have social scientists, I would argue, as part of 
the group that's doing that kind of thing.
    So I think also more could be done with organizations like 
the National Sea Grant program. Even institutions like my own, 
we get officers from the Coast Guard who come and collect our 
master degree in marine affairs, and while they're there, they 
often take on a research project, something the Coast Guard 
asks them to do. A recent graduate of our program developed a 
system to evaluate responsive response preparedness for the 
Coast Guard, developed a framework for it. He was then passed 
to Washington, D.C.. to put that system into operation. So I 
think that ability to step outside the formal mechanism 
sometimes is very useful.
    I guess my last comment is just, you know, thoughts on 
learning because that's what this is all about, that's what I 
stand for. You have a choice. Are you going to, you know, learn 
from disaster, which is trying to recoup after some catastrophe 
occurs, or do you want to really learn by design and be more 
conscious about it? I think the fundamental problem in this 
arena is that we tend to get all excited and pour money into 
problems in the event of major spills, and then we let our 
guard down and we don't do much in the interregnum between 
events, and that's when we really should be putting together 
our Citizen's Advisory Councils, deliberating about safety, and 
not pretending like just because nothing's happened for 5 
years, the problem is solved.
    Thank you very much, I'd be happy to answer any questions.
    [The prepared statement of Dr. Leschine follows:]

     Prepared Statement of Professor Thomas M. Leschine, Director, 
           School of Marine Affairs, University of Washington
    My name is Tom Leschine. I am Professor of Marine Affairs at the 
University of Washington where I have been since 1983. I became 
Director of UW's School of Marine Affairs in 2003. My academic training 
is in mathematics, and my research career has been in ocean policy 
studies with an emphasis on environmental decisionmaking, especially 
with regard to pollution policy and management. A considerable portion 
of my work has emphasized the conduct and application of risk 
assessment studies in support of public policy decisions affecting the 
environment. I'm a long-time member of the Society for Risk Analysis.
    Oil spill prevention, preparedness and response have been among my 
academic pursuits since the late 1980s, when I received a grant from 
the Washington State Legislature to provide research support to the 
Department of Ecology in the development of more effective approaches 
to oil spill damage assessment. The resulting Washington Oil Spill 
Compensation Schedule, adopted by the state legislature in 1989, has 
greatly facilitated Ecology's ability to assure the public is 
adequately compensated for damage to public resources caused by oil 
spills. In the early 1990s I served as Historian for the U.S. Coast 
Guard, leading the team that prepared the Federal On-Scene 
Coordinator's Report for the Exxon Valdez oil spill. I served as a 
Commissioner of Maritime Pilotage in the state for 7 years during the 
1990s, and currently I'm a member of the Scientific Advisory Board of 
the Coastal Response Restoration Center (CRRC). The CRRC is a joint 
center of NOAA's Office of Response and Restoration and the University 
of New Hampshire whose mission is to support research aimed at 
improving oil spill preparedness, response and restoration capabilities 
through a competitive grants program. I've also served on numerous 
National Research Council Committees, one of which examined the quality 
of risk assessments being conducted to identify effective risk 
reduction measures for Prince William Sound oil transport, in the wake 
of the Exxon Valdez spill.
    I am honored to be invited to testify at this field hearing on 
vessel-source oil pollution being held by the U.S. Senate Committee on 
Commerce, Science, and Transportation's Subcommittee on Fisheries and 
the Coast Guard. I wish to address four points in my testimony. These 
points are summarized in bulleted paragraphs below.

  <bullet> Significant improvements have been made in the safety of oil 
        transport since the Exxon Valdez spill, both nationally and in 
        Washington State.

          -- Oil spill risk will never be reduced to zero however, and 
        additional improvements in the total system that deals with oil 
        spill prevention, preparedness and response for Washington 
        waters remain necessary. Reliance on the private sector for 
        provision of response resources--the current approach--is 
        inherently problematic due to the necessity of maintaining 
        profitability.

          -- The recommendation of the June 2005 report by The Glosten 
        Associates (Oil Spill Response Vessel Capabilities in 
        Washington) to increase reliance of fishing vessels and other 
        vessels of opportunity offers an innovative way to address this 
        problem, though non-specialized vessels may not prove equally 
        useful or available in all circumstances, suggesting the need 
        for additional specialized assets as well.

  <bullet> Social conflict is inherent in the arena of oil spill 
        prevention, preparedness and response. Historically little has 
        been done to address this problem directly, despite the high 
        costs it can impose on efforts to deal with spills and safety 
        improvements.

          -- The arenas in which oil spill safety is deliberated have 
        been overly dominated by government and industry, with the 
        public voice absent or weak, and this has been true in 
        Washington State.

          -- The public is vulnerable to ``hindsight bias'' a 
        psychological heuristic that colors public reactions when the 
        fact of an oil spill on the water belies earlier assurances by 
        experts, public officials, and industry representatives that 
        everything was under control.

          -- Studies suggest that the Prince William Sound Regional 
        Citizens Advisory Council is an effective model for citizen 
        participation (G. Busenberg, Innovation, learning and policy 
        evolution in hazardous systems, American Behavioral Scientist 
        44(4) 679, 2000.) Legislation signed by Governor Gregoire in 
        May creating an oil spill advisory council (ESSB 5432, Chapt. 
        304, Laws of 2005) could produce a similar body for Washington, 
        a major advance in my view. Time, sufficient resources, and 
        commitment by all parties to negotiate an agreement will be 
        necessary for the new council to work effectively.

  <bullet> The sources of oil spill risk in Washington waters--
        particularly in Puget Sound--are numerous and interconnected in 
        difficult-to-understand ways. This seriously complicates the 
        task of finding a few key remedies that convincingly reduce the 
        overall risk of spills. The whole maritime transport and oil-
        handling system needs to be examined critically for sources of 
        risk and reexamined frequently.

          -- Spill risk on the outer coast and Strait of Juan de Fuca 
        is likely dominated by different threats than risk in more 
        inland waters, especially central and southern Puget Sound, 
        where risk is likely most associated with non-tankship traffic 
        and operations--for example, fueling operations. Pleasure craft 
        or other non-commercial or non-oil transport vessels can easily 
        emerge as proximate causes of oil spills, or themselves be 
        directly involved in incidents that lead to significant spills. 
        The 1991 Tenyo Maru spill resulted from a collision between a 
        Japanese fishing vessel and a Chinese freighter in Canadian 
        waters, but close enough to Cape Flaherty to cause considerable 
        environmental damage in its vicinity.

          -- Much rhetoric over the past several years has suggested 
        the region needs to make ``either/or'' choices on protection, 
        an unrealistically oversimplified proposition in my view. 
        Resources need to be invested in each aspect of the oil spill 
        risk problem in proportion to the risk each poses, and in ways 
        that effectively address identified risks. The challenge is to 
        know when we've done enough or done the right things.

          -- Approaches dominated by technical analysis, like that of 
        the major Prince William Sound risk assessment study evaluated 
        by the National Research Council several years ago (Review of 
        the Prince William Sound, Alaska, Risk Assessment Study, 
        National Academies Press, 1998), are likely less useful in 
        Puget Sound, meaning more reliance needs to be placed on open, 
        active, and transparent deliberation among all parties on the 
        likely sources of risk and what can be done to address them. 
        This reinforces the value of a Prince William Sound RCAC-like 
        model for Washington State in my view.

  <bullet> Research is vital to understand how better to avoid major 
        oil spills and to deal with their aftermath. But opportunities 
        and funding for research are too frequently tied to oil spill 
        incidents, where social conflict and questions of legal 
        liability make it difficult for the right research to be done, 
        or for research to be sustained to the point where real 
        understanding emerges. Moreover, oil spill research has 
        historically been dominated by the natural sciences and 
        engineering, at the expense of understanding important ``human 
        dimensions'' of oil spill prevention, preparedness and 
        response.

          -- Marine ecologists have argued that oil spills set 
        researchers up to ask the wrong questions, focusing on 
        quantifying wildlife injury rather than trying to understand 
        how best to help the areas affected by a spill get on the road 
        to recovery (R. Paine and others, ``Trouble on oiled waters'' 
        Annual Review of Ecological Systems, 27:197-235, 1996). A 
        recent radical, new (and much discussed) view on how difficult 
        recovery from a spill like Exxon Valdez can be given the 
        continued presence of hydrocarbon contaminants in sensitive 
        environments--propounded by Charles Peterson of the University 
        of North Carolina and colleagues--emerged only after more than 
        a decade of monitoring results were available for analysis 
        (C.H. Peterson and others, ``Long-term ecosystem response to 
        the Exxon Valdez oil spill'', Science 302: 2082-2086, 2003).

          -- Important ``human dimensions'' of oil spill prevention, 
        preparedness and response have received much less attention 
        than natural scientific and engineering aspects.

          -- Human factors that can influence profoundly the real level 
        of safety in risky technologies like marine oil transport are 
        receiving increasing attention, but data is difficult to come 
        by due to the relative rarity of spill events and factors like 
        legal liability. Information on ``near misses'' is crucial, and 
        the airline industry has been very successful in developing 
        good data, while efforts to do the same thing in the maritime 
        domain seem to remain beset by difficulties.

          -- Developing accurate and sensitive indicators of ``what 
        counts for success'' in the performance of preparedness, 
        prevention, and response systems--as judged from the 
        perspective of all interests potentially affected by spills--is 
        an especially important task that has to include researchers 
        from the social sciences to be done properly. A 1999 issue 
        paper of the American Petroleum Institute, underscores the 
        importance of this problem (Judging Oil Spill Performance: The 
        Challenge of Competing Perspectives, API Technical Report IOSC-
        008, prepared by June Lindstedt-Siva, 1999).

          -- A potentially useful and innovative model for bolstering 
        research quality and scope is the Coastal Response Research 
        Center (CRRC), a partnership between NOAA's Office of Response 
        and Restoration in Silver Spring, MD, and the University of New 
        Hampshire. The CRRC operates through a peer-reviewed 
        competitive grants program. It uses its Scientific Advisory 
        Panel--of which I am a member--to make an independent 
        assessment of research needs, and to encourage researchers to 
        develop proposals to address under-researched questions.

          -- The National Sea Grant College Program could, with 
        encouragement, also become an effective conduit of research in 
        these areas, and the practice of the U.S. Coast Guard to select 
        promising junior officers for graduate training in schools like 
        the School of Marine Affairs has also been effective in 
        developing fresh perspectives on problems of preparedness, 
        prevention and response that then get carried back to the 
        parent organization. A recent student of mine at the School of 
        Marine Affairs, USCG Lt. Cdr. Drew Tucci, devoted his master's 
        thesis to developing understanding of impediments to evaluating 
        oil spill response readiness, and his work proved so useful 
        that the Coast Guard tasked him with the further development 
        and implementation of his own recommended approach to 
        evaluating response readiness upon his assignment to Coast 
        Guard headquarters following graduation.

    As a final thought, opportunities for learning about the nature of 
risk and what to do about it, as well as for learning how best to cope 
with the environmental and social costs incurred as a result of a major 
oil spill should one occur, are essential. The kind of learning I'm 
talking about includes robust organizational design such as the Prince 
William Sound RCAC seems to represent, as well as research and 
development. The key is to take advantage of opportunities to learn 
outside the situation of being in the midst of a major oil spill. I 
alluded earlier to the work of Prof. George Busenberg of the University 
of Colorado at Denver, in reference to the PWS RCAC. To paraphrase what 
he said in his article, do you want to try to learn from disaster with 
a major oil spill already on your doorstep and with passions running 
high and the likelihood of genuine learning low, or would you rather 
learn by design, through considered and ongoing deliberation among all 
parties potentially affected by a major oil spill should one occur, in 
an environment defined by the absence of a spill disaster and with the 
prospects of useful learning much more likely to be high?
    I sincerely thank the distinguished Senator and her staff for this 
opportunity to present my thoughts on ways to address the risks that 
oil spills from vessels pose to Washington waters, and ways to reduce 
those risks, at this hearing.

    Senator Cantwell. Thank you, Doctor Leschine. Let's let Mr. 
Felleman go next and then we have questions for all the 
panelists. But thank you for being here.

STATEMENT OF FRED FELLEMAN, NORTHWEST DIRECTOR, OCEAN ADVOCATES

    Mr. Felleman. Thank you, Senator Cantwell and members of 
the Subcommittee, wherever they may be. I appreciate this 
opportunity to testify and want to tell you that Ocean 
Advocates is a small national non-profit NGO that specializes 
in maritime safety. Our Executive Director Sally Lentz often 
goes to the IMO and goes often on behalf of other environmental 
organizations. We're also a member of the Shipping Safety 
Partnership, a coalition of Alaska Natives, commercial 
fishermen, recreation, science and community interests formed 
in response to the December 2004 Selendang Ayu incident in the 
Aleutian Islands, specifically addressing maritime safety in 
the Great Circle route.
    There is certainly no question that a major oil spill here 
would be the straw that breaks the ecosystem's back. And the 
last time this sort of question was addressed was in this 
newspaper clipping I have from June 17, 1989, ``Big Oil Spill 
Here, Are We Unprepared?'' We are unprepared. This is when the 
Merchant Marine Fisheries Committee held a hearing here on the 
heels of the Exxon Valdez and this archival photograph is for 
you to keep and should be part of the record. You'll see Jolene 
Unsoeld, and John Miller, and Congressman Dicks and other 
familiar faces.
    [The information referred to follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
               Seattle Post--Intelligencer, June 17, 1989

                  Big oil spill here? We're unprepared

                            By Mike Merritt

    The Coast Guard, state officials and oil-industry groups told a 
U.S. House Subcommittee yesterday that Washington State is unprepared 
for an oil spill as large as the one that fouled Alaska's Prince 
William Sound.
    The Nestucca barge spill off Washington's coast in December dumped 
231,000 gallons of oil into the sea, and the spill ``stretched our 
resources to the limit,'' said Christine Gregoire, Director of the 
Washington State Department of Ecology.
    More than 11 million gallons of oil spilled from the Exxon Valdez 
when it ran aground on March 24.
    ``It goes without saying we are not prepared, nor could we respond, 
to a Valdez spill in Washington State,'' said Gregoire.
    Gregoire and other officials painted a bleak picture of the 
consequences of a major spill in Puget Sound during day-long testimony 
in Seattle before the House Coast Guard and Navigation Subcommittee.
    Yesterday's hearing was the first in a series across the country on 
oil spills. Rep. Bill Tauzin, D-LA., Committee Chairman, has sponsored 
legislation to create a nationwide $500 million fund to clean up oil 
spills.
    ``The issue is not if another spill will happen, but when and where 
it will happen,'' said Tauzin.
    Coast Guard and industry authorities came under tough questioning 
from members of Washington's Congressional delegation, including 
Democratic Reps. Norm Dicks, Jolene Unsoeld, and Jim McDermott and 
Republicans Rod Chandler and John Miller.
    McDermott and Sen. Brock Adams, D-WA, are sponsoring legislation 
requiring all new oil tankers be built with double-bottoms as a safety 
measure, a measure the industry opposes as unnecessary.
    Dicks said Alaskan officials and oil companies had 14 years to plan 
for an oil spill in Prince William Sound. ``Sadly, after 14 years, that 
system, when it was called on, failed,'' he said.
    The Coast Guard's regional commander, Rear Adm. Robert Kramek, 
conceded that a spill in Puget Sound the size of the Exxon Valdez 
disaster had never been contemplated in contingency planning. If a 
spill that large occurred today, ``there is not enough equipment 
existing in Puget Sound'' to clean up the oil, Kramek said.
    In the case of a spill, Kramek has authority to take over the 
cleanup if the spiller fails to respond or acts too slowly. Kramek 
said, however, that the oil industry in Washington has been cooperative 
in planning and carrying out cleanup efforts.
    But Miller, citing the disarray among government and industry 
groups after the Alaska spill, asked whether the Coast Guard should not 
have immediate powers to clean up a spill before it spreads too far.
    Dicks, while praising the Coast Guard's efforts, said the Puget 
Sound Vessel Traffic Control System's radars are outdated, can't see 
ships in key locations and don't extend to Tacoma.
    He noted that the Coast Guard cannot order industry to keep oil-
containment booms, oil skimmer vessels and other equipment ready for a 
spill.
    ``I think that is a gap, yes, I do,'' replied Kramek.
    Petroleum industry speakers told lawmakers the Valdez spill has 
prompted a re-evaluation of plans for coping with a much more massive 
spill than they now can handle.
    An industry cleanup organization, Clean Sound Cooperative. has $9 
million in equipment on hand to respond to spills.
    ``Clean Sound and its member companies are committed to ensuring 
the protection of Puget Sound and making sure that a Valdez spill never 
happens here,'' said John Wiechert, a former Coast Guard officer and 
Clean Sound Manager.
    Only since the Valdez spill, Wiechert said, has the industry begun 
a study of how much and what kinds of equipment would be needed to 
handle a ``worst-case'' spill of 7 million to 8 million gallons of oil 
in Puget Sound.
    Wiechert declined to predict how much more equipment would be 
needed for such a spill, but he said the industry group should make 
decisions within a month.
    Industry authorities rejected charges from environmental groups 
that, their oil-spill contingency plans have been kept secret. They 
offered to make available the computer databases that would guide a 
response in the event of a spill.
    Environmentalists called for tough new regulations requiring each 
oil tanker and barge, and each oil-handling facility. to have its own 
emergency cleanup plan.

    But I greatly appreciate the fact that your leadership has 
reduced the likelihood that this incident would be happening 
here in the tradition of the late Senator Magnuson. Not only 
are we pleased that this hearing addresses issues that we 
normally only see or hear about when dead birds are on TV and 
there's oil in the water, but I'm particularly thankful for 
your effort in drafting the energy bill--three provisions are 
worthy of note and recognition.
    Specifically, taking the Arctic National Wildlife Refuge 
out of the bill shows that we can't drill our way to energy 
independence; second, the inclusion of the $500 million in 
subsidies for biofuels will make a substantial contribution to 
our reduction in our regional energy needs and hopefully reduce 
the amount of tanker traffic; and third, the passage of Senate 
Bill 1222 certainly makes a large step toward filling the gap 
in our Nation's ability to respond to and prevent oil spills.
    I'm of the belief, at the time and still of the belief to 
this day, that a contributing factor to the slowness of the 
response to the Dalco Pass spill had to do with concerns about 
the money in the bank. The fact is we should no longer need to 
worry when you don't have a responsible party, that's when you 
have to open the bank account. Your leadership on S. 1222 makes 
that so.
    The Dalco Pass mystery, there was no mystery. We knew there 
was a black oil spill in the Sound, a mariner reported it, but 
we didn't know who was going to pay the bill. Any sort of 
question that our responding agencies have that there won't be 
somebody to pay the bill should not be on their mind. Having 
the money in the bank is a great thing.
    The fact that we had low impact to wildlife, people say is 
a good thing. I suggest to you it's perhaps because there isn't 
that much wildlife to impact anymore and it's quite concerning 
that we could have a spill of that size, without more 
noticeable impact. Having spent a lot of time on the water, 
doing my graduate work on marine wildlife, I conclude the fact 
that we didn't hit more wildlife is because it's harder to find 
sea birds on the sea, and this is a not a good thing.
    One promising technology for both preventing and responding 
to oil spill is salvage. Salvage includes a wide range of 
technologies from firefighting, spill response, pulling a ship 
off the beach, dewatering a sinking ship. Salvage tugs can also 
assist in spill response and lifesaving exercises, but despite 
the fact that Congress called for a salvage and firefighting 
rule in OPA 90, the Coast Guard still has not implemented such 
a regulation. The distraction associated with homeland security 
should not be seen as an excuse, but actually a further reason 
for implementing this law, because in fact the potential risks 
for environmental terrorism or impacts to cruise ships or 
ferries associated with post-9/11 concerns is only heightening 
the need for increased salvage posture in the United States.
    The cost effectiveness of salvage can only be best 
articulated when you look at incidences like the New Carrissa 
or the Selendang Ayu. New Carrissa cost over a hundred million 
dollars when you include fines, and the ship's still on the 
beach. Selendang Ayu is expected to cost three times that 
amount, and it's unlikely that they're going to get the ship 
off the beach--not to mention the endangered plovers that were 
impacted off of Oregon and the thousands of marine mammals, sea 
birds, and subsistence lifestyles that were impacted in Alaska.
    In 2002, the U.S. Coast Guard and the Navy hosted a 
Maritime Salvage Conference in Seattle. The Admiralty Counsel 
to the U.S. National Supervisor of Salvage, Richard Buckingham, 
presented a paper and I would like to quote a very brief 
section. ``The problem of inadequate domestic marine salvage 
capacity is well documented and recognized by both the 
government and commercial sectors; furthermore, the situation 
is not getting any better. Because of the Nation's overriding 
interest in the protection of the environment/economy/marine 
transportation system, as well as meeting homeland security 
needs, we need a cohesive Federal national savage policy.''
    This has been reiterated by numerous reports, and in fact 
one of the ways in which to address this need could be through 
the rebuilding of the Coast Guard's Deepwater fleet. The Coast 
Guard doesn't put towing winches on their cutters, but in fact 
when, oftentimes when the Navy surpluses cutters to the Coast 
Guard, they take the towing winches off. In fact we could have 
probably kept the Selendang Ayu off the beach if one of those 
Coast Guard cutters hadn't been de-towed when it was up in 
Alaska. We didn't have enough towing capacity up there to deal 
with the sea state at the time.
    The other alternative as proposed by the National Academy 
of Sciences is to surplus the Navy's T-ATF, the Powhatan class 
tugs, to the Coast Guard or to the private sector to have 
really robust salvage capacity around the country.
    Some others, the State of Washington obviously has taken on 
this burden to have a salvage tug in Neah Bay or a rescue tug 
in Neah Bay. It is not salvage capable, doesn't have 
firefighting or spill response capacity on it, and it's only 
funded for three more years. This is an opportunity, I think, 
for the Federal Government to match the state in this exercise.
    In particular, you've heard a lot about the efforts on the 
Olympic Coast, but the fact of the matter remains the first 70 
miles of the Strait of Juan de Fuca, there are no tanker size 
limits, there are no speed limits, there are no pilots, there 
are no tug escorts, and that's a long distance to go before you 
get to Port Angeles.
    Similarly, as you saw with the ATBA, all the ships are 
allowed to cut the corner of the sanctuary, and every ship 
entering the Strait of Juan de Fuca comes within two miles of 
Duntze Rock, so even with the ATBA we still have a close 
approach to the Olympic Coast National Marine Sanctuary.
    Furthermore, there are 142 tugs that cross through there. 
We're not sure how many of them were laden with their tows. 
This is an easy question. We know from the nature of the trade 
the southbound traffic is loaded, the northbound traffic is 
usually empty coming back from San Francisco or the Columbia 
River. We should know by now whether or not those tugs and tows 
are laden or not.
    So some suggested Federal actions, we need, now that we've 
tapped the Oil Spill Liability Trust Fund, we need to remove 
the sunset date. There's no reason to revisit this again in the 
future, as long as there are ships sailing on the sea we're 
going to need that account.
    We should amend OPA creating a cargo account, because as we 
know, tankers are not the only ships on the sea that spill oil, 
and there should be an account to draw for non-tank vessels. We 
can amend OPA to make it easier for the Oil Spill Liability 
Trust Fund to be used for preventative purchases. Jolene 
Unsoeld was able to get a sum of money drawn from the Oil Spill 
Liability Trust Fund for setting up a marine firefighting 
association in the Columbia River. It's one of the few times 
I've ever heard it drawn from when it was not during a spill or 
not for standard administrative purposes of the Coast Guard, 
the EPA, or NOAA.
    Have the Coast Guard either include towing capability in 
their new deep water fleet or have the Navy Powhatan class tugs 
brought to bear to help our Nation's salvage posture. Conduct a 
review of the tow boat lanes in the Strait of Juan de Fuca with 
tows passing through the area to be avoided.
    Captain Boothe made mention to the fact that we have two-
way lanes. The fact of the matter is, the reason why we have 
tugs and tows cutting through the Olympic Coast sanctuary is 
because we allow these tugs to go outbound on the inbound 
lanes. Following along the shoreline of Clallam County, so when 
you come to Cape Flattery and you're going to California, the 
first thing you want to do is head south. So instead of going 
outbound like the other outbound traffic along the Canadian 
coast and you're way off shore when you're coming down the 
coast, these guys are hugging the corner and in fact going 
outbound in the inbound lane. It's a practice that is 
traditional, but I don't think it is sensible.
    A couple of more recommendations. Provide Congressional 
oversight of the Coast Guard's Salvage and Firefighting rule 
assuring that it's adequate and completed this year. Have the 
National Academy of Sciences evaluate the Coast Guard's cost 
benefit analysis methodology. They use factors like the cost 
per barrel not spilled for prevention studies and the cost per 
barrel recovered for response studies, but neither of these 
analyses look at the cost to the marine environment or the 
economy from a spill. And I think this frustrates the purposes 
of NEPA. We're only looking at the cost of the industry, not 
the benefits to the environment. So it strikes me as a one-
sided equation that makes it hard to advance the score.
    I mentioned to you about the need to review the Strait of 
Juan de Fuca, first 70 miles, there's a gap in our protection, 
otherwise very robust network that I'm very proud of. We have a 
long tradition up in the State of Washington.
    And then, I think, finally, there was mention made by Mr. 
Wright of the consolidation of the maritime response community. 
Like the oil and shipping industry we have great consolidation 
occurring. We know mergers often are for cost savings and it 
results in downsizing that occurs when you merge organizations.
    Right now MSRC is like the only game is town because they 
bought Clean Sound, and the National Response Corporation 
bought Foss Environmental, so we actually have two 
organizations, before we used to have four organizations in 
this town. In the Dalco Pass spill, MSRC didn't respond at all, 
but we had to go labor-ready, for a thousand gallon spill. We 
had to have labor-ready workers on the beaches for a simple 
thousand gallon spill. What's going to happen when we have a 
really big spill?
    In closing, the late Senator Magnuson oversaw the great 
transition from when Washington State received its crude oil 
primarily from Canadian pipelines to U.S. tankers. This change 
in risk in our waters required proactive leadership and enabled 
us to maintain a relatively good oil spill record to this date. 
For example, Senator Magnuson made it clear that he wanted to 
limit the size and amount of tankers transiting through the San 
Juan Islands and passed several laws fulfilling his vision.
    The one constant in the maritime world is change, and we 
need constant vigilance to keep up with these changes. We 
appreciate Senator Cantwell's proactive efforts and look 
forward to working with her office and this Committee on these 
matters in the future. Thank you for your time.
    [The prepared statement of Mr. Felleman follows:]

       Prepared Statement of Fred Felleman, Northwest Director, 
                            Ocean Advocates
    Senator Cantwell and members of the Committee:
    Thank you for the opportunity to provide testimony to you this 
morning. My name is Fred Felleman. I am the Northwest Director of Ocean 
Advocates, a small national non-profit environmental organization 
specializing in maritime safety. My offices are based in Seattle and 
San Juan Island. I have a Masters of Science degree from the University 
of Washington's College of Ocean and Fishery Sciences and have been 
involved in the study and conservation of our resident killer whale 
population since 1980.
    My involvement with oil spills began in 1988 when I moved to 
Washington D.C. to help Congressman Lowry develop the legislation 
creating the Olympic Coast National Marine Sanctuary. Since then I have 
conducted damage assessment on the Exxon Valdez oil spill and have 
served on numerous state and Federal oil spill committees. Ocean 
Advocates is also a member of the Shipping Safety Partnership (SSP), a 
coalition of Alaska Natives, commercial fishermen, recreation, science, 
and community interests formed in response to the December 6, 2004 
grounding of the Selendang Ayu in the Aleutian Islands to advance the 
safety of cargo shipping through the Great Circle route.
    There can be no question that a major oil spill would wreck havoc 
on the biological, economic and cultural environments that are so 
closely tied to Washington's waters. This is especially true now. The 
marine environment is showing many signs of stress, from elevated sea 
surface temperatures region-wide, to depleted oxygen levels in Hood 
Canal, and a lack of upwelling on the outer coast, making the recovery 
of our remnant populations of herring, salmon, and killer whales all 
the more difficult. A major oil spill would end up being the straw that 
broke the ecosystem's back, undermining many years and millions of 
dollars of investment in recovery efforts.
    We are encouraged by Senator Cantwell's leadership to help reduce 
the likelihood of such a fate in the tradition of the late Senator 
Warren Magnuson. Not only are we pleased by the attention this field 
hearing brings to an issue that seems to only get addressed when there 
is oil in the water and dead birds on TV, but we are particularly 
thankful for the Senator's efforts in drafting the energy bill. Three 
provisions in particular deserve recognition. First, removing the 
provision that would have opened the Arctic National Wildlife Refuge to 
oil exploration recognizes that we will not be able to drill our way to 
energy independence. Second, the inclusion of $500 million in subsidies 
to encourage the development of biofuels makes a substantial 
contribution to our regional energy needs, and will hopefully serve to 
reduce the amount of tanker traffic calling on our waters in the 
future. Finally, the introduction of S. 1222, the Oil Spill Liability 
Trust Fund Maintenance Act, reinstating the 5 cent/barrel fee and 
raising the cap to $3 billion is an essential step toward filling the 
gap in our Nation's ability to respond to and prevent oil spills.
    Our concern about oil spills is not theoretical. According to the 
Department of Ecology there were more than 80 spills exceeding 1,000 
gallons in Washington waters between 1986 and 2004. Ocean going vessels 
are the Nation's primary vehicles of trade. The Strait of Juan de Fuca 
is the busiest commercial waterway in North America serving both 
Canada's and the U.S.'s busiest ports, and it is only getting busier as 
Pacific Rim Trade has eclipsed that with Europe. While the number of 
oil spills has declined since the passage of OPA 90 the volume of oil 
spilled varies widely each year depending on whether one large ship has 
had an accident or not. Therefore, we cannot be lulled into complacency 
by these spurious statistics. Of particular concern are the 142 tugs 
with oil barges that passed through the Area To Be Avoided within 
Olympic Coast National Marine Sanctuary in 2004. While there was a 96.3 
percent overall compliance with the ATBA in 2004, it only takes one 
laden oil barge to break its tow as recently happened off the Columbia 
River to cause long-term damage. It is also important to note that even 
ships that comply with the ATBA come within 2 miles of shore as they 
enter the Strait of Juan de Fuca. It is also worth noting that laden 
oil barges are allowed to transit near shore of the inbound shipping 
lanes, putting the shoreline of Clallam County at unnecessary risk and 
setting the tugs up to cut through the ATBA. This practice needs to be 
reevaluated.
    Our ability to respond to even relatively small spills has been 
called into serious question of late. The responses to both the 4,700 
gallon December 2003 Foss spill at Point Wells and the 1,000 gallon 
October 2004 Dalco Pass spill were lackluster at best. There has also 
been a series of recent transfer spills at refineries in Ferndale and 
Tacoma that have unnecessarily spread into the marine environment 
because vessels are not required to pre-boom before conducting such 
transfers. It is my understanding that the State of Washington has a 
task force studying this issue. The State Department of Ecology just 
released a report documenting that there would not be enough response 
equipment in the San Juan Islands to respond to a 420,000 gallon spill, 
despite the fact that some of the State's largest caches of equipment 
are stored at the four refineries surrounding the islands. This bodes 
poorly for our state-of-readiness in more remote locations such as the 
Olympic Coast where the State's largest spills have occurred in its 
most pristine and productive environment. In a Congressional field 
hearing held June 17, 1989, then Ecology Director, Christine Gregoire, 
said in reference to the 231,000 gallon 1988 Nestucca spill that we 
``stretched our resources to the limits.'' Unfortunately, very few 
additional resources have been brought to bear on the problem since 
1988, and there has not been a drill in the Olympic Coast Sanctuary 
evaluating our response capacity in the 10 years since its creation.
    Another issue affecting our ability to respond to oil spills has 
been the unprecedented mergers that have been occurring in the oil and 
shipping companies, as well as their spill response contractors. We can 
only speculate on the political impact of the consolidation of the 
world's largest corporations, but the downsizing that commonly occurs 
during mergers can reduce the capacity of our spill response 
contractors. This past year the National Response Corporation bought 
Foss Environmental and MSRC bought Clean Sound, leaving the state with 
just two primary spill response contractors.
    Rather than react to the growing threat of oil spills posed by 
increased vessel traffic through our waters with increases in the 
levels of spill response capability, the Coast Guard has been urging 
the liberalized use of dispersants and capping our currently inadequate 
spill response posture. While dispersants have been shown to be 
effective in reducing impacts to sea birds at the surface in warm 
waters, no such demonstration has been made in the cold waters that 
characterize our situation. Furthermore, sinking the oil allows it to 
be taken up into the food chain that makes near shore applications 
problematic. Rather than trading off one spill response capacity for 
another, the Coast Guard should be calling on the maritime industry to 
expand their ability to respond to spills. This should include 
additional mechanical on-water recovery, dispersants for offshore 
spills when the sea state makes skimming impractical and dispersants 
more effective, and in situ burning which removes oil from the water at 
even higher rates than skimming.
    Of particular concern is the Coast Guard's assertion of Federal 
preemption in their 2003 Notice of Proposed Rulemaking on Vessel and 
Facility Response Plans for Oil Removal Equipment Requirements and 
Alternative Technology Revisions. Unlike the case involving prevention 
efforts, the state's response authority is not subject to Federal 
preemption, and the Coast Guard should not be trying to suggest 
otherwise.
    One promising technology for both preventing and responding to an 
oil spill is salvage. Salvage includes a wide range of capabilities 
from rescue towing, firefighting, and patching to dewatering a sinking 
ship. Furthermore, salvage tugs can assist in oil spill response 
efforts and lifesaving exercises. Unfortunately, despite Congress 
calling for a salvage and firefighting rule in OPA 90, the Coast Guard 
has yet to complete such a measure. The Coast Guard's added 
responsibilities for homeland security should not be used as a reason 
for this delay, but rather as an additional reason for completion given 
the potential for acts of environmental terrorism or the need to 
respond to a cruise ships or ferry in distress.
    We only have to look at the impact and expense of not having 
adequate salvage capacity to see how cost-effective it is. In 1999, 
when the New Carrissa broke in half off the Oregon coast because there 
was not adequate tug support available, the resultant oil spill 
impacted a threatened population of plovers, cost over $100 million 
(including fines) and ended with the wreck left on the beach. Similarly 
the 2004 grounding of the Selendang Ayu in the Aluetian Islands has 
already cost $100 million, and cost is expected to triple while 
thousands of sea birds and marine mammals have been killed and 
subsistence lifestyles impacted.
    The need to enhance our Nation's salvage capacity has been 
acknowledged for many years, but has taken on particular urgency since 
September 11. In 1994, the Marine Board's Committee on Marine Salvage 
Issues of the National Research Council wrote, ``Congress should update 
the national salvage policy to ensure that an adequate level of salvage 
capacity is present in U.S. waters. The policy should clearly delineate 
the following goals: to protect national security, to minimize or 
prevent environmental impacts due to pollution from marine casualties, 
to protect public safety, and to ensure minimal disruption to the U.S. 
economy resulting from marine casualties in the Nation's port and 
waterways (p. 4).''
    While the 1989 Exxon Valdez disaster will be forever remembered by 
the general public for 11 million gallons of oil spilled, among salvors 
it will be remembered for the vast majority of oil that was safely 
transferred to another ship. In contrast, the relatively small, New 
Carissa, that grounded off the Oregon Coast in 1999 is the poster child 
for what happens when adequate salvage capacity is not readily 
available.
    The Federal On Scene Coordinator (FOSC) in the New Carissa, Captain 
Mike Hall, summed up the problem when he stated:

        [W]e are essentially an island nation with over 47,000 miles of 
        shoreline; approximately 85 percent of all Americans live 
        within 100 miles of these shorelines; and 90 percent of all 
        international commerce enters the United States by vessel. One 
        can see from these facts that our Nation's ports and waterways 
        are the backbone of the U.S. intermodal transportation system. 
        This system must include a national salvage plan. We need a 
        salvage plan more capable than that demonstrated during the 
        initial stages of the New Carissa casualty. It was my belief on 
        4 February 1999, and it remains my belief today, that adequate 
        and timely salvage capability would have significantly 
        mitigated this crisis on the coast. There are currently only 
        two salvage vessels on the Pacific Coast capable of refloating 
        a large grounded ship, and neither was readily available to 
        respond in this case.

    In January 2002, the U.S. Coast Guard and Navy hosted the National 
Maritime Salvage Conference in Seattle. The Admiralty Counsel to the 
U.S. Navy Supervisor of Salvage and Diving, Richard Buckingham 
presented a paper entitled, ``Toward a National Salvage Policy.'' The 
abstract to his paper states:

        The problem of inadequate domestic marine salvage capacity is 
        well documented and recognized by both the government and 
        commercial sectors; furthermore, the situation is not getting 
        any better. Because of the Nation's overriding interest in the 
        protecting the environment/economy/marine transportation system 
        (MTS), as well as meeting homeland security needs, we need a 
        cohesive Federal national salvage policy. The first step, 
        however, will be identifying a Federal agency to take the lead 
        in forging such a policy. Should it be the Coast Guard, the 
        Navy, or perhaps some other agency? Who appears best suited for 
        the role? Once the appropriate agency assumes (or is tasked 
        with) this leadership responsibility, what are some of the 
        likely issues to be initially confronted? Also, this pressing 
        need for a national salvage policy should really be a high 
        profile issue on the agenda of the newly created U.S. 
        Commission on Ocean Policy, as well as a specific focus of the 
        Department of Transportation's MTS policy and SEA-21 maritime 
        infrastructure funding initiatives.

    The Marine Board of the National Academy of Sciences wrote to the 
Ocean Commission in June 2002 on the issue of national salvage 
capacity. They wrote:

        Within the maritime community, as well as government agencies, 
        it is recognized that the Nation's domestic salvage capacity is 
        inadequate to meet basic and emergency needs. This inadequacy 
        jeopardizes environmental, transportation, and homeland 
        security objectives. There is a need for a cohesive, Federal 
        national salvage policy and a designated lead government agency 
        to implement that policy.

    While the Coast Guard and Navy try to resolve this longstanding 
problem, the Makah Tribe have sought to have the U.S. Navy provide one 
of their uniquely qualified T-ATF tugs for dedicated rescue tug service 
in and around Neah Bay. The National Research Council found in their 
1994 report on salvage that surplus assets, particularly the T-ATF 
class of ships, if operated by the private sector and strategically 
deployed, could go a long way to restoring the traditional salvage 
capacity of the United States, particularly in rescue towing. The 
operation of these vessels by the private sector would require 
substantial subsidy, as it has been demonstrated in the United States 
and elsewhere that salvage revenues cannot cover the costs of operating 
and maintaining the vessels and their crews. The excess costs could be 
covered, as they were in the past, through the Salvage Facilities Act, 
and the plan could be implemented through the arrangements in place for 
Navy contracting for commercial salvage services.'' (pp. 55-56). The 
Coast Guard's Deepwater Program as well as the environment could be 
benefited by such Naval assets. Alternatively, the Coast Guard should 
consider including towing capability in the construction of their 
deepwater fleet.
    The State of Washington has public funding for just three more 
seasons of the Neah Bay rescue tug. This tug, while having provided a 
significant amount of additional protection to the Olympic Coast and 
entrance to the Strait over the past 6 seasons, is still only seasonal, 
and is not equipped for salvage, firefighting, or spill response.
    Suggested Federal Actions:

        1. Reinstate the OSLTF and raise the cap to $3 billion and 
        remove any sunset clause, for the account will be needed as 
        long as there are ships sailing on the sea.

        2. Create a Cargo account within the OSLTF that would be drawn 
        from when non-tank vessels are the cause of the oil spill.

        3. Amend OPA 90 making it easier for the OSLTF to be drawn from 
        for preventative measures, not just spill response. Such funds 
        could be used to help station salvage tugs in high-risk, remote 
        places such as Unimak Pass and Neah Bay. Other potential uses 
        of the Fund could be for improved vessel tracking technology or 
        additional aids to navigation. Tribal governments should be 
        able to draw from the Fund as the EPA and Coast Guard do.

        4. Have the Coast Guard either include towing capability in 
        their new deepwater fleet or get the Navy to provide their T-
        ATF Powhatan class tugs to the Coast Guard to improve our 
        Nation's salvage posture and their deepwater capability.

        5. Conduct review of towboat lanes in Strait of Juan de Fuca 
        and 142incidents of tugs with tows passing through the ATBA in 
        2004.

        6. Provide Congressional oversight on the status of the Coast 
        Guard's Salvage and Firefighting rule assuring that it is 
        adequate and completed this year.

        7. Have the NAS conduct an evaluation of the Coast Guard's 
        Coast benefit analysis methodology. They use factors such as 
        cost per barrel not spilled for prevention studies and cost per 
        barrel recovered for response studies, but neither of these 
        analyses includes the cost to the marine environment and 
        economy when a spill does occur. These selective studies appear 
        to frustrate the goals of NEPA.

        8. Conduct a no-notice, equipment deployment drill in the 
        Olympic Coast National Marine Sanctuary to evaluate our level 
        of readiness off the coast.

        9. Provide federal funds for year round Neah Bay Rescue tug for 
        first 70 miles of Juan de Fuca Strait lack tanker size limits, 
        speed limits, and tug escorts while being exposed to 
        increasingly high volumes of traffic from Canada and the US.

        10. Review impact of consolidation of oil spill response 
        organizations on readiness.

        11. Amend OPA 90 increasing liability caps on tankers and 
        freighters.

    In closing, the late Senator Magnuson oversaw the great transition 
from when Washington State received its crude oil primarily from 
Canadian pipelines to U.S. tankers. This change in risk to our waters 
required proactive leadership that enabled us to maintain a relatively 
good oil spill record to this date. For example, Senator Magnuson made 
it clear that he wanted to limit the size and amount of tankers 
transiting through the San Juan Islands and passed several laws 
fulfilling his vision. The one constant in the maritime world is 
change, and we need constant vigilance to keep up with these changes. 
We appreciate Senator Cantwell's proactive efforts and look forward to 
working with her office and this Committee on these matters in the 
future.
    Thank you for the opportunity to present these issues before you, 
and I would be happy to answer any questions.

    Senator Cantwell. Thank you, Mr. Felleman, for your 
testimony, and to all the panelists, thank you for being here 
this morning and giving us input for the record. As I said with 
the other panel, any questions or comments or additional things 
that come up as part of your testimony, you have 2 weeks to 
submit to the record.
    Captain Boothe, I know you might be leaving. I hate to put 
you on the spot, but I was wondering if you could come up for a 
couple of questions--you can sit right there next to Mr. Sones. 
If you can manage. Thank you.
    Captain Boothe. We'll see. I don't think this is on.
    Senator Cantwell. Is there a button there? Maybe you have 
to move to a different spot.
    Captain Boothe. Looks like it's on now.
    Senator Cantwell. OK. In Mr. Sones' testimony he was 
talking about this issue of chemical dispersants versus 
equipment. Could you comment on that, and where you think we 
are and do we have the right equipment, or are we using these 
dispersants in ways that we shouldn't be? Are we measuring 
their environmental impact?
    Captain Boothe. Senator, I think from a response 
perspective, and I've been in the business for quite a while, 
certainly not as a responder like Mr. Wright and his 
organization, but I think as a Coast Guard marine safety 
professional, I never want to be in a position where I don't 
have all the tools in my tool bag. And right now dispersants 
have been in debate between the science and biologists for a 
long, long time. I think from a Coast Guard perspective we 
believe dispersants are a necessary part of the inventory of 
response capability.
    For high-energy environments, dispersants can be effective 
in protecting sensitive ecosystems, wetlands, etc., off the 
coast. And we know that we have very limited mechanical 
recovery capability. I think some, I don't know what the exact 
figures are, but somewhere between 10 and 20 percent of oil 
spilled on the water is going to be able to be recovered by 
mechanical means. So to the degree that dispersants might keep 
that oil from getting on the beach and from affecting the 
sensitive ecosystem on that side of things, it might be better.
    It's always a trade-off. You're going to either potentially 
affect waterfowl and marine mammals, or you're going to affect 
the fish and crabs, or et cetera, that might live on the 
bottom.
    Senator Cantwell. So you're in the process, right, in 
continuing on this rule that's required by OPA to determine 
what vessel equipment requirements would be?
    Captain Boothe. Right.
    Senator Cantwell. And, Mr. Sones, you have some concerns 
that they're over-focusing on dispersants; is that the case?
    Mr. Sones. No, I think our position has been that, you 
know, we want all the tools in the toolbox, and because of the 
conditions of the Pacific Ocean, there are a lot of variables 
that we deal with out there. Sometimes mechanical equipment 
will work very efficiently if the weather conditions allow. So 
where our concern has been is using certain tools in lieu of 
other tools.
    Senator Cantwell. What would you like to see in the Coast 
Guard's rule?
    Mr. Sones. I think we would like to see all of those 
resources being able to be utilized depending on the conditions 
and the effectiveness of those particular tools. There are 
still questions I guess that we don't have enough information 
about, is, what does happen to the oil, how does it affect the 
other resources when a dispersant is used, it's breaking down 
the oil and just moving it to the ocean floor rather than on 
the surface. So we're interested in seeing more research and 
really what the effects of using dispersants, and how the long-
term impacts of that tool might affect our resources on the 
ocean.
    And we may find that just simply letting it come ashore 
might have less impacts. We don't know. So we want to look at 
all of the opportunities, tools available to us, but not use 
one over another I guess would be our biggest concern.
    Captain Boothe. Senator, might I offer one other point? 
Related to the rulemaking that's underway, the adjusted caps 
for, or the issue of adjusting mechanical recovery and removal 
caps will not be impacted by the decision to require plan 
holders to actually have a response plan that includes a 
dispersing capability. They are not trading off. Usually 
we're----
    Senator Cantwell. I think it's more that Mr. Sones is 
worried that you're going to lessen the requirement on 
equipment.
    Captain Boothe. No, the point I'm trying to make, Senator, 
is that it will not. We do not allow a substitution or credit 
for dispersants for mechanical recovery equipment because they 
actually operate at opposite ends. If the conditions are ripe 
for mechanical recovery, dispersants won't work. And where 
dispersants are intended to be used, mechanical recovery 
typically will not work.
    Senator Cantwell. When are we expected to have the final 
rule?
    Captain Boothe. That particular rulemaking I believe has 
now been placed back on the fast track and hopefully will be 
completed by the winter of 2006, Senator.
    Senator Cantwell. Thank you. And to Mr. Felleman's point 
about cranes and ability to remove ships and the Coast Guard is 
the Deepwater Program, since we're reviewing the Deepwater 
Program right now since the Committee just passed out 
authorizing language, and since the Deepwater Program is going 
to be a huge investment by taxpayers in the Coast Guard 
capability, is there a point here about the ability to remove 
vessels?
    Captain Boothe. Well, all of our assets, Senator, are 
multi-mission assets, whether or not we have the same 
capability as a salvage tug is clearly no question. We do not. 
We don't, our cutters aren't designed for that purpose. 
Typically if we're going to impose a requirement for marine 
salvage and firefighting, we would look for that to be 
established through regulation and impose upon the industry to 
provide a separate mechanism other than the Coast Guard cutter 
fleet to do that.
    However, the Coast Guard is Semper Paratus, we're going to 
respond to all search and rescue cases, and we will tow where 
we have that capability.
    Senator Cantwell. Mr. Felleman, it sounds like the Coast 
Guard is saying they want to have a good public/private sector 
partnership on salvage.
    Mr. Felleman. And if they implemented the salvage and 
firefighting rule, that's possible, but this has been in 
development since OPA 90, so the question is, what's the status 
of that rule and will it be robust enough to really require the 
industry to invest in the salvage capability necessary to 
protect this Nation's burgeoning shorelines. You know, Pacific 
Rim trade has eclipsed that with the East Coast, so we are on 
the forefront of, you know, a growth of doubling and tripling 
of trade volume, and the question is whether we're going to 
have salvage capability to match that.
    Captain Boothe. Well, I hope we do, Senator. Obviously the 
rule is still in progress and I think part of the problem or 
part of the suspension associated with that was an impact 
registered that it might have on the small business side of the 
house. We pulled it back for reconsideration, making sure we 
had all of those things addressed in the environmental and 
economic assessment, and unfortunately the Maritime 
Transportation Security Act requirements kind of overwhelmed 
the Coast Guard's regulatory processes, and everything was kind 
of shelved to enable us to address those rulemakings.
    Now we're back on focus, hopefully we can address this 
within the next year, Senator.
    Senator Cantwell. What do you mean the impact on small 
business, in terms of the Coast Guard being a competitor?
    Captain Boothe. In terms of, yes, ma'am, in terms of being 
able to provide some of those services as well.
    Senator Cantwell. Well----
    Captain Boothe. Salvage businesses.
    Senator Cantwell. No, I understand, but I mean our efforts 
in Iraq have not stopped us from using contractors; right?
    Captain Boothe. No, ma'am.
    Senator Cantwell. So why not do the same? I mean why not 
have everything, why not have a salvage rule that basically 
gives the ability to do salvage whether you use a ship in the 
Deepwater Program or a contract? Is that not possible?
    Captain Boothe. Yes, ma'am, I believe so.
    Senator Cantwell. OK. So how would it have an impact on 
small business? If, yes, we've built 10 ships from the 
Deepwater fleet to do salvage only, yes, I get that point. I 
just want to make sure that the Coast Guard, in its oversight 
for salvage, has the authority now to use your existing vessels 
or contract with the private sector?
    Captain Boothe. Yes, ma'am, we do.
    Senator Cantwell. OK.
    Captain Boothe. And we do contract with salvors using the 
Oil Spill Liability Trust Fund in many cases. And if I might 
have a little bit of license here, Senator Cantwell, the Coast 
Guard response to the Dalco Passage spill in no way was delayed 
because of concern of funding. We spent over $2 million 
cleaning up the oil from the Dalco Passage spill and we used 
the Oil Spill Liability Trust Fund to do that. It had nothing 
to do with our hesitancy to access the fund to be able to 
respond.
    As I mentioned, we respond to mystery spills hundreds of 
times a year and we access the fund more in Puget Sound 
probably than any other ports in the nation.
    Senator Cantwell. I don't want to speak for Mr. Felleman, 
but I think his, the point, is that a healthy fund makes 
everybody be aggressive.
    Captain Boothe. Yes.
    Senator Cantwell. And so, and we certainly have taken part 
of that step last Friday, and hopefully the President will sign 
that legislation.
    But let me turn to Mr. Holmes. As you know, with the 
passage of this legislation we're back on track, so to speak. 
Do you worry about the liability caps? Do you think that we 
should look at that issue?
    Mr. Holmes. Well, again, Western States Petroleum 
Association really focuses on the local and State issues, and 
that would be handled through our sister organization API, 
American Petroleum Institute. But I know that they supported 
the continuation of the trust fund. I think there were concerns 
about raising the cap and felt that the $1 billion would be an 
adequate amount. And also, we would have liked to have seen 
some auditing provisions added into the provisions which were 
not. But----
    Senator Cantwell. So you don't support or oppose changes to 
the liability caps?
    Mr. Holmes. No, I'm not ready to comment on that.
    Senator Cantwell. OK. And what about this issue off the 
coast in the marine sanctuary area where there were 142 tugs 
with oil barges that, as Mr. Felleman stated--I liked his way 
of describing that, ships are going outbound in the inbound 
lanes.
    So in the area to be avoided, it seems like there are a 
certain number of vessels there that we don't have very good 
compliance rates for. What do you think is occurring there, and 
what should we do about that?
    Mr. Holmes. Well, I'm a member of the Advisory Council for 
the Olympic Coast National Marine Sanctuary as an alternate, 
and the sanctuary staff presented a presentation I believe 
three meetings ago regarding that topic. And my recollection of 
the presentation that the sanctuary staff made was that there 
was very good compliance, similar to the numbers that the past 
panel quoted which was 98 percent or something like that 
overall.
    So from, my understanding from the overall program, it's 
very successful, and the staff was very careful to say that 
they didn't really have all the answers where there were tracks 
going through the system, and the staff was very careful not to 
make any conclusions on that and required further research to 
get the proper answers. But I know from our members' 
perspective, they're making every effort to comply.
    Senator Cantwell. If you'll look at the sheet and document 
that I was given, it looks like the overall numbers for vessels 
are pretty good.
    You know, oil tankers have a 99.8 percent compliance rate, 
but then you look at some of the other categories--tank barges 
with oil, 75 percent compliance; chemical barges, 43 percent. 
So I don't know if it's a communication issue or whether we 
have people taking a different path or there's a different 
economic issue there.
    Mr. Holmes. Right, and again I don't want to speak for the 
Olympic Coast National Marine Sanctuary staff, but my 
understanding is that there were some questions that needed to 
be researched on that line item, tug and barges, to see whether 
they were loaded or not.
    Senator Cantwell. Well, whether they were loaded or not 
wouldn't really matter, though; right? You'd want them to stay 
out of that area?
    Mr. Holmes. If they're empty they can pass through there 
with no problem. This is to protect the sensitive areas within 
the Olympic Coast National Marine Sanctuary from the threat to 
sensitive areas for spill. And if there's an empty tank going 
through there that's not a threat and I believe that's allowed.
    Senator Cantwell. So you think that 43 percent isn't an 
accurate statistic because----
    Mr. Holmes. I don't know, I just know that I saw a 
presentation by the sanctuary staff saying that there's more 
research needed to answer that question.
    Senator Cantwell. OK.
    Captain Boothe. Senator, I think Mr. Felleman's comment in 
his statement was accurate. We ought to be able to at some 
point be able to ascertain which direction they were going and 
whether they were laden or not, and then address that with the 
particular companies involved if indeed we find that they were 
laden because, I think, as Mr. Holmes has pointed out, the 
Western States Petroleum Association has agreed with the ATBA 
in concept and in practice, and they endorse it completely and 
expect their member companies to comply. And so I know when I 
was Captain of the Port here I would co-sign letters with the 
sanctuary manager to all those companies, saying, ``Hey, we 
can't really tell from the data that we have because we don't 
have, VTS does not have radar coverage off the coast there 
typically, so we can't really tell which way you were going and 
whether you were laden or unladen, but if you were laden, here 
are what the ATBA rules are all about and we would expect and 
ask for your voluntary compliance.
    Mr. Felleman. Senator Cantwell, I just ask that you keep in 
mind that because we have 10,000 transits going on our waters, 
when people present to you statistics in percents that you 
recognize that even a small percent is a lot of transits, and 
it only takes one laden barge to really wreck your decade.
    Senator Cantwell. Thank you. I think we will work with the 
organization to try to further shed light on these statistics, 
and it may be that as we attack the problem, as Doctor Leschine 
was saying, going from the highest incidence before to now 
developing a system, that it continues to need development.
    One of those issues, Mr. Wright, is the commissioning of 
fishing vessels to assist in response. I know that the 
Department of Ecology found that maybe there may be 
insufficient vessel capacity to respond to spills. So do you 
agree with that?
    Mr. Wright. Well, the study was commissioned by the 
Department of Ecology, Senator, just came out mid last week. I 
actually have it in front of me because I've been studying it 
since it came out, and of course it's a very direct effect on 
us. MSRC has a fishing vessel program which is not as robust as 
it once was, and we were in the process long before this study 
was even commissioned of breathing life back into that program.
    And additionally, we don't want to limit ourselves to 
fishing vessels because there are other vessels of opportunity 
in our waterways that could be very helpful and we are looking 
at them as well, such as tugboats, or work boats, or small 
dredges, those kinds of things that folks are more, more likely 
to be around than the fishing vessels which are quite nomadic 
in their, by their very nature, and their crews being even more 
nomadic than the vessels themselves.
    Additionally, one thing that was overlooked in that study 
was that we have a Memorandum of Understanding that I mentioned 
in my testimony, with Burrard Clean Operations which brings 
significant resources to bear if we have a major spill, 
especially the one that was envisioned in the study which is a 
10,000 barrel spill in Rosario Strait. So those things put 
together really, I think we could benefit from it. There are a 
lot of good points made in the study, the study was very well 
done, and we are taking it right to heart.
    Senator Cantwell. So you would say then, in general, let's 
look at a program for getting assistance from other vessels?
    Mr. Wright. Yes, ma'am. In any kind of a large response 
there's always going to be a ``more is better'' look at things. 
Can we get geographic response plans in place quicker? Can we 
tend those that are in place better? And this is all the kinds 
of things that we're looking at right now.
    When you get into actual contact with the oil, the cost of 
doing business rises dramatically because of the training 
requirements that are in place through the, through OSHA and 
through the Washington equivalent. So keeping people trained to 
be in the oil is a really difficult process, and it's something 
that we've done in the past and are looking into doing again.
    However, to train people to be at the fringes when they're 
not likely to be in the oil is a lot easier.
    Senator Cantwell. Do we need additional research on cleanup 
technology?
    Mr. Wright. The cleanup technology itself really hasn't 
changed dramatically over the years. I think earlier on we 
heard testimony that remote sensing is something that might be 
advantageous to look at considerably more closely. It's very 
difficult to find oil on the water. The vision of putting a 
whole drum of oil in a bathtub is not what it looks like when 
you're out there on the water. It spreads out very quickly, it 
gets into stringers, it becomes very difficult to see from the 
water. So normally we spot it from the air as best we can. Of 
course at night that becomes problematic.
    So, we heard Captain Boothe talk about the infrared 
technology capabilities of the Coast Guard and of the King 
County Sheriff's Office. Also, there has been some considerable 
research done by the Canadians by Transport Canada and the 
Canadian Coast Guard into the use of lasers as detection 
devices. So these are the kinds of research things that could 
bear very big benefits.
    Finding the oil, especially at night, is the key. If you're 
going to pick it up, very obviously you have to find it first.
    Senator Cantwell. And so you would say if there are 
improvements such as lasers and other solutions, we should look 
at these, but otherwise you think no more research is needed?
    Mr. Wright. Well, I would never, I would never say that 
there shouldn't be more research in all the areas. There may be 
a breakthrough out there that's possible in mechanical pickup, 
but as I say, folks have been looking at this for quite some 
time and there just, there haven't been many breakthroughs. 
Certainly there should be a segment of the research community 
looking at these kinds of things. And we will work with them as 
we do with everyone else in partnership, and of course in the 
State of Washington partnerships are the name of the game with 
the response industry, with the oil industry, and with the 
State and Federal Government.
    Senator Cantwell. Doctor Leschine, you talked a lot about 
partnerships. Do you think that this new Citizen's Advisory 
Committee will solve some of the issues you raised?
    Dr. Leschine. It's hard to read legislation and know 
exactly what it will mean in practice, but it, I did read the 
legislation and it seems like the ingredients are there. A 
couple of things that I see that are there very positive are, 
first of all, very broad participation by a large group of 
people, both from the industry technical side and the 
environmental community.
    I also see something in the way of marching orders, in 
other words, we're not just meeting to have an open, free-form 
ongoing dialogue, but we really have a serious charge I believe 
every two or 3 years to kind of revisit the oil spill safety 
question. I think when I was a Pilotage Commissioner one of the 
things I learned is the situation changes more rapidly than you 
might think. You know, you get a different kind of vessel 
showing up all of a sudden because there's a new kind of trade 
or you have a different kind of, you know, jet skis, a whole 
new idea, a group of people with a whole new sense of 
themselves and what they're doing out on the water. And things 
like that can happen overnight.
    So I see the ingredients in place to all that. I guess 
where I might ask a question--which is not the same as 
criticism--is whether the resource provision through time will 
be adequate. I think the state has tended to fund things 
initially and then the gases kind of run out of the balloon. 
This has certainly happened to the Office of Marine Safety. 
We've tried to use barrel taxes and things like that, and the 
legislature seems to sort of lose its incentive to keep those 
kinds of funds going.
    So, you know, I suppose, I've heard around the fringes of 
the discussion over this Oil Spill Advisory Committee whether 
some kind of Federal funding, or more guaranteed funding, and 
the state might be willing to provide would in fact be 
necessary to make this a full equivalent to the, to Prince 
William Sound's model. Which I believe is funded directly by 
the Congress, because at least it got an initial appropriation 
through OPA 90, and I think they're being, continuing 
appropriations since then. So if you don't have the resources, 
then you don't have----
    Senator Cantwell. Yes, I think the Prince William Sound 
Advisory Group gets money from the Trust Fund.
    Mr. Holmes. May I correct you? The Prince William Sound 
RCAC is funded through Alyeska.
    Mr. Felleman. It was actually set up before OPA passed. 
It's a model that was, that happened before. Any future RCAC's 
are to be funded through the trust fund. This one was set up 
beforehand.
    Senator Cantwell. Committee staff is telling me that it's 
taken out of the Fund--is authorized by OPA, and the last time 
Committee staff told me something about this in the Committee, 
they proved to be right and that's how we got to reauthorizing 
the Trust Fund. But we'll get to the bottom of how the money 
flows because it is important and we certainly want the 
resources to be there and we should look at this question, how 
the advisory committees are set up, what resources they have, 
and what role they play.
    The state issue, Mr. Felleman, did you want to add any 
comments? You mentioned something about the first 70 miles 
and----
    Mr. Felleman. Right. The gaps that I've identified after 
looking at this issue for many years has been in our inability 
to provide the adequate protection for the Olympic coast in 
particular, open ocean skimming is a challenge, and I would 
suggest if there's R&D money to be spent, my colleagues in 
Alaska have a design that they would like to see be put to a 
tank test that's basically using a trimaran type vessel. 
Instead of using the boom that has all the problems of 
deployment, you have the rigid hulls of a vessel, you create a 
very wide swathe that can move through an oil spill in large 
sea states because the vessel has much better stability than 
most of the smaller type skimmers than we have. And this would 
actually, the vessel's hull itself would be able to be used to 
skim. This is something that I think in order to have the full 
toolkit as the Makah spoke to, we need to have ocean capable 
skimming. That's one.
    But for the entrance to the Strait of Juan de Fuca, one of 
the problems that I believe is that the Coast Guard's 
demarcation line for where the ocean starts in our state, they 
consider up to Port Angeles open ocean. The Coast Guard has a 
line of demarcation, the Captain of the Port line says 
basically that the open ocean begins in Port Angeles. So the 
first 70 miles of the Strait of Juan de Fuca is treated as open 
ocean environment.
    And so all the protective measures that Senator Magnuson 
and others have put into place, the tanker size limits, the 
speed limits, the pilotage, the tug escort requirement, none of 
that begins until vessels clear Port Angeles.
    So I really believe that our maximum risk is going to be 
through the entrance to the Strait to Port Angeles because 
that's where all the wonderful things that we do in this state 
are not present. And so, tugs of opportunity were introduced to 
address this problem in part, but the fact of the matter is the 
majority of the tug trade, the tugs with availability are in 
the Sound where they're moving back and forth. Tugs that are 
going out the Strait of Juan de Fuca are typically encumbered 
with a laden oil barge, they're doing business.
    So we don't have a lot of loose tugs hanging around in the 
Strait of Juan de Fuca. And so keeping a year-round rescue tug 
in Neah Bay is part of the solution, but it doesn't address the 
questions of pilotage or speed limits or size limits and many 
other things that are still a gap in our safety net. So I 
really see that that's where some additional specific attention 
needs to be drawn.
    Senator Cantwell. Well, I want to thank you all for 
testifying today and for your input, and again, the record 
stays open for 2 weeks for you to give additional comments and 
testimony or submit information that was brought up in some of 
the Q and A. I think we have a tour that we're going to go on 
that we were scheduled to start about 5 minutes ago, so unless 
there are any other comments from panelists, again I want to 
thank everyone here for not just your testimony today but for 
your hard work as a community in addressing the security and 
safety of Washington waters.
    On the one hand we can say that we may well be the model, 
given our unique geography and pristine area and incredible 
trade and traffic. At the same time I think the challenges 
continue. So thank you for stepping up to them and thank you 
for today's testimony, and we'll look forward to keeping you 
abreast of the Subcommittee's work and potential legislation. 
So this Committee hearing is adjourned. Thank you.
    [Whereupon, at 12:20 p.m., the hearing was adjourned.]
                            A P P E N D I X

                 State of Washington, Department of Ecology
                                       Olympia, WA, August 15, 2005
Hon. Maria Cantwell,
Ranking Member,
Senate Subcommittee on Fisheries and the Coast Guard,
Commerce, Science, and Transportation Committee,
Washington, DC.

Dear Senator Cantwell:

    Thank you for the opportunity to provide additional comments 
relating to your recent field hearing of the Subcommittee on Fisheries 
and the Coast Guard. At that hearing, you asked if I had any 
recommendations for changes to the Federal Oil Pollution Act of 1990 
(OPA 90). I've discussed this question with my staff at the Ecology Oil 
Spill Preparedness, Prevention and Response Program and our 
recommendations can be found in the attached document.
    Thank you again for co-sponsoring the portion of the recently 
passed energy bill that reauthorized the Oil Spill Liability Trust Fund 
(OSLTF). The OSLTF is critical for the rapid response and clean up of 
oil spills. This fund will now continue to enhance our ability to 
protect Washington's natural resources and economy.
    Washington State has an excellent working relationship with the 
Coast Guard. We work closely with them on all aspects of oil spill 
prevention, preparedness and response. However, as I mentioned in my 
testimony, we are concerned that Coast Guard homeland security 
activities are competing for resources with other important missions, 
including marine environmental protection.
    The Thirteenth District U.S. Coast Guard Sectors Seattle and 
Portland are doing an excellent job meeting this challenge within 
limited resources, but we believe there is an opportunity to enhance 
our partnership with the Coast Guard in some of these activities. A 
stronger partnership may require changes to the traditional and 
statutory responsibilities between the Coast Guard and the state. I 
hope that as you consider changes to OPA 90, that one possible outcome 
might be to make the OSLTF eligible for use on prevention and 
preparedness work at both the Federal and state level.
    Thank you again for your leadership. If you have further questions 
or if I can be of assistance on these issues, please contact me.
            Sincerely,
                                               Dale Jensen,
                                                   Program Manager,
                          Spill Prevention, Preparedness, and Response.
                                 ______
                                 
    Recommended Changes to OPA 90 and Federal Oil Spill Prevention, 
                 Preparedness, and Response Activities
State/Coast Guard Cooperation on Oil Spill Prevention, Preparedness, 
        and Response
    Congress recently reauthorized the Oil Spill Liability Trust Fund 
(OSLTF) to provide for continued funding of the account up to $3 
billion. The Coast Guard utilizes the OSLTF to reimburse for spill 
response costs, and these funds are of critical importance to the 
states.
    Since 2001, the Coast Guard has been faced with increased 
responsibility in critical homeland security activities. In our region, 
the Coast Guard has stepped up to these new challenges with exceptional 
professionalism even as it faces significant budget constraints.
    We are concerned that these new responsibilities and pressures on 
the Coast Guard will impact their activities in the area of oil spill 
prevention and response. Fortunately, the Thirteenth District U.S. 
Coast Guard's Sectors have done an outstanding job balancing these 
demands. However, we urge Congress to provide more resources to the 
Coast Guard commensurate with the increased demands that are placed on 
the agency through their many important missions.
    Washington and other states that have robust oil spill prevention, 
preparedness and response programs can relieve some of the pressure 
from the Coast Guard by picking-up more responsibility in the area of 
oil spill prevention, preparedness and response.
    Recommendation: The Coast Guard should continue work with states to 
develop cooperative oil spill prevention, preparedness and response 
programs. In Washington State, Ecology and the Coast Guard have 
developed protocols pursuant to a Memorandum of Understanding regarding 
oil spills which is an excellent example and foundation for such 
cooperative programs. Such programs can assist the Coast Guard by 
engaging states in oil spill prevention, preparedness, and response, 
while allowing the Coast Guard to continue to focus many of their 
resources on the homeland security mission.
    Under such cooperative programs, the OSLTF could be used to provide 
additional resources for oil spill prevention and preparedness 
activities, as well as continuing with the traditional spill response 
funding.
Olympic Coast National Marine Sanctuary, Area To Be Avoided (ATBA)
    The Olympic Coast National Marine Sanctuary is a federally 
protected area of Washington's northwest coast. A catastrophic 
discharge of oil or hazardous materials remains one of the greatest 
threats facing the Olympic Coast National Marine Sanctuary
    The 10-year-old Area to Be Avoided (ATBA) covers a large portion of 
the Sanctuary. The ATBA helps to protect the coast from the risk of 
vessel collisions, drift groundings, and powered groundings by 
providing additional time for assistance to arrive prior to a drifting 
vessel grounding along this rocky and environmentally sensitive coast. 
All ships and barges carrying cargos of petroleum or hazardous 
materials, and all ships 1,600 gross tons and above solely in transit 
are advised to avoid sailing through this area. The provisions of the 
ATBA are voluntary.
    Recommendation: Cargo vessels measuring less than 1,600 GT, tugs, 
and commercial fishing vessels (of 400 GT or more that are transiting 
the area and not engaged in fishing operations in the area) are not 
covered by the ATBA. These vessels can carry significant volumes of 
fuel. Should there be a major or catastrophic event, this fuel could be 
disastrous to the sensitive ecosystem of the Sanctuary. By extending 
the application of the ATBA to these vessels it would give rescue 
vessels more time to reach a stricken vessel. Also, the ATBA is 
voluntary. When a vessel violates the ATBA, the owner/operator is sent 
a letter explaining the purpose of the ATBA and asking that the vessel 
operator avoid the area in the future. We recommend that Congress give 
the Coast Guard and the Olympic Coast National Marine Sanctuary the 
authority to penalize repeat violators of the ATBA. The Coast Guard and 
Sanctuary should also be given sufficient resources to accomplish this 
task.
Pre-Booming During Fuel Transfers From Vessels
    On December 30, 2003, approximately 4,500 gallons of fuel oil was 
spilled into Puget Sound during a fuel transfer. Recent data provided 
to the Department of Ecology indicates that in a 6-month period, 4,700 
transfers were reported, which covers approximately 80 million barrels 
total (excluding refineries and Navy transfers). Of this total, 7.9 
million barrels are transfers between entities that aren't fully 
regulated. One practice to protect water resources in the event of a 
spill is to ``pre-boom'' oil transfers. This involves placing oil spill 
boom around a vessel prior to transferring fuel. In the event of a 
spill, the boom would prevent the spilled product from spreading.
    Recommendation: Currently the Coast Guard Captain of the Port has 
the authority to require pre-booming of transfer operations. The Coast 
Guard, in cooperation with the Department of Ecology, should identify 
certain high-risk transfers and require pre-booming of these 
operations.
Coast Guard Salvage Rule and Rescue Tug
    On May 10, 2002, the Coast Guard announced that it was seeking 
comments on the Notice of Proposed Rulemaking published in the Federal 
Register. The proposed rule would revise the salvage and firefighting 
requirements for tank ships and tank barges transporting oil in bulk as 
cargo. The revisions clarify the salvage and marine firefighting 
services that must be identified in a vessel response plan to ensure an 
effective response to an incident. The proposed rule would also 
establish specific response time requirements for those salvage and 
marine firefighting services. General requirements for salvage and 
firefighting services were first published in 1993 as part of the U.S. 
Coast Guard's tank vessel response plan regulations under the Oil 
Pollution Act of 1990. To date, the Coast Guard has not finalized these 
rules.
    Since 1998, Washington State has paid for the stationing of a 
rescue tug at Neah Bay. This pre-positioned tug is ideally situated to 
assist vessels transiting through the Straits of Juan de Fuca. The tug 
has also assisted vessels off the Washington coast. The tug is based in 
Neah Bay for a period of six to 9 months depending on the available 
funding. Winter storms present a higher risk of oil spills from the 
nearly 10,000 cargo ships and tanker transits traveling through the 
Strait each year. Fifteen billion gallons of oil are carried through 
the Strait each year via cargo and passenger vessels, oil barges, 
tankers and fishing vessels. Bad weather that is often experienced 
along the outer coast and in the western Strait presents an added risk 
to vessel traffic.
    Recommendation: The Coast Guard should complete the Federal salvage 
regulations. Once the regulation has been completed, we can evaluate 
the current capability of the Neah Bay rescue tug and other salvage 
requirements under the rule. Also, the state has consistently provided 
the bulk of the funding for the tug. This should also be a Federal 
responsibility, and the Federal Government should provide funding for a 
year-round rescue tug presence at Neah Bay. The U.S. Government should 
ask Canada and British Columbia to provide matching funds for tug 
operations since the tug provides assistance to all vessels transiting 
the Strait, including those bound for British Columbia ports.
Regulation of Tow Vessels
    Currently all tank vessels must meet various Coast Guard regulatory 
requirements for their operations. However, each year millions of 
gallons of petroleum products are carried on barges, Articulated Tank 
Barges (ATBs), and Integrated Tank Barges (ITBs). These vessels are all 
classified as towed barges and are less stringently regulated, even 
though some of the largest barges can carry as much product as a small 
tankship.
    Recommendation: OPA 90 should be amended to require the regulation 
of tugs towing oil barges, Articulated Tugs and Barges (ATBs), and 
Integrated Tugs and Barges (ITBs). Such regulations should be similar 
to the requirements for tank vessels.
State Damage Claim Models for Natural Resources Damages
    To meet the burden of proof for small damage claims the present OPA 
rules do not consider the use of state damage claim models for 
estimating natural resource damages. Although the D.C. OPA office has 
begun to consider Florida model cases and has offered to look at the 
Washington model, it would be useful to memorialize this in OPA to 
assure that all claims for damages receive compensation.
    Recommendation: OPA 90 should be amended to allow the use of the 
Washington State Compensation model as a method of establishing 
damages. The amendment could also allow the use of models developed by 
any other state that have a proven alternative way to establish 
damages. The amendment could consider standards of approval and 
conditions for use when the fund would accept alternative assessment 
procedures to compensate for damages that a state could not recover 
from a responsible party that didn't pay or could not be located.
                                 ______
                                 
                                     People for Puget Sound
                                        Seattle, WA, August 1, 2005
Hon. Maria Cantwell,
Ranking Member,
Senate Subcommittee on Fisheries and the Coast Guard,
Commerce, Science, and Transportation Committee,
Washington, DC.

Dear Senator Cantwell and Members of the Committee:

    Thank you for your interest in the pressing need to enhance the 
Federal Government's vigilance in preventing oil spills and for 
providing us with the opportunity to make recommendations for the 
Committee's consideration. People For Puget Sound, a citizens' 
organization striving to protect and restore the Sound, has long 
recognized the Sound's vulnerability to oil spills and has been 
actively involved in many policy deliberations on oil spill prevention 
and response.
    First, we would like to heartily thank Senator Cantwell for her 
hard work on the energy bill to reinstate the Oil Spill Liability Trust 
Fund, the tax that supports it, the cap increase to $3 billion, and 
fund's extension to 2014. This is hugely important to Puget Sound, and 
we greatly appreciate Senator Cantwell's efforts to be sure this issue 
was addressed in the bill.
    Despite years of effort, Puget Sound remains at an unacceptably 
high risk from oil spills. One major spill would destroy the Sound, and 
with it the enormous economic and cultural values Puget Sound provides 
to Washington State and the nation. The Sound is a fjord, with many 
narrow channels in which oil can slosh back and forth from beach to 
beach with the tides. Clean up of spills has historically been nearly 
impossible in Puget Sound primarily due to this convoluted geography. 
We desperately need help from the Federal Government to increase 
vigilance and prevent spills, as we simply cannot clean them up.
    Thank you for considering the following enhancements to the Federal 
role in preventing spills:

        1. Instruct the U.S. Coast Guard and other appropriate Federal 
        agencies to implement those sections and subsections of OPA 90 
        that have not yet been implemented.

        2. Fully fund a permanent, year-round, fully-equipped and 
        staffed rescue tug at Neah Bay and other high-risk areas in 
        Puget Sound, such as Haro Strait.

        3. Include tank vessels, raise the cap to $4 billion, remove 
        the sunset, and authorize the Oil Spill Liability Trust Fund to 
        be used for prevention programs.

        4. Require all fishing, cargo, passenger, and tank-ships and 
        barges to report casualties (as defined in the CFR), 
        malfunctioning propulsion, navigation, steering systems, and 
        other incapacities that threaten marine waters.

    Thank you again for the opportunity to provide these comments. We 
look forward to working with you and the Committee to provide better 
protection for Puget Sound and all of Washington's marine waters from 
the threat of oil spills.
        Sincerely,
                                              Naki Stevens,
                                              Director of Programs.
                                 ______
                                 
 Prepared Statement of the Prince William Regional Citizens' Advisory 
                           Council (PWSRCAC)
Introduction
    Thank you for the opportunity to provide written testimony for the 
field hearing held in Seattle on August 1, 2005.
    The Prince William Sound Regional Citizens' Advisory Council 
(PWSRCAC) is an independent non-profit corporation whose mission is to 
promote environmentally safe operation of the Valdez Marine Terminal 
and associated tankers. Our work is guided by the Oil Pollution Act of 
1990 (OPA 90) and our contract with Alyeska Pipeline Service Company. 
In language introduced by then-Senator Frank Murkowski, OPA 90 
designates citizens' advisory councils in Prince William Sound and Cook 
Inlet, Alaska, as ``Demonstration Programs.'' We believe that 
designation implies that, if successful, the Alaska councils could be 
replicated in other areas; however, that has never been done with the 
exception of the recent creation of a citizens' council by the 
Washington State Legislature. While Washington's council is similar to 
the Alaska councils in some respects, there are some significant 
differences such as the level of funding and the perceived independence 
of the councils. Therefore, we recommend that Congress replicate the 
OPA 90 councils in other areas of the country.
    Our core principle is that citizens must have a direct voice in 
ensuring the safety of oil transportation. Citizens have the most to 
lose when the system fails as it did in 1989 in Prince William Sound, 
and as it did last year and again earlier this year in Puget Sound. As 
memories of the Exxon spill fade, we provide the constant vigilance 
necessary to prevent a resurgence of the complacency that Congress 
identified in OPA 90 as one of the spill's causes.
    PWSRCAC's 18 member organizations are communities in the region 
affected by the 1989 Exxon Valdez oil spill, as well as commercial 
fishing, aquaculture, Native, recreation, tourism, and environmental 
groups.
    As we describe our group, we'd like to address a common 
misconception about us: That we are an environmental organization. 
That's not accurate. We are not an environmental organization, at least 
not in the sense of Greenpeace and the Sierra Club.
    Our board has 19 seats, only one of which is held by a traditional 
environmental organization. The others seats include:

  <bullet> two representatives for Alaska's tourism industry;

  <bullet> various cities, boroughs and unincorporated villages;

  <bullet> Alaska Native tribes;

  <bullet> Native-owned for-profit business corporations; and

  <bullet> commercial fishing organizations.

    In fact, one of our member organizations is the Alaska State 
Chamber of Commerce, which participates in PWSRCAC because of the 
damage suffered by the tourism industry in the Exxon Valdez spill. 
Indeed, the motives of most of these organizations for participating in 
PWSRCAC are not primarily environmental in character. Rather, those 
motives are economic and social, a reflection of the enormous damage 
that a catastrophic oil spill inflicts on the economy, people, and 
communities of the affected area.
Principles of Citizen Oversight
    Over our sixteen-plus years of existence, we've learned a lot about 
how to be effective in promoting safer oil transportation. The 
oversight we provide, like that adopted in the Washington legislation, 
is not regulatory in nature. It is purely advisory, buttressed by the 
scientific and technical research we commission. Following are some key 
points for effective citizen oversight:
Point One: Avoid Confrontation. Instead, Work Toward Partnership
    We've teamed up with many companies and agencies on many projects 
to improve safety in Prince William Sound. Our world-class tanker 
escort system is one example of industry, citizens, and regulators 
working together to achieve success. The iceberg-detection radar system 
now operating near the site of the Exxon Valdez grounding is another.
    But a meeting that took place recently in our Anchorage office is 
perhaps the most telling example of how we've learned to work closely 
with companies that many people would assume to be our natural 
adversaries.
    At that meeting, our staff sat down with Houston-based officials of 
a major oil company to plan a large-scale spill drill that will take 
place this fall in Prince William Sound. That oil company is giving our 
council a major role in the drill, perhaps a bigger and more tightly 
integrated role than we've had in any other company's drills.
    And the name of that oil company? Exxon Mobil. That's correct. The 
Prince William Sound Regional Citizens' Advisory Council is now working 
hand-in-hand with the company responsible for North America's largest 
oil spill to make sure nothing like it happens again.
    We believe that if citizens' councils are created in other areas of 
the country, they would be able to provide regulators, industry, and 
the public the same kind of advice, information, and support to promote 
the best prevention measures for their waters and that they could 
operate in a collaborative, non-adversarial, non-regulatory fashion 
that would be of great value to all stakeholders.
Point Two: Information Is the Most Valuable Thing We Can Provide
    We spend hundreds of thousands of dollars each year on scientific 
research and technical analysis to formulate and support the positions 
we take in our advice to industry and regulators. It's all very well to 
appear at a public hearing and say, ``We think the Sound should be 
protected.'' But we've learned that, to make a real difference, we must 
produce credible technical information on why a given protective 
measure is needed, and why the option we favor is better than the 
alternatives. This kind of scientific analysis is very expensive, so 
much so that we sometimes provide regulators with research they could 
not have commissioned on their own. That is why adequate funding is 
essential if a citizen oversight group is to make a meaningful 
contribution to preventing oil spills, and to ensuring a fast, 
effective response if prevention fails.
Point Three: Independence Is Vital
    We operate in a highly-charged atmosphere where investments of 
hundreds of millions of dollars ride on regulatory decisions. The 
industries involved have ready access to agency personnel and elected 
officials. We are under constant pressure to bend our views and advice 
to the prevailing political and regulatory winds. We are able to set 
our own course only because of our independence.
    That independence rests on two main pillars. One is the fact that 
our member entities choose their own representatives to our board.
    The other pillar is guaranteed funding. In our case, it comes from 
a contract with Alyeska Pipeline Service Company that will stay in 
effect as long as the trans-Alaska pipeline has oil in it. In this, we 
are different from regulatory agencies. Their budgets may be at risk 
because of cost-cutting by the government as a whole, or because the 
political winds, temporarily at least, blow against vigorous oversight.
Point Four: Judge Us By Our Effectiveness
    Since 1989, nothing remotely resembling the catastrophe of the 
Exxon Valdez has happened in Prince William Sound. Industry and 
regulators deserve much credit for this safety record, of course, but 
so does the PWSRCAC, as attested by the numerous kudos we've received 
from the industry and regulatory agencies we work with. The clearest 
example: We've twice received the Legacy Award from the British 
Columbia/Pacific States Oil Spill Task Force.
    What have we done to deserve the recognition we've received? Here's 
a partial list:

  <bullet> We helped perfect the contingency plans that govern spill 
        prevention and response in the Valdez trade.

  <bullet> We've introduced and helped develop Geographic Response 
        Strategies, similar to the Geographic Response Plans used in 
        Washington State.

  <bullet> We were instrumental in securing double-hull requirements in 
        Federal law, and in creating the world-class fleet of escort 
        tugs serving Prince William Sound.

  <bullet> We spearheaded and largely financed the project to obtain 
        ice-detection radar for Prince William Sound.

  <bullet> We conducted extensive research and published a 
        comprehensive community guidebook on dealing with the 
        socioeconomic impacts of oil spills.

  <bullet> We developed and promoted near-shore response plans.

  <bullet> We have conducted extensive research into the causes of and 
        cures for the problem of invasive species reaching Alaska in 
        tanker ballast water.

  <bullet> We have established procedures and relationships to provide 
        us with clear access to industry and regulators.

  <bullet> We have assisted in developing and training a fleet of 
        fishing vessels for oil-spill response.

  <bullet> We have a permanent drill monitor on staff to oversee drills 
        and recommend ways to improve response readiness.

  <bullet> We are a source of peer reviews for technical reports 
        utilized by regulatory agencies.

    Our final point in this list of lessons we've learned and things 
we've accomplished in Alaska has to do with the importance of longevity 
and continuity. Citizens stay in place and maintain vigilance as 
regulators and industry personnel come and go. The companies and 
agencies that we work with now include very few people who were around 
at the time of the Exxon Valdez spill. By contrast, virtually everyone 
on our board and our staff was in Alaska in 1989, and many were 
actually involved in some way with the spill or its aftermath. 
Consequently, it now often falls to PWSRCAC to provide the 
institutional memory needed to make sure the lessons of the Exxon 
Valdez figure into today's decisions.
Conclusion
    In closing, we would like to revisit history one final time. We had 
calls for a citizens' council in Prince William Sound long before 1989, 
but it took the Exxon Valdez to make it happen. Other areas of the 
country are now in somewhat the same position we were back then. We 
just hope that they are luckier and wiser than we were, and that it 
won't take a disaster to bring about citizen oversight in preventing 
oil spills.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                             Douglas Helton
    Question 1. In your testimony you mention that NOAA has identified 
the navigable approaches to Puget Sound as one of the critical areas in 
the national hydrographic survey backlog. When is the new survey for 
the Puget Sound region slated for completion? What is the schedule for 
completely updating these surveys nationally?
    Answer. The majority of work on the NOAA hydrographic survey 
project at the ``Northern Approaches to Puget Sound'' (internally known 
as OPR-N372-RA) was completed in 2004 and 2005. The remaining portion 
of the Puget Sound project (excluding the traffic separation zone) is 
scheduled for completion this fall (FY 2006) by the NOAA Survey Ship 
Rainier.
    The projected completion date for the ``original'' 43,000 nm \2\ of 
critical backlog is 2018. NOAA continues to track the Critical Area 
remaining on the original 43,000 nm \2\ identified as the critical 
backlog in 1994. However, because this category of critical survey 
miles is not static, NOAA no longer reports its performance against the 
43,000 nm \2\. As areas become more or less critical to survey for 
reasons such as changing navigation patterns, shifting vessel type and 
use, weather/natural incidents reconfiguring depths, resurvey needed, 
etc., NOAA has sought a better way to capture its performance and 
reflect the larger pool of national survey needs. NOAA now reports its 
hydrographic survey performance relative to all 537,000 navigationally 
significant square nautical miles. The newly updated NOAA Hydrographic 
Survey Priorities, which can be found at http://
nauticalcharts.noaa.gov/staff/NHSP.html, describes NOAA's priority 
categories and criteria.

    Question 2. The conversion of NOAA's nautical charts into digital 
format is an excellent example of the potential for new technology to 
enhance navigational safety. However, I understand that the completion 
of this conversion in not slated until 2010. Is this correct? What 
percentage of NOAA charts have currently been converted? How much is 
this effort expected to cost?
    Answer. Yes, completion of conversion of all U.S. and territorial 
waters charted by NOAA will occur by 2010. Approximately 50 percent of 
NOAA's nautical charts have been converted into digital format; 506 
Electronic Navigational Charts (ENC) are currently available for use. 
However, NOAA has completed 100 percent of its priority one charts, 
which include all major ports. NOAA is currently working to provide 
seamless coverage between ports. By 2007, when the U.S. Coast Guard is 
slated to promulgate electronic chart carriage regulations, NOAA will 
have 90 percent of its chart suite of U.S. commercial waters covered by 
ENCs. For the Puget Sound area, only two additional charts are needed 
in order to provide 100 percent coverage of that area.
    The Fiscal Year 2006 President's Budget Request includes an 
increase of $1.89M for Electronic Navigational Charts. At the total 
requested funding level of $6.19M for Fiscal Year 2006, NOAA will 
achieve complete Electronic Navigational Chart coverage by the end of 
Fiscal Year 2008.

    Question 3. Is there any promise of developing improved detection, 
response, and other technologies aimed at reducing the risk from oil 
spills, or is what we have now about the state-of-the-art? What is the 
status of NOAA's research program for such technologies? How much 
funding was requested for these activities in Fiscal Year 2006?
    Answer. NOAA, the U.S. Coast Guard, the Environmental Protection 
Agency (EPA), and the Minerals Management Service continue to conduct 
and support research to reduce the risk from oil spills. Improvements 
continue to be made in spill modeling and trajectory, as well as in 
alternative technologies such as dispersants and in situ burning. Also 
recent U.S. Coast Guard research and development efforts have been 
aimed at developing the capability to identify, detect, track, contain, 
and recover heavy oils on or below the surface, oil in extremely cold 
conditions and oils from submerge wrecks at extreme depths.
    One such mechanism is through the Coastal Response Research Center 
(CRRC), which is a partnership between NOAA and the University of New 
Hampshire. The goal of the CRRC is to reduce the consequences of spills 
and other hazards that threaten coastal environments and communities. 
The Center conducts research, develops new response and restoration 
methods, and transfers technology to practitioners. Some of the 
projects the CRRC has worked on include: (1) creating a modeling 
program that will provide the capability to simulate deepwater oil and 
gas spills; (2) developing an oil spill response cost-effectiveness 
analytical tool; and (3) updating fate and transport forecasting models 
of oil released through deep well blow-outs and pipeline failures.
    Efforts aimed at developing improved detection, response and other 
technologies aimed at reducing the risk from oil spills is spearheaded 
by the Office of Response and Restoration within the National Ocean 
Service. The Fiscal Year 2006 request for this office is $22.1 million, 
not including funds for the continuing clean-up of the Pribilof 
Islands.

    Question 4. Is the Interagency Coordinating Committee on Oil 
Pollution Research still an active, effective vehicle for guiding 
research efforts at the Federal level?
    Answer. While the Interagency Coordinating Committee on Oil 
Pollution Research (the Committee) continues to provide a forum for 
sharing the work of individual agencies, its level of activity has 
decreased in recent years. The Committee is charged with coordinating a 
comprehensive program of research, technology development, and 
demonstration among Federal agencies in cooperation with industry, 
universities, research institutions, state governments, and other 
countries. This responsibility includes preparation of an Oil Pollution 
Research and Technology Plan. The last plan was published in 1997 with 
revisions based recommendations made by the Marine Board of the 
National Research Council.
    The Committee had been active in coordinating international 
research and development (R&D) efforts. The Committee helped organize 
the first and second International R&D Fora on oil spill response 
issues, which were held in McLean, VA (1992) and London, UK (1995). In 
2002, a third international forum was held in Brest, France, and 
focused on High Density Oil Spill Response. The International Maritime 
Organization and the European Commission were the primary sponsors of 
these international meetings; NOAA was a meeting cosponsor.

    Question 5. You testified that if a vessel transits through the 
boundaries of the Olympic Coast National Marine Sanctuary and the IMO-
recognized Area To Be Avoided (ATBA), you have a system in place to 
contact such vessels to ensure that they are familiar with the 
guidelines in place. Why doesn't NOAA also know whether tank vessels 
engaged in such transits are carrying oil? Are oil-laden vessels in 
fact ``cutting-the-corner'' of the ATBA and entering into its 
boundaries, and if so, what can be done to end this practice?
    Answer. The Olympic Coast National Marine Sanctuary (OCNMS) ATBA 
Education and Monitoring Program has been greatly aided by the 
availability of radar data, and the cooperation of industry and the 
U.S. and Canadian Coast Guard. Since 2002, when the provisions of the 
ATBA were expanded to include all vessels over 1,600 gross tons, the 
highest priority of the program has been outreach to this new 
population of vessels. Many of these vessel classes, including 
containerships and oil tankers, have better than 99 percent compliance 
rates.
    The reported compliance rates for tank barges are lower and this 
segment of the industry has not, to date, been a target for our 
outreach efforts. Improving compliance rates for tank barges will be a 
priority for the program in 2006, and this effort will require a 
different approach than has been used with larger vessels. OCNMS and 
the U.S. Coast Guard (USCG) evaluate two factors before deciding 
whether or not to contact a vessel owner: (1) if the vessel entered the 
ATBA; and (2) size or cargo of the vessel (i.e. ships and barges 
carrying cargoes of oil or hazardous materials, and all ships 1,600 
gross tons).
    Tank barges regularly transit just outside of the ATBA boundary. 
Positional accuracy and frequency of fixes of the radar data makes it 
difficult to determine if they are violating the ATBA, or transiting 
just outside the boundary. Another challenge is the status of the 
barge's cargo. The data used does occasionally indicate if the oil 
barge is ``loaded'' or ``empty;'' however, in most cases it does not. 
Since this is a voluntary program, OCNMS and the USCG have taken a 
conservative approach of only sending letters to those vessels for 
which a violation is obvious. OCNMS plans to consult with the USCG and 
marine industry to identify an alternative approach to improving ATBA 
compliance within this segment of the industry. In addition, OCNMS 
hopes that improved access to vessel track data and Automatic 
Identification System (AIS) reports will help improve the accuracy of 
our monitoring program.

    Question 6. You also mention in your testimony that NOAA has been 
``participating in other initiatives reviewing additional measures to 
improve maritime and environmental safety in the region.'' What are 
some of the additional measures and initiatives?
    Answer. NOAA provides products and services that aide mariners in 
safe navigation through the waters, including:

  <bullet> Charting products that indicate shipping lanes, aids to 
        navigation, and shoals or other hazards to navigation.

  <bullet> Tidal current information and weather forecasts, all 
        essential information used by mariners to safely navigate their 
        vessels.

  <bullet> A Navigation Response Team is on hand 365 days a year to 
        perform emergency response surveys to locate potential 
        obstructions, at the request of the U.S. Coast Guard.

  <bullet> The Port of Tacoma is the location of one of twelve NOAA 
        Physical Oceanographic Real Time Systems (PORTS<SUP>'</SUP>) 
        established around the country. PORTS provide quality-
        controlled real time oceanographic and meteorological data.

  <bullet> NOAA computer modeling offers insight into the risks and 
        consequences of a spill in a particular location.

  <bullet> NOAA is an active member of the Harbor Safety Committee in 
        Puget Sound and the Ports and Waterway Committee in Portland. 
        These committees work to prioritize charting requirements.

  <bullet> Critical backlog survey--NOAA works with the United States 
        Power Squadron on the Committee to work on charting for the 
        West Coast.

  <bullet> NOAA is working with the U.S. Coast Guard, Washington State, 
        the Pilots Association, and others on access to vessel track 
        data.

  <bullet> Tsunamis--NOAA has a system of Deep-Ocean Assessment and 
        Reporting of Tsunamis (DART) buoys in place on the West Coast, 
        in addition to a mapping system for the coast and inland, which 
        facilitate the planning effort and emergency warning system.

  <bullet> NOAA's All-Hazards Weather Radios will begin to include all 
        types of hazards warnings, not just those that are weather-
        related.

  <bullet> NOAA is also active with the Region 10 Regional Response 
        Team, which works to coordinate efforts for responses to 
        significant oil and hazardous substance incidents and works 
        toward preparedness for such events.

    Question 7. You testified, and we've heard previous testimony in 
the Committee from others, that double-hull tankers are not a 
``panacea,'' in that even a double-hull tanker could be involved in a 
major spill were it to be involved in a collision. That being the case, 
won't navigational measures continue to be necessary? What are some 
additional steps that could be taken in this regard?
    Answer. Double hulls are a feature designed to reduce the potential 
for spillage from a low velocity grounding or collision. Because double 
hulls would not prevent a grounding or collision from occurring, 
navigational measures that aid in reduction and prevention of 
groundings and collisions will continue to be necessary.
    In addition to up-to-date surveys, accurate chart products, and 
real-time environmental information such as water level, currents, 
winds, etc., the best way to enhance navigation safety is to provide a 
reliable system of aids-to-navigation to assist mariners in determining 
their position and a safe course to steer, and to alert them to 
dangers. Additional precautionary steps that could be taken include: 
(1) implementing routing measures supported by Port Access Route 
Studies, (2) completing the modernization of the Federal Vessel Traffic 
Service (VTS) in the Puget Sound area, (3) establishing hydrological/
meteorological monitoring stations, and (4) placing additional current 
and weather environmental data buoys that will help with navigation and 
response to spills.

    Question 8. Are there other areas of the country that could benefit 
from some of the navigational and other prevention measures that are in 
place in the Washington area?
    Answer. All navigable waters of the country benefit from reliable 
aids to navigation. Additional routing measures and new or improved 
VTSs could provide additional benefits in some areas. However, they 
should only be implemented after a careful risk analysis and 
consultation with expert waterways users. All areas of the country 
would benefit from expanded implementation of the Automatic 
Identification System (AIS). Weather and environmental monitoring 
stations likewise provide added benefits wherever they are applied.
    NOAA's Physical Oceanographic Real Time System (PORTS<SUP>'</SUP>) 
is a cost shared partnership program that places water level stations, 
current meters, meteorological packs, salinity meters, air gap (bridge 
clearance) and other environmental sensors in locations identified in 
concert with the local user community that most benefit safe and 
efficient navigation.
                                 ______
                                 
   Response to Written Question Submitted by Hon. Maria Cantwell to 
                          Captain Myles Boothe
    Question 1. Captain Boothe, can you tell me how many tank vessels 
coming into Washington waters from the U.S. and overseas are still 
single-hull vessels or have only double-sides or double-bottoms? When 
will these ships be phased-out?
    Answer. The Coast Guard does not maintain statistics on the double/
single hull status of tankers entering Washington State's waters. All 
tankers operating in U.S. waters must be double-hulled by 2015. As a 
matter of domestic law (per the Oil Pollution Act of 1990 (OPA 90)) 
most single hull tank vessels will be phased out by 2010. The 
International Convention for the Prevention of Pollution from Ships 
(MARPOL) shares a similar scheme which assures that single-hull tankers 
that are subject to the Convention are phased-out not later than 2010. 
In some cases, MARPOL permits the extension of single-hull tanker 
phase-out dates if a Condition Assessment Scheme indicates the vessel 
is in a satisfactory condition for continued operation. Domestically, 
vessels equipped with a double-bottom or double-sides may operate 
beyond 2010 up until 2015 based upon a tiered phase-out schedule 
outlined in OPA 90.

    Question 2. How has Washington State law on the use of single-hull 
vessels affected the phaseout schedule?
    Answer. There is no data that indicates Washington State law has 
affected the phase-out schedule of single-hull tankers. However, the 
Revised Code of Washington, Section 88.16.190, may be influencing 
vessel owners to build propulsion and steering system redundancy into 
many of their new double-hull tankers constructed for the Puget Sound 
trade.

    Question 3. Can you tell me how many ships carrying oil--either as 
cargo or large ships carrying oil as fuel--simply transit through U.S. 
waters, including waters in the State of Washington, on their way to 
foreign ports? Does the U.S. impose any safety regulations on such 
ships? How many of these ships are single-hull tank vessels or have 
only double sides or double bottoms? To the extent that such ships 
include such tank vessels, when will they be phased out?
    Answer. The U.S. Coast Guard does not maintain statistics on the 
number of vessels that engage in innocent passage through U.S. waters 
bound for foreign ports without calling upon a U.S. port. Vessels 
engaging in innocent passage through U.S. waters are not required to 
comply with U.S. laws or regulations, however these vessels are 
expected to comply with international standards (applicable to the 
vessel), such as the International Convention for Safety of Life at Sea 
(SOLAS), MARPOL, etc.
    Vessels calling on U.S. ports are required to meet certain U.S. 
laws and regulations including the OPA 90 for tank vessels. OPA 90 
phases out single-hulled tank vessels based on a codified schedule. 
MARPOL shares a similar scheme which assures that most single-hull 
tankers that are subject to the Convention are phased out not later 
than 2010. In some cases, MARPOL permits the extension of single-hull 
tanker phaseout dates to 2015 if a Condition Assessment Scheme 
indicates the vessel is in a satisfactory condition for continued 
operation.

    Question 4. I understand that member countries of the International 
Maritime Organization (IMO) recently agreed to amendments that would 
apply more rigorous inspections to single-hull vessels, yet the U.S. is 
not intending to implement this requirement. Is that true, and if so, 
why is this the U.S. position?
    Answer. OPA 90 governs double-hull requirements for vessels 
operating in U.S. waters. In December 2003, the International Maritime 
Organization (IMO) amended Annex I to the International Convention for 
the Prevention of Pollution from Ships (MARPOL 73/78), modifying MARPOL 
Regulation 13G which includes a Condition Assessment Scheme (CAS). A 
CAS is an enhanced survey system which verifies the structural 
integrity of single hull tankers. If satisfactory, a CAS may be used to 
extend single hull tanker phaseout dates. Since CAS was included in 
[amended] Regulation 13G, it couldn't be adopted domestically, as the 
regulation would have required the United States to implement a single 
hull tanker phaseout schedule which is inconsistent with the existing 
schedule required by Congress through the OPA 90. Further, the Coast 
Guard already adopted and codified IMO's enhanced survey requirements 
in 1996 for single hull tankers. This regulation aligns with the SOLAS 
requirement to employ an Enhanced Survey Program (ESP) to assure 
structural integrity. Some of the more significant features of CAS will 
be incorporated into the ESP under SOLAS (which does not conflict with 
domestically mandated single hull tanker phaseout dates). These updates 
to the ESP will become effective on January 1, 2007.
    In addition to the above regimes, the Coast Guard has developed and 
implemented a voluntary CAS program. Currently, six vessels are seeking 
voluntary CAS compliance documentation through this program. Moreover, 
U.S. vessels transporting Alaskan North Slope Crude oil from Alaska 
also participate in the Coast Guard-led Critical Area Inspection 
Program to monitor structural integrity for vessels engaged in that 
trade.

    Question 5. When will the Coast Guard complete the upgrade of the 
Vessel Traffic System in Puget Sound, and what kind of changes do you 
expect will be made as part of this upgrade, particularly as they may 
relate to improving the safe transport of oil?
    Answer. The Coast Guard has completed upgrades of the Vessel 
Traffic Service (VTS) in Puget Sound. Under the Ports and Waterways 
Safety System acquisition project, the core VTS operating system and 13 
Automatic Identification System (AIS) base stations were installed. In 
addition, two radars were replaced with upgraded components.
    The notable improvement resulting from the upgrade is the 
introduction of AIS coverage. AIS allows for highly accurate tracking 
and identification of all commercial vessels greater than 65 feet in 
length. It also provides the VTS operator with information on a 
vessel's cargo so that additional attention may be paid to oil or 
hazardous material transports.

    Question 6. Is the Coast Guard actively considering the use of a 
traffic separation scheme or other navigational measures to lessen the 
risks of oil spills in other parts of the country?
    Answer. The Coast Guard is not currently considering the use of any 
new traffic separation schemes or other routing measures to 
specifically lessen the risk of oil spills in any other port or 
waterway. The Coast Guard has, in the past, established recommended 
routes to isolate tanker and hazardous material traffic from other 
vessels and thus reduce the risk of collision. As an example, these 
recommended routes are being used off the coast of California for 
vessels carrying certain types of cargo.

    Question 7. In a report to Congress dated May 12, 2005, the Coast 
Guard indicated that it is more likely to recover claims for an oil 
spill against a responsible party that has a Certificate of Financial 
Responsibility (COFR). However, only vessels greater than 300 gross 
tons have to have these certificates. Should this requirement be 
extended to smaller vessels, particularly smaller vessels that 
transport oil as cargo?
    Answer. The Coast Guard has not taken a position that the COFR 
requirement should be extended to small vessels (i.e., 300 gross tons 
or less). The vast majority of small vessel spills requiring a Federal 
response with OSLTF funding involve non-tank vessels, including some 
cargo and towing vessels, but primarily consisting of commercial 
fishing vessels and pleasure craft. The following are limited cost 
recovery statistics for non-COFR'd vessel spills in which the OSLTF was 
accessed.

------------------------------------------------------------------------
                                      Incident Costs
 Vessel Type   Number of Incidents      ($Million)     Percent Collected
------------------------------------------------------------------------
Fishing                       593                8.2                 29
 Vessel
Pleasure                      210                2.1                 18
 Craft
Cargo Vessel                  180                4.0                 32
Tug and                        44                1.0                 45
 Towboat
------------------------------------------------------------------------

    In enacting OPA, legislators intended that the Oil Spill Liability 
Trust Fund would in many cases be the ultimate insurer when liable 
polluters do not pay. Whether to expand the COFR requirements to all 
small vessels, or a class of small vessels, as a means of improving 
cost recovery for the Fund is in essence a reconsideration of how the 
cost risk should be shared between the public's fund and individuals. 
Any analysis in this regard would likely require data on the number of 
vessels affected, the availability and cost of insurance to meet new 
financial responsibility requirements, and the cost to administer the 
expanded program.

    Question 8. With respect to its ongoing rulemaking on improving 
response equipment, what has the Coast Guard done to evaluate the 
potential environmental impacts from use of dispersants or in situ 
burning of oil? Do uncertainties remain?
    Answer. Dispersants and in situ burning as oil spill response 
methods have been used for many years throughout the world and in the 
United States. Dispersant pre-approved zones and in situ burn policies 
have been established for all coastal areas of the United States except 
Oregon, Washington, and some areas of Alaska. A pre-approved zone is 
one in which the Federal On-Scene Coordinator can deploy dispersants 
(after employing a dispersant-use decision matrix) without seeking 
immediate approval from the environmental and natural resource trustees 
(Federal and state). These pre-approved zones have been developed by 
the Regional Response Teams (the Environmental Protection Agency (EPA), 
the Coast Guard, the Department of the Interior, and state and other 
Federal agencies). Many factors are considered in developing these 
zones, including the potential negative impacts of dispersant use. 
Between 1985 and 2005, the National Academy of Sciences published 5 
different studies on oil spills and the various methods to respond to 
them, including a separate report on dispersants (1989). The conclusion 
reached is that dispersed oil's short term negative impacts to near 
surface plankton is far less then the contamination of coastal habitats 
and natural resources. It should be noted that all dispersants used in 
the United States are tested (toxicity and performance) and approved 
for use by the EPA (National Product List), in accordance with National 
Contingency Plan regulations. EPA maintains a schedule of dispersants, 
known as the National Contingency Plan Product Schedule, that may be 
authorized for use on oil discharges by the Coast Guard On-Scene 
Coordinator with the concurrence of both the EPA representative to the 
Regional Response Team and the state with jurisdiction over the waters 
impacted.
    The Coast Guard views dispersants as a critical component to a 
successful oil spill response when mechanical recovery is limited in 
its ability to recover oil. Mechanical recovery has significant 
limitations when deployed in open water areas and is often times 
overwhelmed in large scale off shore oil spills. These limitations can 
have far reaching negative impacts on the environment. Dispersants, 
when used as per the regional pre-authorizations, can significantly 
reduce oil impacts on the near shore and shoreline environments.

    Question 9. Given the recent Washington Department of Ecology 
report which indicates a shortage of vessels for providing mechanical 
response equipment to the site of an oil spill, is the Coast Guard 
addressing this gap?
    Answer. The Washington Department of Ecology report indicates that 
the response system in Washington State could benefit from additional 
vessels of opportunity to augment existing response resources within 
the region.
    The Puget Sound area has more dedicated response vessels than any 
other region in the nation, and the oil spill response organizations' 
equipment caches exceed the Federal requirements for the region. The 
Federal requirements for response equipment do not include a specific 
requirement for vessels used to assist in deploying spill response 
equipment such as skimmers and boom. The source data used in the 
Washington State Department of Ecology report indicated that there were 
approximately 200 dedicated vessels of various types in the State of 
Washington. There are 74 dedicated oil skimming vessels in one oil 
spill response company alone. This past year the Coast Guard added 3 
oil skimmers to its Puget Sound inventory and completed modifications 
on two of these skimmers so that they may be used on Army Corps of 
Engineers or Coast Guard vessels as vessels of opportunity skimming 
systems (VOSS). Additionally, the Coast Guard has recently added one of 
its newest vessels, USCGC FIR, complete with a Spilled Oil Recover 
System, to the Port Angeles area.
    Mandating an increasing in the number and type of vessels capable 
and available for oil pollution response would require a change to the 
Federal requirements for oil spill response equipment. This effort 
would need to include a cost benefit analysis on a nationwide scale for 
justification.

    Question 10. The recent Washington Department of Ecology report 
suggested using commercial fishing vessels to augment the insufficient 
response vessel coverage. What would be involved in ensuring proper 
training and safety for fishing vessel responders? Would the Coast 
Guard be responsible for this new training?
    Answer. Proper safety and response training of any vessels, 
including fishing vessels, used as vessels of opportunity would be the 
responsibility of the oil spill response organization hiring the 
vessels.
    Under existing programs, such as those in Alaska (e.g., Ship Escort 
Response Vessel System (SERVS) for Prince William Sound and the Cook 
Inlet Spill Response Inc. (CISPRI) for Cook Inlet), each response 
organization funds their own training and develops their own 
curriculum. These training programs are not subject to U.S. Coast Guard 
requirements or standards. Review of the training and safety programs 
for both SERVS and CISPRI indicate that 24-hour and 8-hour Hazardous 
Waste Operations and Emergency Response training and fishing vessel 
safety training, as well as training in Incident Command System; 
Response Strategies and Tactics; and Wildlife Hazing, Capture and 
Stabilization are all part of the general curriculum for these 
``vessels of opportunity.'' This recurring training usually takes one 
week a year.

    Question 11. Please describe the status of all rulemakings required 
by OPA 90, including rules on drug and alcohol testing of crew and 
salvage, the issues that have caused delays in these rules, and when 
the Coast Guard plans to complete these rules.
    Answer. All but three of the forty regulations OPA 90 required have 
been issued. The remaining projects are not complete because of 
technical or jurisdictional complexity, as well as limited rulemaking 
resources. The three remaining OPA 90 rulemakings are:

  <bullet> Tank Vessel Response Plans for Hazardous Substances
  <bullet> Facility Response Plans for Hazardous Substances
  <bullet> Reporting Marine Casualties [that pose significant harm to 
        the environment]

    Regarding the drug and alcohol testing of crew, the current 
rulemaking is not considered an OPA 90 action The rulemaking stems from 
Public Law (Pub. L. 105-383) (46 U.S.C. 2303a) requiring alcohol tests 
to be done within 2 hours of a serious marine incident. The Notice of 
Proposed Rulemaking (NPRM) for this Public Law was published February 
28, 2003. The Final Rule has been prepared and is currently going 
through clearance.
    Regarding salvage and marine firefighting, the current rulemaking 
is not considered an OPA 90 action. In 1993, the Coast Guard complied 
with OPA 90 by publishing vessel response plan requirements that 
included salvage and marine firefighting elements. The current 
rulemaking builds on the existing requirements. The Coast Guard 
published an NPRM in 2002. Analysis of public comments is ongoing, with 
the goal of publishing a Final Rule in the future.
    Additionally, the Coast Guard recently initiated a rulemaking in 
the area of Vessel and Deepwater Port Limits of Liability--Adjustments 
to Reflect the Consumer Price Index. This action is needed to adjust 
the limits of liability for vessels and deepwater ports to reflect 
significant increases in the Consumer Price Index. A NPRM is under 
development, with a goal of publishing it in 2006.

    Question 12. How can we best confirm whether vessels transiting 
through the Area to Be Avoided off the coast of Washington are laden 
with oil? Is this a responsibility of the Coast Guard? Does the Coast 
Guard regularly access this area?
    Answer. Tank vessels and tank barges transiting near the Olympic 
Coast Sanctuary and its associated Area to be Avoided (ATBA) are 
required to carry an Automatic Identification System (AIS) transponder, 
and to report whether or not they are carrying hazardous cargo. In 
addition, all vessels are required to submit an advance notice of 
arrival to the Coast Guard that lists the cargo they are carrying.
    The Coast Guard VTS in Seattle, and the Canadian Coast Guard VTS in 
Tofino, British Columbia, continually monitor the ATBA to detect 
incursions. As such, it is extremely rare for a vessel laden with oil 
to enter the area. Compliance with the voluntary ATBA is better than 99 
percent. In the rare event that a commercial vessel does enter the 
area, its intentions are immediately questioned by one of the two 
vessel traffic services, regardless of its cargo. Because this remote, 
electronic vigilance has been successful, the Coast Guard does not 
conduct regular patrols in the area.

    Question 13. NOAA testified, and we've heard previous testimony in 
the Committee from others, that double-hull tankers are not a panacea, 
in that even a double-hull tanker could be involved in a major spill 
were it to be involved in a collision. That being the case, won't 
navigational measures continue to be necessary? What about measures to 
reduce human error? What are some additional steps that could be taken 
in both regards?
    Answer. Carefully selected navigation and human factors measures 
are effective in reducing the likelihood of accidents and will continue 
to be applicable. The key is to focus on the most effective measures 
which reduce overall risk. A number of such existing measures which 
improve vessel operator decision-making through increased situational 
awareness are described below. Likewise, technological advancements in 
shipboard navigation and safety equipment greatly improve the mariners' 
situational awareness and enhance their ability to prevent incidents 
from occurring.
    In addition to double-hull requirements, OPA 90 and its 
implementing regulations imposed some additional measures to further 
reduce the likelihood of tanker accidents, including the requirement 
for a second officer on the bridge while operating within U.S. waters, 
tug escorts for laden tankers in certain waters, and mandatory 
participation in VTS.
    Many other navigation and vessel traffic management measures have 
successfully been applied as well, including AIS, floating and fixed 
aids to navigation, Port Access Route Study, ship routing and Traffic 
Separation Scheme (TSS) modifications, safety zones, electronic charts, 
weather monitoring, pilotage requirements, and channel dredging and 
widening.
    The existing Port State Control program, coupled with the recent 
implementation of the Maritime Transportation Security Act regulations, 
increases Coast Guard situational awareness and provides opportunities 
for accident prevention. This includes verification of a vessel's 
compliance with the International Management Code for the Safe 
Operation of Ships and for Pollution Prevention and the International 
Convention on Standards of Training, Certification and Watchkeeping for 
Seafarers (STCW), the primary international tools for addressing human 
and organizational factors. The 1995 amendments to STCW required 
significant enhancements to the qualification and fitness of seafarers 
worldwide.
    Finally, the Puget Sound Harbor Safety Committee instituted a 
number of voluntary standards of care for vessels operating in Puget 
Sound, improving the overall safety of vessel operations within the 
Puget Sound region.
    The many measures described above serve to augment the reduction in 
risk provided by a double-hull design.

    Question 14. You testified that the Pacific Northwest has some of 
the strongest safety prevention elements in place, due to efforts 
unique to the region. What are some of these unique elements, and could 
they be applied in other parts of the country?
    Answer. Although not unique to Puget Sound, before any vessel 
greater than 1,600 gross tons enters U.S. waters, its crew is obligated 
to perform safety checks of propulsion and steering equipment, and 
report any deficiencies prior to entering port to help guard against a 
mechanical malfunction occurring close to U.S. shorelines or within 
maneuvering waters. In addition, tank vessels en route or departing the 
region are required to follow offshore routing schemes that hold them 
further off the coastlines of Washington and Vancouver Island, British 
Columbia. On the U.S. side, the IMO has recognized an ``Area To Be 
Avoided'' (ATBA) buffer zone extending 25 miles out from the Washington 
coast along the Olympic Coast National Marine Sanctuary, for all laden 
tank vessels and other vessels of 1,600 gross tons and above. 
Similarly, a 50-mile wide Tanker Exclusion Zone has been established 
off of the Canadian coast to route the Trans-Alaskan Pipeline tanker 
traffic further offshore to protect against groundings as a result of 
any potential disabling vessel conditions. Most deep draft freight 
vessels operating off the Washington coast comply with the Olympic 
Coast National Marine Sanctuary ATBA.
    The United States and Canadian jointly operated Cooperative Vessel 
Traffic Service (CVTS), and the International Maritime Organization-
adopted TSS, have been in effect within Puget Sound Waters for decades 
and serve to ensure an ordered and predictable traffic pattern for 
shipping in the region. All deep, draft vessels (all above 300 gross 
tons) are obligated to participate in the CVTS and follow the TSS 
according to the International Navigation Rules of the Road. The TSS 
establishes one-way traffic lanes, similar to an interstate highway, 
with a separation zone between the opposing lanes of marine traffic. 
The Cooperative Vessel Traffic Service tracks and directs all 
participating vessels transiting the region as necessary to ensure 
collisions and powered groundings will not occur.
    Extensive analysis and collaboration with Canada and tribal 
interests (complemented by the discussions and recommendations from a 
Long-term Risk Management Panel convened by the Governor of Washington 
State and the Secretary of Transportation) led to significant 
improvements to the TSS, which were implemented with international 
approval in 2004 (based on extensive analysis and collaboration with 
Canada and tribal interests). The most significant adjustments ensure 
greater separation for tankers while in transit throughout the system, 
particularly in more confined waters.
    The CVTS system is a model of bilateral cooperation and waterways 
safety management, ensuring the environmental protection and safety of 
our shared waters. Twice a year delegates from both the Coast Guard and 
Canadian Coast Guard meet to facilitate consultations between the 
United States and Canada on the effective implementation of the CVTS 
Agreement.
    Almost all oil laden tank vessels must also be under the escort of 
two tugs which are capable of stopping the vessel's movement within 
strict parameters. No vessel above 100 gross tons is permitted to meet 
a laden tanker transiting Rosario Strait, the typical route for tankers 
destined for Washington refineries. Typically, as tankers enter Rosario 
Strait, escort tugs actually tether themselves to the tanker for 
enhanced ability to positively control the tanker's movement if needed.
    Other programs, which are readily applicable to other parts of the 
country, include:
    Weather Sensors and Decision Aids: As a result of a special 
appropriation for Puget Sound pollution prevention enhancement, two 
sophisticated weather buoys and numerous other weather sensors and 
cameras have been installed throughout Puget Sound waters to enhance 
the mariners' and the Coast Guard's situational awareness in the 
region. In addition, a Rescue Tug Deployment Decision Making tool has 
been created to assist the Captain of the Port in objectively 
determining the need for the dispatch and pre-staging of stand-by tug 
capabilities to protect against adverse weather and potential disabled 
vessels combining to create an unacceptable risk for particular areas 
within the region. These measures all combine to facilitate both normal 
voyage planning and emergency response decisionmaking.
    Harbor Safety Committees: In addition to government safety and 
pollution prevention efforts, the Puget Sound and Columbia River 
region's maritime industries have established strong Harbor Safety 
Committees, with members from a broad spectrum of industry. These 
Committees have established Standards of Care, voluntary measures for 
operating practices and equipment testing that supplement the Federal 
and State standards. These additional measures have proven a valuable 
tool in quickly improving the maritime industry's performance, without 
the need to embark in regulatory changes.

    Question 15. You testified that in District 13, there are many more 
inspections of foreign flag vessels than in the rest of the country. 
Why is that?
    Answer. From the data provided in the Coast Guard's Port State 
Control Annual Reports, the National Average for examination percentage 
of foreign vessels, based on total ship arrivals, is 19 percent in 
2002, 19 percent in 2003, and 15.5 percent in 2004. Meanwhile, D13 
ports examined foreign vessels at higher rates; approximately 46 
percent in 2002, 32 percent in 2003 of the foreign vessels, and 38 
percent in 2004.
    The Coast Guard selects foreign vessels for PSC exams through the 
use of a targeting matrix that weighs risk factors involving the ship 
owner/operator, flag state, vessel classification societies, vessel 
type, and vessel compliance history. We use this targeting matrix to 
identify vessels that have the greatest risk of being substandard and 
to focus our port state control efforts on high-risk vessels.
    Collectively, Puget Sound and Portland zones receive a higher 
percentage of foreign bulk cargo carrier arrivals than other ports. 
Past data indicates that older bulk cargo vessels are more likely to be 
substandard than most other ports in the nation, and older bulk 
carriers receive more points during the targeting process than new bulk 
carriers or other freight ships. Approximately 35 percent of the 
foreign ships arriving at D13 ports are bulk carriers, compared with 18 
percent nationwide.
    Much of the cargo handled by ships visiting D13 ports are low-value 
commodities. Past data indicates that vessels that carry low-value 
commodities are more likely to be substandard and the targeting matrix 
typically focuses upon vessels carrying low-value commodities. For 
example, Portland is considered the second or third (by year) biggest 
grain exporter in the nation. D13 also sees a large number of first-
time vessels to the U.S. or vessels on their maiden voyages. The Coast 
Guard targets every vessel at its first arrival in the United States 
for examination. Vessel Security Boarding Teams in Sector Seattle AOR 
have received extensive training to conduct portions of Port State 
Control Exams--they know what to look for with respect to safety and 
environmental protection requirements; and if they note deficiencies, 
they will initiate a Port State Control Examination.

    Question 16. Please describe any ongoing joint efforts with the 
Canadian government on oil spill prevention and response efforts.
    Answer. The United States Coast Guard and the Canadian Coast Guard 
jointly operate the Cooperative Vessel Traffic Service (CVTS) and the 
International Maritime Organization adopted TSS. These cooperative 
services have been in place for decades, and have ensured an orderly 
and predictable traffic pattern for all vessels in the region. Within 
this framework, the two Coast Guards have continued to refine and 
improve the TSS by extending the initial entry point several miles 
further offshore, providing greater separation of opposing ship 
traffic, adding separation zones where none previously existed in some 
of the narrower waterways, including a special operating area to 
preclude meeting of large commercial vessels at a critical turn in the 
waterway. The CVTS and TSS operation, along with internationally 
recognized rules-of-the-road and standardized merchant mariner 
training, are responsible for the extremely low frequency of collisions 
and groundings in this very busy and confined waterway.
    Additionally on the prevention side, the Coast Guard works closely 
with our Transport Canada Marine Safety counterparts in executing our 
respective port state control programs. In the Thirteenth District, 
Captain of the Port/Officer in Charge, Marine Inspection Puget Sound 
had established a program of reciprocity for Port State Control 
examinations conducted by Transport Canada marine surveyors, thus 
maximizing the number of foreign vessel exams within the Puget Sound 
region.
    On the response side, the Coast Guard has ongoing and routine 
contact with our Canadian Coast Guard counterparts in implementing the 
Canada-United States Joint Marine Pollution Contingency Plan (JCP). 
This plan plays a critical role in preparing for, and responding to oil 
spills in the Puget Sound area. Using the CANUSPAC annex to the JCP, 
both the Canadian and U.S. Coast Guard work together as part of a Joint 
Response Team (JRT). The two Coast Guards exercise the plan at least 
annually, and typically have a concurrent response equipment deployment 
exercise to ensure we have the ability to move necessary equipment to 
either side of the international border in concert, and engage spilled 
oil at the earliest opportunity. On August 19, 2005, the Coast Guard 
conducted a meeting with the Canadian Government and the Makah tribe to 
finalize details on our upcoming joint-oil spill exercise scheduled to 
take place on October 27, 2005. The exercise will simulate a vessel 
sinking off the Washington coast with an oil discharge that threatens 
both Canadian shores and the Makah reservation. Exercise play will 
involve a command post being set up in Canada and on the Makah 
reservation, as well as an equipment deployment at Swiftsure Bank, off 
the British Columbia coast. There will also be a JRT meeting later in 
November or December.

    Question 17. Please describe any ongoing joint efforts with the 
tribal governments on oil spill prevention and response efforts.
    Answer. The tribes of the Pacific Northwest, as sovereign nations, 
are invited to be a part of the Regional Response Team/Northwest Area 
Committee (RRT/NWAC). They are routinely invited to participate in 
efforts to develop and maintain the Northwest Area Contingency Plan, 
the geographical annexes to the plan, and to all workgroup meetings of 
the RRT/NWAC. There has been limited success in having the region's 
tribes attend the RRT/NWAC meetings. There are approximately 27 
different tribal entities in the RRT/NWAC area. Accordingly, it is 
difficult to get them to participate collectively since there is no 
single tribal group or committee that represents them all. As a result, 
the CG works to include the appropriate tribes within the geographical 
area in which we are involved. For example, some of the tribes have 
participated in the Coast Guard sponsored Environmental Risk Assessment 
in the Cape Flattery area. This risk assessment is designed to help 
decisionmakers weigh various environmental trade-offs when applying 
different cleanup technologies to oil spills.
    Several of the coastal area tribes participated in a large 
Washington coastal area logistics exercise. This exercise brought 
together state, Federal, and tribal trustees and industry to look at 
the unique and difficult logistical challenges of responding to a spill 
on the Washington coast. This exercise identified issues requiring 
further attention through planning and equipment placement necessary to 
be able to conduct a successful cleanup operation in this rugged, 
sensitive coastal area. Most recently, the tribes have participated in 
the planning for the upcoming Joint Canadian-U.S. Oil Spill exercise 
and at a Public Affairs Workgroup meeting of the RRT/NWAC. The October 
2005 CAN/US exercise, will be an open water field training evolution 
and partial Command Post Exercise beyond the mouth of the Strait of 
Juan De Fuca. On the U.S. side, it will be based in Neah Bay on the 
Makah tribal land area. Tribal representatives will be working with the 
exercise committee to develop and participate in the exercise. 
Furthermore, individual tribes within the region have been part of the 
Unified Command stood up for response to pollution incidents within 
Puget Sound. A most recent example is the Wells Point spill of December 
2003.
    The Coast Guard is working concurrently with regional tribes and is 
in the process of establishing a Regulated Navigation Area (RNA) within 
the Strait of Juan de Fuca to permanently establish VTS Measures to 
modify traffic lanes to accommodate the usual and customary fishing 
grounds of regional tribes. Recent changes to the Traffic Separation 
Scheme conflicted with traditional fishing areas and impeded the 
ability of the tribes to fish safely. The RNA will reroute vessel 
traffic safely around traditional fishing areas, greatly reducing risk 
of collision and associated pollution.

    Question 18. Has the Coast Guard ever done a cost-benefit analysis 
on the use of standby tugs to prevent oil spills in Puget Sound?
    Answer. Yes. A regulatory assessment entitled, ``Use of Tugs to 
Protect Against Oil Spills in the Puget Sound Area'' (Report No. 9522-
002) was published November 15, 1999, and is available on the Internet 
at http://www.uscg.mil/hq/g-m/pscb.pdf.
                                 ______
                                 
   Response to Written Question Submitted by Hon. Maria Cantwell to 
                             Richard Wright
    Question 1. I understand that a recent Washington State Department 
of Ecology-funded study on the role of fishing vessels in clean-ups 
found that there might be insufficient vessel capabilities for 
responding to an oil spill in Washington. Do you agree with the 
report's conclusions? If not, please let me know your specific 
concerns.
    Answer. As I stated at the field hearing, in a very large spill, it 
is hard to argue that additional well-trained people and vessels would 
not be a help. However, the study did not look at the program MSRC has 
in place to train and access vessels and people of opportunity. I have 
been in the process of improving that program since well before the 
study and will continue to do so. The Department of Ecology (DOE) is 
also working on this program as the study recommended that a government 
agency take on this task to avoid potential competition for the same 
limited resources by the various response entities. MSRC will lend 
every assistance to the State in this project. Also, the study failed 
to account for the considerable resources available to MSRC through our 
Memorandum of Agreement with Burrard Clean Operations of British 
Columbia, our partners to the north. One additional comment, it would 
be a mistake to focus strictly on fishing vessels. Fishing vessels and 
their crews are quite nomadic. This is especially true of the Puget 
Sound-based fleet. This makes crews difficult to keep trained and 
vessels difficult to depend upon. MSRC's program includes vessels of 
opportunity of all types, such as tugs and workboats, as well as 
fishing vessels.

    Question 2. If you believe there are gaps in the current oil spill 
prevention and response regime, what should be done to address them? 
Are there steps that should be taken at the Federal level, both through 
resource commitments or Federal legislation?
    Answer. Once again, as I stated at the field hearing, I believe 
that our biggest gap is in the area of remote sensing. I would support 
any innovative research in any phase of response activities; however, 
remote sensing remains the most important area, in my opinion. This is 
most critical in the early hours of small to medium-sized releases, 
especially at night. It may seem easy to find oil on water, but it 
usually is not. Certainly, huge spills are obvious early in the 
response, but as they quickly spread and age, finding the best place 
for recovery activities becomes more difficult. Currently, most of the 
effort in the U.S. seems to be focused on infrared technology. However, 
the Canadian government has made great strides in laser-based sensing, 
which shows much more promise than infrared. As this represents 
possible international collaboration, it would seem that the Federal 
Government should take the lead. In a time of limited resources, remote 
sensing represents the biggest bang for the buck.

    Question 3. You testified that in Washington State, the amount of 
response equipment and location of such equipment far exceeds Federal 
requirements. Why is that? Is it a function of state law or is this a 
voluntary prevention initiative on the part of industry? Does this mean 
that the level of response equipment in other parts of the country may 
be lacking?
    Answer. Oil spill response in Washington is very much a partnership 
effort between the state, the Coast Guard, and industry. Where we are 
today is reflective of that partnership. In cooperation with the 
regulatory community, the industry has spent hundreds of millions of 
dollars and invested hundreds of thousand of person-hours in making the 
response stature in Washington the finest in the country, if not the 
world. Laws and regulations have not been the drivers; protecting our 
unique environment has been. I am not able to speak for other sections 
of our country directly; however, OPA 90 and subsequent regulations 
have provided a set of minimum standards for the entire nation. Here in 
Washington, as previously stated, we greatly exceed these minimum 
requirements.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
